APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROBERT MARTIN; LAWRENCE LEE
SMITH; ROBERT ANDERSON; JANET
F. BELL; PAMELA S. HAWKES; and
BASIL E. HUMPHREY,

No. 15-35845
D.C. No.
1:09-cv-00540REB

Plaintiffs-Appellants,
v.
CITY OF BOISE,
Defendant-Appellee.

ORDER AND
AMENDED
OPINION

Appeal from the United States District Court
for the District of Idaho
Ronald E. Bush, Chief Magistrate Judge, Presiding
Argued and Submitted July 13, 2017
Portland, Oregon
Filed: April 1, 2019
Before: Marsha S. Berzon, Paul J. Watford,
and John B. Owens, Circuit Judges.
Order;
Concurence in Order by Judge Berzon;
Dissent to Order by Judge Milan D. Smith, Jr.;
Dissent to Order by Judge Bennett;
Opinion by Judge Berzon;
Partial Concurrence and Partial Dissent by Judge
Owens

2a
_________________________________________________
ORDER
The Opinion filed September 4, 2018, and reported at 902 F.3d 1031, is hereby amended. The
amended opinion will be filed concurrently with this
order.
The panel has unanimously voted to deny the petition for panel rehearing. The full court was advised
of the petition for rehearing en banc. A judge requested a vote on whether to rehear the matter en
banc. The matter failed to receive a majority of votes
of the nonrecused active judges in favor of en banc consideration. Fed. R. App. P. 35. The petition for panel
rehearing and the petition for rehearing en banc are
DENIED.
Future petitions for rehearing or rehearing en
banc will not be entertained in this case.
________________________________________________
BERZON, Circuit Judge, concurring in the denial of
rehearing en banc:
I strongly disfavor this circuit’s innovation in en
banc procedure—ubiquitous dissents in the denial of
rehearing en banc, sometimes accompanied by concurrences in the denial of rehearing en banc. As I have
previously explained, dissents in the denial of rehearing en banc, in particular, often engage in a “distorted
presentation of the issues in the case, creating the impression of rampant error in the original panel opinion although a majority—often a decisive majority—
of the active members of the court . . . perceived no
error.” Defs. of Wildlife Ctr. for Biological Diversity v.
EPA, 450 F.3d 394, 402 (9th Cir. 2006) (Berzon, J.,
concurring in denial of rehearing en banc); see also

3a
Marsha S. Berzon, Dissent, “Dissentals,” and Decision
Making, 100 Calif. L. Rev. 1479 (2012). Often times,
the dramatic tone of these dissents leads them to read
more like petitions for writ of certiorari on steroids,
rather than reasoned judicial opinions.
Despite my distaste for these separate writings, I
have, on occasion, written concurrences in the denial
of rehearing en banc. On those rare occasions, I have
addressed arguments raised for the first time during
the en banc process, corrected misrepresentations, or
highlighted important facets of the case that had yet
to be discussed.
This case serves as one of the few occasions in
which I feel compelled to write a brief concurrence. I
will not address the dissents’ challenges to the Heck v.
Humphrey, 512 U.S. 477 (1994), and Eighth Amendment rulings of Martin v. City of Boise, 902 F.3d 1031
(9th Cir. 2018), as the opinion sufficiently rebuts those
erroneous arguments. I write only to raise two points.
First, the City of Boise did not initially seek en
banc reconsideration of the Eighth Amendment holding. When this court solicited the parties’ positions as
to whether the Eighth Amendment holding merits en
banc review, the City’s initial submission, before
mildly supporting en banc reconsideration, was that
the opinion is quite “narrow” and its “interpretation of
the [C]onstitution raises little actual conflict with
Boise’s Ordinances or [their] enforcement.” And the
City noted that it viewed prosecution of homeless individuals for sleeping outside as a “last resort,” not as
a principal weapon in reducing homelessness and its
impact on the City.
The City is quite right about the limited nature of
the opinion. On the merits, the opinion holds only

4a
that municipal ordinances that criminalize sleeping,
sitting, or lying in all public spaces, when no alternative sleeping space is available, violate the Eighth
Amendment. Martin, 902 F.3d at 1035. Nothing in
the opinion reaches beyond criminalizing the biologically essential need to sleep when there is no available
shelter.
Second, Judge M. Smith’s dissent features an unattributed color photograph of “a Los Angeles public
sidewalk.” The photograph depicts several tents lining a street and is presumably designed to demonstrate the purported negative impact of Martin. But
the photograph fails to fulfill its intended purpose for
several reasons.
For starters, the picture is not in the record of this
case and is thus inappropriately included in the dissent. It is not the practice of this circuit to include
outside-the-record photographs in judicial opinions,
especially when such photographs are entirely unrelated to the case. And in this instance, the photograph
is entirely unrelated. It depicts a sidewalk in Los Angeles, not a location in the City of Boise, the actual
municipality at issue. Nor can the photograph be said
to illuminate the impact of Martin within this circuit,
as it predates our decision and was likely taken in
2017.1

1

Although Judge M. Smith does not credit the photograph to
any source, an internet search suggests that the original photograph is attributable to Los Angeles County. See Implementing
the Los Angeles County Homelessness Initiative, L.A. County,
http://homeless.lacounty.gov/implementing-the-los-angelescounty-homeless-initiative/
[https://web.archive.org/web/?20170405225036/homeless.lacounty.gov/implem
enting-the-los-angeles-county-homeless-initiative/#]; see also
Los Angeles County (@CountyofLA), Twitter (Nov. 29, 2017, 3:23

5a
But even putting aside the use of a pre-Martin,
outside-the-record photograph from another municipality, the photograph does not serve to illustrate a
concrete effect of Martin’s holding. The opinion
clearly states that it is not outlawing ordinances “barring the obstruction of public rights of way or the erection of certain structures,” such as tents, id. at 1048
n.8, and that the holding “in no way dictate[s] to the
City that it must provide sufficient shelter for the
homeless, or allow anyone who wishes to sit, lie, or
sleep on the streets . . . at any time and at any place,”
id. at 1048 (quoting Jones v. City of Los Angeles, 444
F.3d 1118, 1138 (9th Cir. 2006)).
What the pre-Martin photograph does demonstrate is that the ordinances criminalizing sleeping in
public places were never a viable solution to the homelessness problem. People with no place to live will
sleep outside if they have no alternative. Taking them
to jail for a few days is both unconstitutional, for the
reasons discussed in the opinion, and, in all likelihood,
pointless.
The distressing homelessness problem—distressing to the people with nowhere to live as well as to the
rest of society—has grown into a crisis for many reasons, among them the cost of housing, the drying up
of affordable care for people with mental illness, and
the failure to provide adequate treatment for drug addiction. See, e.g., U.S. Interagency Council on Homelessness, Homelessness in America: Focus on Individual Adults 5–8 (2018), https://www.usich.gov/res
ources/?uploads/asset_library/HIA_Individual_Adults.pdf. The crisis continued to burgeon while
ordinances forbidding sleeping in public were on the
PM),
tus/936012841533894657.

https://twitter.com/CountyofLA/sta-

6a
books and sometimes enforced. There is no reason to
believe that it has grown, and is likely to grow larger,
because Martin held it unconstitutional to criminalize
simply sleeping somewhere in public if one has nowhere else to do so.
For the foregoing reasons, I concur in the denial of
rehearing en banc.
________________________________________________
M. SMITH, Circuit Judge, with whom CALLAHAN,
BEA, IKUTA, BENNETT, and R. NELSON, Circuit
Judges, join, dissenting from the denial of rehearing
en banc:
In one misguided ruling, a three-judge panel of
our court badly misconstrued not one or two, but three
areas of binding Supreme Court precedent, and
crafted a holding that has begun wreaking havoc on
local governments, residents, and businesses throughout our circuit. Under the panel’s decision, local governments are forbidden from enforcing laws restricting public sleeping and camping unless they provide
shelter for every homeless individual within their jurisdictions. Moreover, the panel’s reasoning will soon
prevent local governments from enforcing a host of
other public health and safety laws, such as those prohibiting public defecation and urination. Perhaps
most unfortunately, the panel’s opinion shackles the
hands of public officials trying to redress the serious
societal concern of homelessness.1

1

With almost 553,000 people who experienced homelessness
nationwide on a single night in January 2018, this issue affects
communities across our country. U.S. Dep’t of Hous. & Urban
Dev., Office of Cmty. Planning & Dev., The 2018 Annual Homeless Assessment Report (AHAR) to Congress 1 (Dec. 2018),

7a
I respectfully dissent from our court’s refusal to
correct this holding by rehearing the case en banc.
I.
The most harmful aspect of the panel’s opinion is
its misreading of Eighth Amendment precedent. My
colleagues cobble together disparate portions of a fragmented Supreme Court opinion to hold that “an ordinance violates the Eighth Amendment insofar as it
imposes criminal sanctions against homeless individuals for sleeping outdoors, on public property, when
no alternative shelter is available to them.” Martin v.
City of Boise, 902 F.3d 1031, 1035 (9th Cir. 2018).
That holding is legally and practically ill-conceived,
and conflicts with the reasoning of every other appellate court2 that has considered the issue.
A.
The panel struggles to paint its holding as a faithful interpretation of the Supreme Court’s fragmented
opinion in Powell v. Texas, 392 U.S. 514 (1968). It
fails.
To understand Powell, we must begin with the
Court’s decision in Robinson v. California, 370 U.S.
660 (1962). There, the Court addressed a statute that
made it a “criminal offense for a person to ‘be addicted
to the use of narcotics.’” Robinson, 370 U.S. at 660
(quoting Cal. Health & Safety Code § 11721). The

https://www.hudexchange.info/resources/documents/2018AHAR-Part-1.pdf.
2

Our court previously adopted the same Eighth Amendment
holding as the panel in Jones v. City of Los Angeles, 444 F.3d
1118, 1138 (9th Cir. 2006), but that decision was later vacated.
505 F.3d 1006 (9th Cir. 2007).

8a
statute allowed defendants to be convicted so long as
they were drug addicts, regardless of whether they actually used or possessed drugs. Id. at 665. The Court
struck down the statute under the Eighth Amendment, reasoning that because “narcotic addiction is an
illness . . . which may be contracted innocently or involuntarily . . . a state law which imprisons a person
thus afflicted as criminal, even though he has never
touched any narcotic drug” violates the Eighth
Amendment. Id. at 667.
A few years later, in Powell, the Court addressed
the scope of its holding in Robinson. Powell concerned
the constitutionality of a Texas law that criminalized
public drunkenness. Powell, 392 U.S. at 516. As the
panel’s opinion acknowledges, there was no majority
in Powell. The four Justices in the plurality interpreted the decision in Robinson as standing for the
limited proposition that the government could not
criminalize one’s status. Id. at 534. They held that
because the Texas statute criminalized conduct rather
than alcoholism, the law was constitutional. Powell,
392 U.S. at 532.
The four dissenting Justices in Powell read Robinson more broadly: They believed that “criminal penalties may not be inflicted upon a person for being in
a condition he is powerless to change.” Id. at 567 (Fortas, J., dissenting). Although the statute in Powell differed from that in Robinson by covering involuntary
conduct, the dissent found the same constitutional defect present in both cases. Id. at 567–68.
Justice White concurred in the judgment. He upheld the defendant’s conviction because Powell had
not made a showing that he was unable to stay off the
streets on the night he was arrested. Id. at 552–53
(White, J., concurring in the result). He wrote that it

9a
was “unnecessary to pursue at this point the further
definition of the circumstances or the state of intoxication which might bar conviction of a chronic alcoholic for being drunk in a public place.” Id. at 553.
The panel contends that because Justice White
concurred in the judgment alone, the views of the dissenting Justices constitute the holding of Powell.
Martin, 902 F.3d at 1048. That tenuous reasoning—
which metamorphosizes the Powell dissent into the
majority opinion—defies logic.
Because Powell was a 4–1–4 decision, the Supreme Court’s decision in Marks v. United States
guides our analysis. 430 U.S. 188 (1977). There, the
Court held that “[w]hen a fragmented Court decides a
case and no single rationale explaining the result enjoys the assent of five Justices, ‘the holding of the
Court may be viewed as that position taken by those
Members who concurred in the judgments on the narrowest grounds.’” Id. at 193 (quoting Gregg v. Georgia,
428 U.S. 153, 169 n.15 (1976) (plurality opinion)) (emphasis added). When Marks is applied to Powell, the
holding is clear: The defendant’s conviction was constitutional because it involved the commission of an
act. Nothing more, nothing less.
This is hardly a radical proposition. I am not
alone in recognizing that “there is definitely no Supreme Court holding” prohibiting the criminalization
of involuntary conduct. United States v. Moore, 486
F.2d 1139, 1150 (D.C. Cir. 1973) (en banc). Indeed, in
the years since Powell was decided, courts—including
our own—have routinely upheld state laws that criminalized acts that were allegedly compelled or involuntary. See, e.g., United States v. Stenson, 475 F.
App’x 630, 631 (7th Cir. 2012) (holding that it was con-

10a
stitutional for the defendant to be punished for violating the terms of his parole by consuming alcohol because he “was not punished for his status as an alcoholic but for his conduct”); Joshua v. Adams, 231 F.
App’x 592, 594 (9th Cir. 2007) (“Joshua also contends
that the state court ignored his mental illness [schizophrenia], which rendered him unable to control his
behavior, and his sentence was actually a penalty for
his illness . . . . This contention is without merit because, in contrast to Robinson, where a statute specifically criminalized addiction, Joshua was convicted of
a criminal offense separate and distinct from his ‘status’ as a schizophrenic.”); United States v. Benefield,
889 F.2d 1061, 1064 (11th Cir. 1989) (“The considerations that make any incarceration unconstitutional
when a statute punishes a defendant for his status are
not applicable when the government seeks to punish
a person’s actions.”).3
To be sure, Marks is controversial. Last term, the
Court agreed to consider whether to abandon the rule
Marks established (but ultimately resolved the case
on other grounds and found it “unnecessary to consider . . . the proper application of Marks”). Hughes v.
United States, 138 S. Ct. 1765, 1772 (2018). At oral
argument, the Justices criticized the logical subset
rule established by Marks for elevating the outlier
views of concurring Justices to precedential status.”4
The Court also acknowledged that lower courts have

3
That most of these opinions were unpublished only buttresses my point: It is uncontroversial that Powell does not prohibit the criminalization of involuntary conduct.
4

Transcript of Oral Argument at 14, Hughes v. United States,
138 S. Ct. 1765 (2018) (No. 17-155).

11a
inconsistently interpreted the holdings of fractured
decisions under Marks.5
Those criticisms, however, were based on the assumption that Marks means what it says and says
what it means: Only the views of the Justices concurring in the judgment may be considered in construing
the Court’s holding. Marks, 430 U.S. at 193. The Justices did not even think to consider that Marks allows
dissenting Justices to create the Court’s holding. As
a Marks scholar has observed, such a method of vote
counting “would paradoxically create a precedent that
contradicted the judgment in that very case.”6 And
yet the panel’s opinion flouts that common sense rule
to extract from Powell a holding that does not exist.
What the panel really does is engage in a predictive model of precedent. The panel opinion implies
that if a case like Powell were to arise again, a majority of the Court would hold that the criminalization of
involuntary conduct violates the Eighth Amendment.
Utilizing such reasoning, the panel borrows the Justices’ robes and adopts that holding on their behalf.
But the Court has repeatedly discouraged us from
making such predictions when construing precedent.
See Rodriguez de Quijas v. Shearson/Am. Express,
Inc., 490 U.S. 477, 484 (1989). And, for good reason.
Predictions about how Justices will rule rest on unwarranted speculation about what goes on in their
minds. Such amateur fortunetelling also precludes us
from considering new insights on the issues—difficult

5
6

Id. at 49.

Richard M. Re, Beyond the Marks Rule, 132 Harv. L. Rev.
(forthcoming 2019), https://papers.ssrn.com/sol3/papers.cfm?abstract_i d=3090620.

12a
as they may be in the case of 4–1–4 decisions like Powell—that have arisen since the Court’s fragmented
opinion. See E.I. du Pont de Nemours & Co. v. Train,
430 U.S. 112, 135 n.26 (1977) (noting “the wisdom of
allowing difficult issues to mature through full consideration by the courts of appeals”).
In short, predictions about how the Justices will
rule ought not to create precedent. The panel’s Eighth
Amendment holding lacks any support in Robinson or
Powell.
B.
Our panel’s opinion also conflicts with the reasoning underlying the decisions of other appellate courts.
The California Supreme Court, in Tobe v. City of
Santa Ana, rejected the plaintiffs’ Eighth Amendment
challenge to a city ordinance that banned public camping. 892 P.2d 1145 (1995). The court reached that
conclusion despite evidence that, on any given night,
at least 2,500 homeless persons in the city did not
have shelter beds available to them. Id. at 1152. The
court sensibly reasoned that because Powell was a
fragmented opinion, it did not create precedent on
“the question of whether certain conduct cannot constitutionally be punished because it is, in some sense,
‘involuntary’ or ‘occasioned by a compulsion.’” Id. at
1166 (quoting Powell, 392 U.S. at 533). Our panel—
bound by the same Supreme Court precedent—invalidates identical California ordinances previously upheld by the California Supreme Court. Both courts
cannot be correct.
The California Supreme Court acknowledged that
homelessness is a serious societal problem. It explained, however, that:

13a
Many of those issues are the result of legislative policy decisions. The arguments
of many amici curiae regarding the apparently intractable problem of homelessness and the impact of the Santa Ana
ordinance on various groups of homeless
persons (e.g., teenagers, families with
children, and the mentally ill) should be
addressed to the Legislature and the Orange County Board of Supervisors, not
the judiciary. Neither the criminal justice system nor the judiciary is equipped
to resolve chronic social problems, but
criminalizing conduct that is a product of
those problems is not for that reason constitutionally impermissible.
Id. at 1157 n.12. By creating new constitutional
rights out of whole cloth, my well-meaning, but unelected, colleagues improperly inject themselves into
the role of public policymaking.7

7

Justice Black has also observed that solutions for challenging social issues should be left to the policymakers:
I cannot say that the States should be totally
barred from one avenue of experimentation, the
criminal process, in attempting to find a means
to cope with this difficult social problem . . . . [I]t
seems to me that the present use of criminal
sanctions might possibly be unwise, but I am by
no means convinced that any use of criminal
sanctions would inevitably be unwise or, above
all, that I am qualified in this area to know what
is legislatively wise and what is legislatively unwise.
Powell, 392 U.S. at 539–40 (Black, J., concurring).

14a
The reasoning of our panel decision also conflicts
with precedents of the Fourth and Eleventh Circuits.
In Manning v. Caldwell, the Fourth Circuit held that
a Virginia statute that criminalized the possession of
alcohol did not violate the Eighth Amendment when
it punished the involuntary actions of homeless alcoholics. 900 F.3d 139, 153 (4th Cir. 2018), reh’g en banc
granted 741 F. App’x 937 (4th Cir. 2018).8 The court
rejected the argument that Justice White’s opinion in
Powell “requires this court to hold that Virginia’s statutory scheme imposes cruel and unusual punishment
because it criminalizes [plaintiffs’] status as homeless
alcoholics.” Id. at 145. The court found that the statute passed constitutional muster because “it is the act
of possessing alcohol—not the status of being an alcoholic—that gives rise to criminal sanctions.” Id. at
147.
Boise’s Ordinances at issue in this case are no different: They do not criminalize the status of homelessness, but only the act of camping on public land or
occupying public places without permission. Martin,
902 F.3d at 1035. The Fourth Circuit correctly recognized that these kinds of laws do not run afoul of Robinson and Powell.
The Eleventh Circuit has agreed. In Joel v. City
of Orlando, the court held that a city ordinance prohibiting sleeping on public property was constitutional. 232 F.3d 1353, 1362 (11th Cir. 2000). The
court rejected the plaintiffs’ Eighth Amendment challenge because the ordinance “targets conduct, and

8

Pursuant to Fourth Circuit Local Rule 35(c), “[g]ranting of
rehearing en banc vacates the previous panel judgment and opinion.” I mention Manning, however, as an illustration of other
courts’ reasoning on the Eighth Amendment issue.

15a
does not provide criminal punishment based on a person’s status.” Id. The court prudently concluded that
“[t]he City is constitutionally allowed to regulate
where ‘camping’ occurs.” Id.
We ought to have adopted the sound reasoning of
these other courts. By holding that Boise’s enforcement of its Ordinances violates the Eighth Amendment, our panel has needlessly created a split in authority on this straightforward issue.
C.
One would think our panel’s legally incorrect decision would at least foster the common good. Nothing
could be further from the truth. The panel’s decision
generates dire practical consequences for the hundreds of local governments within our jurisdiction,
and for the millions of people that reside therein.
The panel opinion masquerades its decision as a
narrow one by representing that it “in no way dictate[s] to the City that it must provide sufficient shelter for the homeless, or allow anyone who wishes to
sit, lie, or sleep on the streets . . . at any time and at
any place.” Martin, 902 F.3d at 1048 (quoting Jones
v. City of Los Angeles, 444 F.3d 1118, 1138 (9th Cir.
2006)).
That excerpt, however, glosses over the decision’s
actual holding: “We hold only that . . . as long as there
is no option of sleeping indoors, the government cannot criminalize indigent, homeless people for sleeping
outdoors, on public property.” Id. Such a holding
leaves cities with a Hobson’s choice: They must either
undertake an overwhelming financial responsibility
to provide housing for or count the number of homeless individuals within their jurisdiction every night,
or abandon enforcement of a host of laws regulating

16a
public health and safety. The Constitution has no
such requirement.
*

*

*

Under the panel’s decision, local governments can
enforce certain of their public health and safety laws
only when homeless individuals have the choice to
sleep indoors. That inevitably leads to the question of
how local officials ought to know whether that option
exists.
The number of homeless individuals within a municipality on any given night is not automatically reported and updated in real time. Instead, volunteers
or government employees must painstakingly tally
the number of homeless individuals block by block, alley by alley, doorway by doorway. Given the daily
fluctuations in the homeless population, the panel’s
opinion would require this labor-intensive task be
done every single day. Yet in massive cities such as
Los Angeles, that is simply impossible. Even when
thousands of volunteers devote dozens of hours to
such “a herculean task,” it takes three days to finish
counting—and even then “not everybody really gets
counted.”9 Lest one think Los Angeles is unique, our

9

Matt Tinoco, LA Counts Its Homeless, But Counting Everybody Is Virtually Impossible, LAist (Jan. 22, 2019, 2:08 PM),
https://laist.com/2019/01/22/los_angeles_homeless_count_2019_how_v olunteer.php. The panel conceded the
imprecision of such counts in its opinion. See Martin, 902 F.3d
at 1036 n.1 (acknowledging that the count of homeless individuals “is not always precise”). But it went on to disregard that fact
when tying a city’s ability to enforce its laws to these counts.

17a
circuit is home to many of the largest homeless populations nationwide.10
If cities do manage to cobble together the resources for such a system, what happens if officials
(much less volunteers) miss a homeless individual
during their daily count and police issue citations under the false impression that the number of shelter
beds exceeds the number of homeless people that
night? According to the panel’s opinion, that city has
violated the Eighth Amendment, thereby potentially
leading to lawsuits for significant monetary damages
and other relief.
And what if local governments (understandably)
lack the resources necessary for such a monumental
task?11 They have no choice but to stop enforcing laws
10
The U.S. Department of Housing and Urban Development’s
2018 Annual Homeless Assessment Report to Congress reveals
that municipalities within our circuit have among the highest
homeless populations in the country. In Los Angeles City and
County alone, 49,955 people experienced homelessness in 2018.
The number was 12,112 people in Seattle and King County,
Washington, and 8,576 people in San Diego City and County,
California. See supra note 1, at 18, 20. In 2016, Las Vegas had
an estimated homeless population of 7,509 individuals, and California’s Santa Clara County had 6,556. Joaquin Palomino, How
Many People Live On Our Streets?, S.F. Chronicle (June 28,
2016), https://projects.sfchronicle.com/sf-homeless/numbers.
11

Cities can instead provide sufficient housing for every homeless individual, but the cost would be prohibitively expensive for
most local governments. Los Angeles, for example, would need
to spend $403.4 million to house every homeless individual not
living in a vehicle. See Los Angeles Homeless Services Authority, Report on Emergency Framework to Homelessness Plan 13
(June
2018),
https://assets.documentcloud.org/documents/4550980/LAHSA-Sheltering-Report.pdf. In San Francisco, building new centers to provide a mere 400 additional shelter spaces was estimated to cost between $10 million and $20

18a
that prohibit public sleeping and camping.12 Accordingly, our panel’s decision effectively allows homeless

million, and would require $20 million to $30 million to operate
each year. See Heather Knight, A Better Model, A Better Result?,
S.F. Chronicle (June 29, 2016), https://projects.sfchronicle.com/sf-homeless/shelters. Perhaps these staggering sums are
why the panel went out of its way to state that it “in no way dictate[s] to the City that it must provide sufficient shelter for the
homeless.” Martin, 902 F.3d at 1048.
12

Indeed, in the few short months since the panel’s decision,
several cities have thrown up their hands and abandoned any
attempt to enforce such laws. See, e.g., Cynthia Hubert, Sacramento County Cleared Homeless Camps All Year. Now It Has
Stopped Citing Campers, Sacramento Bee (Sept. 18, 2019, 4:27
PM),
https://www.sacbee.com/ne
ws/local/homeless/article218605025.html (“Sacramento County park rangers have suddenly stopped issuing citations altogether after a federal court
ruling this month.”); Michael Ellis Langley, Policing Homelessness, Golden State Newspapers (Feb. 22, 2019), http://www.goldenstatenews
papers.com/tracy_press/news/policing-homelessness/article_5fe6a9ca-3642-11e9-9b25-37610ef2dbae.html
(Sheriff Pat Withrow stating that, “[a]s far as camping ordinances and things like that, we’re probably holding off on [issuing citations] for a while” in light of Martin v. City of Boise); Kelsie Morgan, Moses Lake Sees Spike in Homeless Activity Following 9th Circuit Court Decision, KXLY (Oct. 2, 2018, 12:50 PM),
https://www.kxly.com/news/moses-lake-sees-spike-in-homelessactivity-following-9th-circuit-court-decision/801772571
(“Because the City of Moses Lake does not currently have a homeless
shelter, city officials can no longer penalize people for sleeping in
public areas.”); Brandon Pho, Buena Park Residents Express Opposition to Possible Homeless Shelter, Voice of OC (Feb. 14, 2019),
https://voiceofoc.org/2019/02/buena-park-residents-express-opposition-to-possible-homeless-shelter/ (stating that Judge David
Carter of the U.S. District Court for the Central District of California has “warn[ed] Orange County cities to get more shelters
online or risk the inability the enforce their anti-camping ordinances”); Nick Welsh, Court Rules to Protect Sleeping in Public:
Santa Barbara City Parks Subject of Ongoing Debate, Santa Bar-

19a
individuals to sleep and live wherever they wish on
most public property. Without an absolute confidence
that they can house every homeless individual, city officials will be powerless to assist residents lodging
valid complaints about the health and safety of their
neighborhoods.13
As if the panel’s actual holding wasn’t concerning
enough, the logic of the panel’s opinion reaches even
further in scope. The opinion reasons that because
“resisting the need to . . . engage in [] life-sustaining
activities is impossible,” punishing the homeless for
engaging in those actions in public violates the Eighth
Amendment. Martin, 902 F.3d at 1048. What else is
a life-sustaining activity? Surely bodily functions. By
holding that the Eighth Amendment proscribes the
criminalization of involuntary conduct, the panel’s decision will inevitably result in the striking down of
laws that prohibit public defecation and urination.14
The panel’s reasoning also casts doubt on public safety
laws restricting drug paraphernalia, for the use of hypodermic needles and the like is no less involuntary

bara
Indep.
(Oct.
31,
2018),
http://www.independent.com/news/2018/oct/31/court-rules-protect-sleeping-public/?jqm (“In the wake of what’s known as ‘the Boise decision,’
Santa Barbara city police found themselves scratching their
heads over what they could and could not issue citations for.”).
13
In 2017, for example, San Francisco received 32,272 complaints about homeless encampments to its 311-line. Kevin Fagan, The Situation On The Streets, S.F. Chronicle (June 28,
2018), https://projects.sfchronicle.com/sf-homeless/2018-state-ofhomelessness.
14

See Heater Knight, It’s No Laughing Matter—SF Forming
Poop Patrol to Keep Sidewalks Clean, S.F. Chronicle (Aug. 14,
2018), https://www.sfchronicle.com/bayarea/heatherknight/article/It-s-no-laughing-matter-SF-forming-Poop-13153517.php.

20a
for the homeless suffering from the scourge of addiction than is their sleeping in public.
It is a timeless adage that states have a “universally acknowledged power and duty to enact and enforce all such laws . . . as may rightly be deemed necessary or expedient for the safety, health, morals,
comfort and welfare of its people.” Knoxville Iron Co.
v. Harbison, 183 U.S. 13, 20(1901) (internal quotations omitted). I fear that the panel’s decision will
prohibit local governments from fulfilling their duty
to enforce an array of public health and safety laws.
Halting enforcement of such laws will potentially
wreak havoc on our communities.15 As we have already begun to witness, our neighborhoods will soon
feature “[t]ents . . .equipped with mini refrigerators,
cupboards, televisions, and heaters, [that] vie with pedestrian traffic” and “human waste appearing on sidewalks and at local playgrounds.”16

15
See Anna Gorman and Kaiser Health News, Medieval Diseases Are Infecting California’s Homeless, The Atlantic (Mar. 8,
2019), https://www.theatlantic.com/health/archive/2019/03/typhus-tuberculosis-medieval-diseases-spreading-homeless/584380/ (describing the recent outbreaks of typhus, Hepatitis A, and shigellosis as “disaster[s] and [a] public-health crisis”
and noting that such “diseases spread quickly and widely among
people living outside or in shelters”).
16

Scott Johnson and Peter Kiefer, LA’s Battle for Venice Beach:
Homeless Surge Puts Hollywood’s Progressive Ideals to the Test,
Hollywood Reporter (Jan. 11, 2019, 6:00 AM), https://www.hollywoodreporter.com/features/las-homelesssurge-puts-hollywoods-progressive-ideals-test-1174599.

21a

A Los Angeles Public Sidewalk
II.
The panel’s fanciful merits-determination is accompanied by a no-less-inventive series of procedural
rulings. The panel’s opinion also misconstrues two
other areas of Supreme Court precedent concerning
limits on the parties who can bring § 1983 challenges
for violations of the Eighth Amendment.
A.
The panel erred in holding that Robert Martin and
Robert Anderson could obtain prospective relief under
Heck v. Humphrey and its progeny. 512 U.S. 477
(1994). As recognized by Judge Owens’s dissent, that
conclusion cuts against binding precedent on the issue.
The Supreme Court has stated that Heck bars
§ 1983 claims if success on that claim would “necessarily demonstrate the invalidity of [the plaintiff’s]
confinement or its duration.” Wilkinson v. Dotson,
544 U.S. 74, 82 (2005); see also Edwards v. Balisok,
520 U.S. 641, 648 (1997) (stating that Heck applies to

22a
claims for declaratory relief). Martin and Anderson’s
prospective claims did just that. Those plaintiffs
sought a declaration that the Ordinances under which
they were convicted are unconstitutional and an injunction against their future enforcement on the
grounds of unconstitutionality. It is clear that Heck
bars these claims because Martin and Anderson necessarily seek to demonstrate the invalidity of their
previous convictions.
The panel opinion relies on Edwards to argue that
Heck does not bar plaintiffs’ requested relief, but Edwards cannot bear the weight the panel puts on it. In
Edwards, the plaintiff sought an injunction that
would require prison officials to date-stamp witness
statements at the time received. 520 U.S. at 643. The
Court concluded that requiring prison officials to datestamp witness statements did not necessarily imply
the invalidity of previous determinations that the
prisoner was not entitled to good-time credits, and
that Heck, therefore, did not bar prospective injunctive relief. Id. at 648.
Here, in contrast, a declaration that the Ordinances are unconstitutional and an injunction against
their future enforcement necessarily demonstrate the
invalidity of the plaintiffs’ prior convictions. According to data from the U.S. Department of Housing and
Urban Development, the number of homeless individuals in Boise exceeded the number of available shelter
beds during each of the years that the plaintiffs were
cited.17 Under the panel’s holding that “the government cannot criminalize indigent, homeless people for

17

See U.S. Dep’t of Hous. & Urban Dev., PIT Data Since 2007,
https://www.hudexchange.info/resources/documents/2007-2018PIT-Counts-by-CoC.xlsx; U.S. Dep’t of Hous. & Urban Dev., HIC

23a
sleeping outdoors, on public property” “as long as
there is no option of sleeping indoors,” that data necessarily demonstrates the invalidity of the plaintiffs’
prior convictions. Martin, 902 F.3d at 1048.
B.
The panel also erred in holding that Robert Martin and Pamela Hawkes, who were cited but not convicted of violating the Ordinances, had standing to sue
under the Eighth Amendment. In so doing, the panel
created a circuit split with the Fifth Circuit.
The panel relied on Ingraham v. Wright, 430 U.S.
651 (1977), to find that a plaintiff “need demonstrate
only the initiation of the criminal process against him,
not a conviction,” to bring an Eighth Amendment challenge. Martin, 902 F.3d at 1045. The panel cites Ingraham’s observation that the Cruel and Unusual
Punishments Clause circumscribes the criminal process in that “it imposes substantive limits on what can
be made criminal and punished as such.” Id. at 1046
(citing Ingraham, 430 U.S. at 667). This reading of
Ingraham, however, cherry picks isolated statements
from the decision without considering them in their
accurate context. The Ingraham Court plainly held
that “Eighth Amendment scrutiny is appropriate only
after the State has complied with the constitutional
guarantees traditionally associated with criminal
prosecutions.” 430 U.S. at 671 n.40. And, “the State
does not acquire the power to punish with which the
Eighth Amendment is concerned until after it has secured a formal adjudication of guilt.” Id. (emphasis

Data Since 2007, https://www.hudexchange.info/resources/documents/2007-2018-HIC-Counts-by-CoC.xlsx. Boise is within Ada
County and listed under CoC code ID-500.

24a
added). As the Ingraham Court recognized, “[T]he decisions of [the Supreme] Court construing the proscription against cruel and unusual punishment confirms that it was designed to protect those convicted
of crimes.” Id. at 664 (emphasis added). Clearly, then,
Ingraham stands for the proposition that to challenge
a criminal statute as violative of the Eighth Amendment, the individual must be convicted of that relevant crime.
The Fifth Circuit recognized this limitation on
standing in Johnson v. City of Dallas, 61 F.3d 442 (5th
Cir. 1995). There, the court confronted a similar action brought by homeless individuals challenging a
sleeping in public ordinance. Johnson, 61 F.3d at 443.
The court held that the plaintiffs did not have standing to raise an Eighth Amendment challenge to the
ordinance because although “numerous tickets ha[d]
been issued . . . [there was] no indication that any Appellees ha[d] been convicted” of violating the sleeping
in public ordinance. Id. at 445. The Fifth Circuit explained that Ingraham clearly required a plaintiff be
convicted under a criminal statute before challenging
that statute’s validity. Id. at 444–45 (citing Robinson,
370 U.S. at 663; Ingraham, 430 U.S. at 667).
By permitting Martin and Hawkes to maintain
their Eighth Amendment challenge, the panel’s decision created a circuit split with the Fifth Circuit and
took our circuit far afield from “[t]he primary purpose
of (the Cruel and Unusual Punishments Clause) . . .
[which is] the method or kind of punishment imposed
for the violation of criminal statutes.” Ingraham, 430
U.S. at 667 (quoting Powell, 392 U.S. at 531–32.

25a
III.
None of us is blind to the undeniable suffering
that the homeless endure, and I understand the
panel’s impulse to help such a vulnerable population.
But the Eighth Amendment is not a vehicle through
which to critique public policy choices or to hamstring
a local government’s enforcement of its criminal code.
The panel’s decision, which effectively strikes down
the anti-camping and anti-sleeping Ordinances of
Boise and that of countless, if not all, cities within our
jurisdiction, has no legitimate basis in current law.
I am deeply concerned about the consequences of
our panel’s unfortunate opinion, and I regret that we
did not vote to reconsider this case en banc. I respectfully dissent.
_________________________________________________

26a
BENNETT, Circuit Judge, with whom BEA, IKUTA,
and R. NELSON, Circuit Judges, join, and with whom
M. SMITH, Circuit Judge, joins as to Part II, dissenting from the denial of rehearing en banc:
I fully join Judge M. Smith’s opinion dissenting
from the denial of rehearing en banc. I write separately to explain that except in extraordinary circumstances not present in this case, and based on its text,
tradition, and original public meaning, the Cruel and
Unusual Punishments Clause of the Eighth Amendment does not impose substantive limits on what conduct a state may criminalize.
I recognize that we are, of course, bound by Supreme Court precedent holding that the Eighth
Amendment encompasses a limitation “on what can
be made criminal and punished as such.” Ingraham
v. Wright, 430 U.S. 651, 667 (1977) (citing Robinson v.
California, 370 U.S. 660 (1962)). However, the Ingraham Court specifically “recognized [this] limitation as
one to be applied sparingly.” Id. As Judge M. Smith’s
dissent ably points out, the panel ignored Ingraham’s
clear direction that Eighth Amendment scrutiny attaches only after a criminal conviction. Because the
panel’s decision, which allows pre-conviction Eighth
Amendment challenges, is wholly inconsistent with
the text and tradition of the Eighth Amendment, I respectfully dissent from our decision not to rehear this
case en banc.

27a
I.
The text of the Cruel and Unusual Punishments
Clause is virtually identical to Section 10 of the English Declaration of Rights of 1689, 1 and there is no
question that the drafters of the Eighth Amendment
were influenced by the prevailing interpretation of
Section 10. See Solem v. Helm, 463 U.S. 277, 286
(1983) (observing that one of the themes of the founding era “was that Americans had all the rights of English subjects” and the Framers’ “use of the language of
the English Bill of Rights is convincing proof that they
intended to provide at least the same protection”);
Timbs v. Indiana, 586 U.S. ___ (2019) (Thomas, J.,
concurring) (“[T]he text of the Eighth Amendment
was ‘based directly on . . . the Virginia Declaration of
Rights,’ which ‘adopted verbatim the language of the
English Bill of Rights.’” (quoting Browning-Ferris Indus. of Vt., Inc. v. Kelco Disposal, Inc., 492 U.S. 257,
266 (1989)). Thus, “not only is the original meaning
of the 1689 Declaration of Rights relevant, but also
the circumstances of its enactment, insofar as they
display the particular ‘rights of English subjects’ it
was designed to vindicate.” Harmelin v. Michigan,
501 U.S. 957, 967 (1991) (Scalia, J., concurring).
Justice Scalia’s concurrence in Harmelin provides
a thorough and well-researched discussion of the original public meaning of the Cruel and Unusual Punishments Clause, including a detailed overview of the
history of Section 10 of the English Declaration of

1

Wm. & Mary, 2d Sess., ch. 2, 3 Stat. at Large 440, 441 (1689)
(Section 10 of the English Declaration of Rights) (“excessive Baile
ought not to be required, nor excessive Fines imposed; nor cruell
and unusuall Punishments inflicted.”).

28a
Rights. See id. at 966–85 (Scalia, J., concurring). Rather than reciting Justice Scalia’s Harmelin discussion in its entirety, I provide only a broad description
of its historical analysis. Although the issue Justice
Scalia confronted in Harmelin was whether the Framers intended to graft a proportionality requirement on
the Eighth Amendment, see id. at 976, his opinion’s
historical exposition is instructive to the issue of what
the Eighth Amendment meant when it was written.
The English Declaration of Rights’s prohibition on
“cruell and unusuall Punishments” is attributed to
the arbitrary punishments imposed by the King’s
Bench following the Monmouth Rebellion in the late
17th century. Id. at 967 (Scalia, J., concurring). “Historians have viewed the English provision as a reaction either to the ‘Bloody Assize,’ the treason trials
conducted by Chief Justice Jeffreys in 1685 after the
abortive rebellion of the Duke of Monmouth, or to the
perjury prosecution of Titus Oates in the same year.”
Ingraham, 430 U.S. at 664 (footnote omitted).
Presiding over a special commission in the wake
of the Monmouth Rebellion, Chief Justice Jeffreys imposed “vicious punishments for treason,” including
“drawing and quartering, burning of women felons,
beheading, [and] disemboweling.” Harmelin, 501 U.S.
at 968. In the view of some historians, “the story of
The Bloody Assizes . . . helped to place constitutional
limitations on the crime of treason and to produce a
bar against cruel and unusual Punishments.” Furman v. Georgia, 408 U.S. 238, 254 (1972) (Douglas, J.,
concurring).
More recent scholarship suggests that Section 10
of the Declaration of Rights was motivated more by
Jeffreys’s treatment of Titus Oates, a Protestant cleric
and convicted perjurer. In addition to the pillory, the

29a
scourge, and life imprisonment, Jeffreys sentenced
Oates to be “stript of [his] Canonical Habits.” Harmelin, 501 U.S. at 970 (Scalia, J., concurring) (quoting
Second Trial of Titus Oates, 10 How. St. Tr. 1227,
1316 (K.B. 1685)). Years after the sentence was carried out, and months after the passage of the Declaration of Rights, the House of Commons passed a bill to
annul Oates’s sentence. Though the House of Lords
never agreed, the Commons issued a report asserting
that Oates’s sentence was the sort of “cruel and unusual Punishment” that Parliament complained of in
the Declaration of Rights. Harmelin, 501 U.S. at 972
(citing 10 Journal of the House of Commons 247 (Aug.
2, 1689)). In the view of the Commons and the dissenting Lords, Oates’s punishment was “‘out of the
Judges’ Power,’ ‘contrary to Law and ancient practice,’
without ‘Precedents’ or ‘express Law to warrant,’ ‘unusual,’ ‘illegal,’ or imposed by ‘Pretence to a discretionary Power.’” Id. at 973 (quoting 1 Journals of the
House of Lords 367 (May 31, 1689); 10 Journal of the
House of Commons 247 (Aug. 2, 1689)).
Thus, Justice Scalia concluded that the prohibition on “cruell and unusuall punishments” as used in
the English Declaration, “was primarily a requirement that judges pronouncing sentence remain within
the bounds of common-law tradition.” Harmelin, 501
U.S. at 974 (Scalia, J., concurring) (citing Ingraham,
430 U.S. at 665; 1 J. Chitty, Criminal Law 710–12 (5th
Am. ed. 1847); Anthony F. Granucci, Nor Cruel and
Unusual Punishments Inflicted: The Original Meaning, 57 Calif. L. Rev. 839, 859 (1969)).
But Justice Scalia was careful not to impute the
English meaning of “cruell and unusuall” directly to
the Framers of our Bill of Rights: “the ultimate question is not what ‘cruell and unusuall punishments’

30a
meant in the Declaration of Rights, but what its
meaning was to the Americans who adopted the
Eighth Amendment.” Id. at 975. “Wrenched out of its
common-law context, and applied to the actions of a
legislature . . . the Clause disables the Legislature
from authorizing particular forms or ‘modes’ of punishment—specifically, cruel methods of punishment
that are not regularly or customarily employed.” Id.
at 976.
As support for his conclusion that the Framers of
the Bill of Rights intended for the Eighth Amendment
to reach only certain punishment methods, Justice
Scalia looked to “the state ratifying conventions that
prompted the Bill of Rights.” Id. at 979. Patrick
Henry, speaking at the Virginia Ratifying convention,
“decried the absence of a bill of rights,” arguing that
“Congress will loose the restriction of not . . . inflicting
cruel and unusual punishments. . . . What has distinguished our ancestors?—They would not admit of tortures, or cruel and barbarous punishment.” Id. at 980
(quoting 3 J. Elliot, Debates on the Federal Constitution 447 (2d ed. 1854)). The Massachusetts Convention likewise heard the objection that, in the absence
of a ban on cruel and unusual punishments, “racks
and gibbets may be amongst the most mild instruments of [Congress’s] discipline.” Id. at 979 (internal
quotation marks omitted) (quoting 2 J. Debates on the
Federal Constitution, at 111).
These historical
sources “confirm[] the view that the cruel and unusual
punishments clause was directed at prohibiting certain methods of punishment.” Id. (internal quotation
marks omitted) (quoting Granucci, 57 Calif. L. Rev. at
842) (emphasis in Harmelin).
In addition, early state court decisions “interpreting state constitutional provisions with identical or

31a
more expansive wording (i.e., ‘cruel or unusual’) concluded that these provisions . . . proscribe[d] . . . only
certain modes of punishment.” Id. at 983; see also id.
at 982 (“Many other Americans apparently agreed
that the Clause only outlawed certain modes of punishment.”).
In short, when the Framers drafted and the several states ratified the Eighth Amendment, the original public meaning of the Cruel and Unusual Punishments Clause was “to proscribe . . . methods of punishment.” Estelle v. Gamble, 429 U.S. 97, 102 (1976).
There is simply no indication in the history of the
Eighth Amendment that the Cruel and Unusual Punishments Clause was intended to reach the substantive authority of Congress to criminalize acts or status, and certainly not before conviction. Incorporation, of course, extended the reach of the Clause to the
States, but worked no change in its meaning.
II.
The panel here held that “the Eighth Amendment
prohibits the imposition of criminal penalties for sitting, sleeping, or lying outside on public property for
homeless individuals who cannot obtain shelter.”
Martin v. City of Boise, 902 F.3d 1031, 1048 (9th Cir.
2018). In so holding, the panel allows challenges asserting this prohibition to be brought in advance of
any conviction. That holding, however, has nothing to
do with the punishment that the City of Boise imposes
for those offenses, and thus nothing to do with the text
and tradition of the Eighth Amendment.
The panel pays only the barest attention to the
Supreme Court’s admonition that the application of
the Eighth Amendment to substantive criminal law be

32a
“sparing[],”Martin, 902 F.3d at 1047 (quoting Ingraham, 430 U.S. at 667), and its holding here is dramatic
in scope and completely unfaithful to the proper interpretation of the Cruel and Unusual Punishments
Clause.
“The primary purpose of (the Cruel and Unusual
Punishments Clause) has always been considered,
and properly so, to be directed at the method or kind
of punishment imposed for the violation of criminal
statutes.” Ingraham, 430 U.S. at 667 (internal quotation marks omitted) (quoting Powell v. Texas, 392 U.S.
514, 531–32 (1968)). It should, therefore, be the “rare
case” where a court invokes the Eighth Amendment’s
criminalization component. Jones v. City of Los Angeles, 444 F.3d 1118, 1146 (9th Cir. 2006) (Rymer, J.,
dissenting), vacated, 505 F.3d 1006 (9th Cir. 2007).2
And permitting a pre-conviction challenge to a local
ordinance, as the panel does here, is flatly inconsistent with the Cruel and Unusual Punishments
Clause’s core constitutional function: regulating the
methods of punishment that may be inflicted upon one
convicted of an offense. Harmelin, 501 U.S. at 977,
979 (Scalia, J., concurring). As Judge Rymer, dissenting in Jones, observed, “the Eighth Amendment’s ‘pro-

2

Jones, of course, was vacated and lacks precedential value.
505 F.3d 1006 (9th Cir. 2007). But the panel here resuscitated
Jones’s errant holding, including, apparently, its application of
the Cruel and Unusual Punishments Clause in the absence of a
criminal conviction. We should have taken this case en banc to
correct this misinterpretation of the Eighth Amendment.

33a
tections do not attach until after conviction and sentence.’”3 444 F.3d at 1147 (Rymer, J., dissenting) (internal alterations omitted) (quoting Graham v. Connor, 490 U.S. 386, 392 n.6 (1989)).4
The panel’s holding thus permits plaintiffs who
have never been convicted of any offense to avail
themselves of a constitutional protection that, historically, has been concerned with prohibition of “only
certain modes of punishment.” Harmelin, 501 U.S. at
983; see also United States v. Quinn, 123 F.3d 1415,
1425 (11th Cir. 1997) (citing Harmelin for the proposition that a “plurality of the Supreme Court . . . has
rejected the notion that the Eighth Amendment’s protection from cruel and unusual punishment extends to
the type of offense for which a sentence is imposed”).
Extending the Cruel and Unusual Punishments
Clause to encompass pre-conviction challenges to substantive criminal law stretches the Eighth Amendment past its breaking point. I doubt that the drafters
of our Bill of Rights, the legislators of the states that
3
We have emphasized the need to proceed cautiously when
extending the reach of the Cruel and Unusual Punishments
Clause beyond regulation of the methods of punishment that
may be inflicted upon conviction for an offense. See United States
v. Ritter, 752 F.2d 435, 438 (9th Cir. 1985) (repeating Ingraham’s
direction that “this particular use of the cruel and unusual punishment clause is to be applied sparingly” and noting that Robinson represents “the rare type of case in which the clause has
been used to limit what may be made criminal”); see also United
States v. Ayala, 35 F.3d 423, 426 (9th Cir. 1994) (limiting application of Robinson to crimes lacking an actus reus). The panel’s
holding here throws that caution to the wind.
4

Judge Friendly also expressed “considerable doubt that the
cruel and unusual punishment clause is properly applicable at
all until after conviction and sentence.” Johnson v. Glick, 481
F.2d 1028, 1032 (2d Cir. 1973).

34a
ratified it, or the public at the time would ever have
imagined that a ban on “cruel and unusual punishments” would permit a plaintiff to challenge a substantive criminal statute or ordinance that he or she
had not even been convicted of violating. We should
have taken this case en banc to confirm that an Eighth
Amendment challenge does not lie in the absence of a
punishment following conviction for an offense.
*

*

*

At common law and at the founding, a prohibition
on “cruel and unusual punishments” was simply that:
a limit on the types of punishments that government
could inflict following a criminal conviction. The
panel strayed far from the text and history of the
Cruel and Unusual Punishments Clause in imposing
the substantive limits it has on the City of Boise, particularly as to plaintiffs who have not yet even been
convicted of an offense. We should have reheard this
case en banc, and I respectfully dissent.
_________________________________________________
OPINION
BERZON, Circuit Judge:
“The law, in its majestic equality, forbids
rich and poor alike to sleep under
bridges, to beg in the streets, and to steal
their bread.”
— Anatole France, The Red Lily
We consider whether the Eighth Amendment’s
prohibition on cruel and unusual punishment bars a
city from prosecuting people criminally for sleeping
outside on public property when those people have no
home or other shelter to go to. We conclude that it
does.

35a
The plaintiffs-appellants are six current or former
residents of the City of Boise (“the City”), who are
homeless or have recently been homeless. Each plaintiff alleges that, between 2007 and 2009, he or she was
cited by Boise police for violating one or both of two
city ordinances. The first, Boise City Code § 9-10-02
(the “Camping Ordinance”), makes it a misdemeanor
to use “any of the streets, sidewalks, parks, or public
places as a camping place at any time.” The Camping
Ordinance defines “camping” as “the use of public
property as a temporary or permanent place of dwelling, lodging, or residence.” Id. The second, Boise City
Code § 6-01-05 (the “Disorderly Conduct Ordinance”),
bans “[o]ccupying, lodging, or sleeping in any building, structure, or public place, whether public or private . . . without the permission of the owner or person
entitled to possession or in control thereof.”
All plaintiffs seek retrospective relief for their previous citations under the ordinances. Two of the
plaintiffs, Robert Anderson and Robert Martin, allege
that they expect to be cited under the ordinances
again in the future and seek declaratory and injunctive relief against future prosecution.
In Jones v. City of Los Angeles, 444 F.3d 1118,
1138 (9th Cir. 2006), vacated, 505 F.3d 1006 (9th Cir.
2007), a panel of this court concluded that “so long as
there is a greater number of homeless individuals in
Los Angeles than the number of available beds [in
shelters]” for the homeless, Los Angeles could not enforce a similar ordinance against homeless individuals “for involuntarily sitting, lying, and sleeping in
public.” Jones is not binding on us, as there was an
underlying settlement between the parties and our
opinion was vacated as a result. We agree with
Jones’s reasoning and central conclusion, however,

36a
and so hold that an ordinance violates the Eighth
Amendment insofar as it imposes criminal sanctions
against homeless individuals for sleeping outdoors, on
public property, when no alternative shelter is available to them. Two of the plaintiffs, we further hold,
may be entitled to retrospective and prospective relief
for violation of that Eighth Amendment right.
I. Background
The district court granted summary judgment to
the City on all claims. We therefore review the record
in the light most favorable to the plaintiffs. Tolan v.
Cotton, 134 S. Ct. 1861, 1866 (2014).
Boise has a significant and increasing homeless
population. According to the Point-in-Time Count
(“PIT Count”) conducted by the Idaho Housing and Finance Association, there were 753 homeless individuals in Ada County — the county of which Boise is the
seat — in January 2014, 46 of whom were “unsheltered,” or living in places unsuited to human habitation such as parks or sidewalks. In 2016, the last year
for which data is available, there were 867 homeless
individuals counted in Ada County, 125 of whom were
unsheltered.1 The PIT Count likely underestimates

1

The United States Department of Housing and Urban Development (“HUD”) requires local homeless assistance and prevention networks to conduct an annual count of homeless individuals on one night each January, known as the PIT Count, as a
condition of receiving federal funds. State, local, and federal governmental entities, as well as private service providers, rely on
the PIT Count as a “critical source of data” on homelessness in
the United States. The parties acknowledge that the PIT Count
is not always precise. The City’s Director of Community Partnerships, Diana Lachiondo, testified that the PIT Count is “not
always the . . . best resource for numbers,” but also stated that
“the point-in-time count is our best snapshot” for counting the

37a
the number of homeless individuals in Ada County. It
is “widely recognized that a one-night point in time
count will undercount the homeless population,” as
many homeless individuals may have access to temporary housing on a given night, and as weather conditions may affect the number of available volunteers
and the number of homeless people staying at shelters
or accessing services on the night of the count.
There are currently three homeless shelters in the
City of Boise offering emergency shelter services, all
run by private, nonprofit organizations. As far as the
record reveals, these three shelters are the only shelters in Ada County.
One shelter — “Sanctuary” — is operated by Interfaith Sanctuary Housing Services, Inc. The shelter
is open to men, women, and children of all faiths, and
does not impose any religious requirements on its residents. Sanctuary has 96 beds reserved for individual
men and women, with several additional beds reserved for families. The shelter uses floor mats when
it reaches capacity with beds.
Because of its limited capacity, Sanctuary frequently has to turn away homeless people seeking
shelter. In 2010, Sanctuary reached full capacity in
the men’s area “at least half of every month,” and the
women’s area reached capacity “almost every night of
the week.” In 2014, the shelter reported that it was
full for men, women, or both on 38% of nights. Sanctuary provides beds first to people who spent the previous night at Sanctuary. At 9:00 pm each night, it

number of homeless individuals in a particular region, and that
she “cannot give . . . any other number with any kind of confidence.”

38a
allots any remaining beds to those who added their
names to the shelter’s waiting list.
The other two shelters in Boise are both operated
by the Boise Rescue Mission (“BRM”), a Christian
nonprofit organization. One of those shelters, the
River of Life Rescue Mission (“River of Life”), is open
exclusively to men; the other, the City Light Home for
Women and Children (“City Light”), shelters women
and children only.
BRM’s facilities provide two primary “programs”
for the homeless, the Emergency Services Program
and the New Life Discipleship Program.2 The Emergency Services Program provides temporary shelter,
food, and clothing to anyone in need. Christian religious services are offered to those seeking shelter
through the Emergency Services Program. The shelters display messages and iconography on the walls,
and the intake form for emergency shelter guests includes a religious message.3
Homeless individuals may check in to either BRM
facility between 4:00 and 5:30 pm. Those who arrive
at BRM facilities between 5:30 and 8:00 pm may be
denied shelter, depending on the reason for their late
arrival; generally, anyone arriving after 8:00 pm is denied shelter.

2
The record suggests that BRM provides some limited additional non-emergency shelter programming which, like the Discipleship Program, has overtly religious components.
3

The intake form states in relevant part that “We are a Gospel
Rescue Mission. Gospel means ‘Good News,’ and the Good News
is that Jesus saves us from sin past, present, and future. We
would like to share the Good News with you. Have you heard of
Jesus? . . . Would you like to know more about him?”

39a
Except in winter, male guests in the Emergency
Services Program may stay at River of Life for up to
17 consecutive nights; women and children in the
Emergency Services Program may stay at City Light
for up to 30 consecutive nights. After the time limit is
reached, homeless individuals who do not join the Discipleship Program may not return to a BRM shelter
for at least 30 days.4 Participants in the Emergency
Services Program must return to the shelter every
night during the applicable 17-day or 30-day period; if
a resident fails to check in to a BRM shelter each
night, that resident is prohibited from staying overnight at that shelter for 30 days. BRM’s rules on the
length of a person’s stay in the Emergency Services
Program are suspended during the winter.
The Discipleship Program is an “intensive, Christbased residential recovery program” of which “[r]eligious study is the very essence.” The record does not
indicate any limit to how long a member of the Discipleship Program may stay at a BRM shelter.
The River of Life shelter contains 148 beds for
emergency use, along with 40 floor mats for overflow;
78 additional beds serve those in non-emergency shelter programs such as the Discipleship Program. The
City Light shelter has 110 beds for emergency services, as well as 40 floor mats to handle overflow and
38 beds for women in non-emergency shelter programs. All told, Boise’s three homeless shelters contain 354 beds and 92 overflow mats for homeless individuals.

4

The parties dispute the extent to which BRM actually enforces the 17- and 30-day limits.

40a
A. The Plaintiffs
Plaintiffs Robert Martin, Robert Anderson, Lawrence Lee Smith, Basil E. Humphrey, Pamela S.
Hawkes, and Janet F. Bell are all homeless individuals who have lived in or around Boise since at least
2007. Between 2007 and 2009, each plaintiff was convicted at least once of violating the Camping Ordinance, the Disorderly Conduct Ordinance, or both.
With one exception, all plaintiffs were sentenced to
time served for all convictions; on two occasions,
Hawkes was sentenced to one additional day in jail.
During the same period, Hawkes was cited, but not
convicted, under the Camping Ordinance, and Martin
was cited, but not convicted, under the Disorderly
Conduct Ordinance.
Plaintiff Robert Anderson currently lives in Boise;
he is homeless and has often relied on Boise’s shelters
for housing. In the summer of 2007, Anderson stayed
at River of Life as part of the Emergency Services Program until he reached the shelter’s 17-day limit for
male guests. Anderson testified that during his 2007
stay at River of Life, he was required to attend chapel
services before he was permitted to eat dinner. At the
conclusion of his 17-day stay, Anderson declined to enter the Discipleship Program because of his religious
beliefs. As Anderson was barred by the shelter’s policies from returning to River of Life for 30 days, he
slept outside for the next several weeks. On September 1, 2007, Anderson was cited under the Camping
Ordinance. He pled guilty to violating the Camping
Ordinance and paid a $25 fine; he did not appeal his
conviction.
Plaintiff Robert Martin is a former resident of
Boise who currently lives in Post Falls, Idaho. Martin
returns frequently to Boise to visit his minor son. In

41a
March of 2009, Martin was cited under the Camping
Ordinance for sleeping outside; he was cited again in
2012 under the same ordinance.
B. Procedural History
The plaintiffs filed this action in the United States
District Court for the District of Idaho in October of
2009. All plaintiffs alleged that their previous citations under the Camping Ordinance and the Disorderly Conduct Ordinance violated the Cruel and Unusual Punishments Clause of the Eighth Amendment,
and sought damages for those alleged violations under
42 U.S.C. § 1983. Cf. Jones, 444 F.3d at 1138. Anderson and Martin also sought prospective declaratory
and injunctive relief precluding future enforcement of
the ordinances under the same statute and the Declaratory Judgment Act, 28 U.S.C. §§ 2201–2202.
After this litigation began, the Boise Police Department promulgated a new “Special Order,” effective as of January 1, 2010, that prohibited enforcement of either the Camping Ordinance or the Disorderly Conduct Ordinance against any homeless person on public property on any night when no shelter
had “an available overnight space.” City police implemented the Special Order through a two-step procedure known as the “Shelter Protocol.”
Under the Shelter Protocol, if any shelter in Boise
reaches capacity on a given night, that shelter will so
notify the police at roughly 11:00 pm. Each shelter
has discretion to determine whether it is full, and
Boise police have no other mechanism or criteria for
gauging whether a shelter is full. Since the Shelter
Protocol was adopted, Sanctuary has reported that it
was full on almost 40% of nights. Although BRM
agreed to the Shelter Protocol, its internal policy is

42a
never to turn any person away because of a lack of
space, and neither BRM shelter has ever reported that
it was full.
If all shelters are full on the same night, police are
to refrain from enforcing either ordinance. Presumably because the BRM shelters have not reported full,
Boise police continue to issue citations regularly under both ordinances.
In July 2011, the district court granted summary
judgment to the City. It held that the plaintiffs’
claims for retrospective relief were barred under the
Rooker-Feldman doctrine and that their claims for
prospective relief were mooted by the Special Order
and the Shelter Protocol. Bell v. City of Boise, 834 F.
Supp. 2d 1103 (D. Idaho 2011). On appeal, we reversed and remanded. Bell v. City of Boise, 709 F.3d
890, 901 (9th Cir. 2013). We held that the district
court erred in dismissing the plaintiffs’ claims under
the Rooker-Feldman doctrine. Id. at 897. In so holding, we expressly declined to consider whether the favorable-termination requirement from Heck v.
Humphrey, 512 U.S. 477 (1994), applied to the plaintiffs’ claims for retrospective relief. Instead, we left
the issue for the district court on remand. Bell, 709
F.3d at 897 n.11.
Bell further held that the plaintiffs’ claims for prospective relief were not moot. The City had not met
its “heavy burden” of demonstrating that the challenged conduct — enforcement of the two ordinances
against homeless individuals with no access to shelter
— “could not reasonably be expected to recur.” Id. at
898, 901 (quoting Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc., 528 U.S. 167, 189 (2000)).
We emphasized that the Special Order was a statement of administrative policy and so could be

43a
amended or reversed at any time by the Boise Chief of
Police. Id. at 899–900.
Finally, Bell rejected the City’s argument that the
plaintiffs lacked standing to seek prospective relief because they were no longer homeless. Id. at 901 & n.12.
We noted that, on summary judgment, the plaintiffs
“need not establish that they in fact have standing,
but only that there is a genuine issue of material fact
as to the standing elements.” Id. (citation omitted).
On remand, the district court again granted summary judgment to the City on the plaintiffs’ § 1983
claims. The court observed that Heck requires a
§ 1983 plaintiff seeking damages for “harm caused by
actions whose unlawfulness would render a conviction
or sentence invalid” to demonstrate that “the conviction or sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by a
state tribunal . . . or called into question by a federal
court’s issuance of a writ of habeas corpus.” 512 U.S.
at 486–87. According to the district court, “a judgment finding the Ordinances unconstitutional . . . necessarily would imply the invalidity of Plaintiffs’ [previous] convictions under those ordinances,” and the
plaintiffs therefore were required to demonstrate that
their convictions or sentences had already been invalidated. As none of the plaintiffs had raised an Eighth
Amendment challenge as a defense to criminal prosecution, nor had any plaintiff successfully appealed
their conviction, the district court held that all of the
plaintiffs’ claims for retrospective relief were barred
by Heck. The district court also rejected as barred by
Heck the plaintiffs’ claim for prospective injunctive relief under § 1983, reasoning that “a ruling in favor of
Plaintiffs on even a prospective § 1983 claim would

44a
demonstrate the invalidity of any confinement stemming from those convictions.”
Finally, the district court determined that, although Heck did not bar relief under the Declaratory
Judgment Act, Martin and Anderson now lack standing to pursue such relief. The linchpin of this holding
was that the Camping Ordinance and the Disorderly
Conduct Ordinance were both amended in 2014 to
codify the Special Order’s mandate that “[l]aw enforcement officers shall not enforce [the ordinances]
when the individual is on public property and there is
no available overnight shelter.” Boise City Code §§ 601-05, 9-10-02. Because the ordinances, as amended,
permitted camping or sleeping in a public place when
no shelter space was available, the court held that
there was no “credible threat” of future prosecution.
“If the Ordinances are not to be enforced when the
shelters are full, those Ordinances do not inflict a constitutional injury upon these particular plaintiffs . . .
.” The court emphasized that the record “suggests
there is no known citation of a homeless individual
under the Ordinances for camping or sleeping on public property on any night or morning when he or she
was unable to secure shelter due to a lack of shelter
capacity” and that “there has not been a single night
when all three shelters in Boise called in to report
they were simultaneously full for men, women or families.”
This appeal followed.

45a
II. Discussion
A. Standing
We first consider whether any of the plaintiffs has
standing to pursue prospective relief.5 We conclude
that there are sufficient opposing facts in the record
to create a genuine issue of material fact as to whether
Martin and Anderson face a credible threat of prosecution under one or both ordinances in the future at a
time when they are unable to stay at any Boise homeless shelter.6
“To establish Article III standing, an injury must
be concrete, particularized, and actual or imminent;
fairly traceable to the challenged action; and redressable by a favorable ruling.” Clapper v. Amnesty Int’l
USA, 133 S. Ct. 1138, 1147 (2013) (citation omitted).
“Although imminence is concededly a somewhat elastic concept, it cannot be stretched beyond its purpose,
which is to ensure that the alleged injury is not too
speculative for Article III purposes — that the injury
is certainly impending.” Id. (citation omitted). A
plaintiff need not, however, await an arrest or prosecution to have standing to challenge the constitutionality of a criminal statute. “When the plaintiff has al-

5
Standing to pursue retrospective relief is not in doubt. The
only threshold question affecting the availability of a claim for
retrospective relief — a question we address in the next section
— is whether such relief is barred by the doctrine established in
Heck.
6

Although the SAC is somewhat ambiguous regarding which
of the plaintiffs seeks prospective relief, counsel for the plaintiffs
made clear at oral argument that only two of the plaintiffs, Martin and Anderson, seek such relief, and the district court considered the standing question with respect to Martin and Anderson
only.

46a
leged an intention to engage in a course of conduct arguably affected with a constitutional interest, but proscribed by a statute, and there exists a credible threat
of prosecution thereunder, he should not be required
to await and undergo a criminal prosecution as the
sole means of seeking relief.” Babbitt v. United Farm
Workers Nat’l Union, 442 U.S. 289, 298 (1979) (citation and internal quotation marks omitted). To defeat
a motion for summary judgment premised on an alleged lack of standing, plaintiffs “ need not establish
that they in fact have standing, but only that there is
a genuine question of material fact as to the standing
elements.” Cent. Delta Water Agency v. United States,
306 F.3d 938, 947 (9th Cir. 2002).
In dismissing Martin and Anderson’s claims for
declaratory relief for lack of standing, the district
court emphasized that Boise’s ordinances, as
amended in 2014, preclude the City from issuing a citation when there is no available space at a shelter,
and there is consequently no risk that either Martin
or Anderson will be cited under such circumstances in
the future. Viewing the record in the light most favorable to the plaintiffs, we cannot agree.
Although the 2014 amendments preclude the City
from enforcing the ordinances when there is no room
available at any shelter, the record demonstrates that
the City is wholly reliant on the shelters to self-report
when they are full. It is undisputed that Sanctuary is
full as to men on a substantial percentage of nights,
perhaps as high as 50%. The City nevertheless emphasizes that since the adoption of the Shelter Protocol in 2010, the BRM facilities, River of Life and City
Light, have never reported that they are full, and
BRM states that it will never turn people away due to
lack space.

47a
The plaintiffs have pointed to substantial evidence in the record, however, indicating that whether
or not the BRM facilities are ever full or turn homeless
individuals away for lack of space, they do refuse to
shelter homeless people who exhaust the number of
days allotted by the facilities. Specifically, the plaintiffs allege, and the City does not dispute, that it is
BRM’s policy to limit men to 17 consecutive days in
the Emergency Services Program, after which they
cannot return to River of Life for 30 days; City Light
has a similar 30-day limit for women and children.
Anderson testified that BRM has enforced this policy
against him in the past, forcing him to sleep outdoors.
The plaintiffs have adduced further evidence indicating that River of Life permits individuals to remain
at the shelter after 17 days in the Emergency Services
Program only on the condition that they become part
of the New Life Discipleship program, which has a
mandatory religious focus. For example, there is evidence that participants in the New Life Program are
not allowed to spend days at Corpus Christi, a local
Catholic program, “because it’s . . . a different sect.”
There are also facts in dispute concerning whether the
Emergency Services Program itself has a religious
component. Although the City argues strenuously
that the Emergency Services Program is secular, Anderson testified to the contrary; he stated that he was
once required to attend chapel before being permitted
to eat dinner at the River of Life shelter. Both Martin
and Anderson have objected to the overall religious atmosphere of the River of Life shelter, including the
Christian messaging on the shelter’s intake form and
the Christian iconography on the shelter walls. A city
cannot, via the threat of prosecution, coerce an individual to attend religion-based treatment programs
consistently with the Establishment Clause of the

48a
First Amendment. Inouye v. Kemna, 504 F.3d 705,
712–13 (9th Cir. 2007). Yet at the conclusion of a 17day stay at River of Life, or a 30-day stay at City
Light, an individual may be forced to choose between
sleeping outside on nights when Sanctuary is full (and
risking arrest under the ordinances), or enrolling in
BRM programming that is antithetical to his or her
religious beliefs.
The 17-day and 30-day limits are not the only
BRM policies which functionally limit access to BRM
facilities even when space is nominally available.
River of Life also turns individuals away if they voluntarily leave the shelter before the 17-day limit and
then attempt to return within 30 days. An individual
who voluntarily leaves a BRM facility for any reason
— perhaps because temporary shelter is available at
Sanctuary, or with friends or family, or in a hotel —
cannot immediately return to the shelter if circumstances change. Moreover, BRM’s facilities may deny
shelter to any individual who arrives after 5:30 pm,
and generally will deny shelter to anyone arriving after 8:00 pm. Sanctuary, however, does not assign beds
to persons on its waiting list until 9:00 pm. Thus, by
the time a homeless individual on the Sanctuary waiting list discovers that the shelter has no room available, it may be too late to seek shelter at either BRM
facility.
So, even if we credit the City’s evidence that
BRM’s facilities have never been “full,” and that the
City has never cited any person under the ordinances
who could not obtain shelter “due to a lack of shelter
capacity,” there remains a genuine issue of material
fact as to whether homeless individuals in Boise run
a credible risk of being issued a citation on a night

49a
when Sanctuary is full and they have been denied entry to a BRM facility for reasons other than shelter
capacity. If so, then as a practical matter, no shelter
is available. We note that despite the Shelter Protocol
and the amendments to both ordinances, the City continues regularly to issue citations for violating both
ordinances; during the first three months of 2015, the
Boise Police Department issued over 175 such citations.
The City argues that Martin faces little risk of
prosecution under either ordinance because he has
not lived in Boise since 2013. Martin states, however,
that he is still homeless and still visits Boise several
times a year to visit his minor son, and that he has
continued to seek shelter at Sanctuary and River of
Life. Although Martin may no longer spend enough
time in Boise to risk running afoul of BRM’s 17-day
limit, he testified that he has unsuccessfully sought
shelter at River of Life after being placed on Sanctuary’s waiting list, only to discover later in the evening
that Sanctuary had no available beds. Should Martin
return to Boise to visit his son, there is a reasonable
possibility that he might again seek shelter at Sanctuary, only to discover (after BRM has closed for the
night) that Sanctuary has no space for him. Anderson, for his part, continues to live in Boise and states
that he remains homeless.
We conclude that both Martin and Anderson have
demonstrated a genuine issue of material fact regarding whether they face a credible risk of prosecution
under the ordinances in the future on a night when
they have been denied access to Boise’s homeless shelters; both plaintiffs therefore have standing to seek
prospective relief.

50a
B. Heck v. Humphrey
We turn next to the impact of Heck v. Humphrey
and its progeny on this case. With regard to retrospective relief, the plaintiffs maintain that Heck should
not bar their claims because, with one exception, all of
the plaintiffs were sentenced to time served.7 It would
therefore have been impossible for the plaintiffs to obtain federal habeas relief, as any petition for a writ of
habeas corpus must be filed while the petitioner is “in
custody pursuant to the judgment of a State court.”
See 28 U.S.C. § 2254(a); Spencer v. Kemna, 523 U.S.
1, 7, 17–18 (1998). With regard to prospective relief,
the plaintiffs emphasize that they seek only equitable
protection against future enforcement of an allegedly
unconstitutional statute, and not to invalidate any
prior conviction under the same statute. We hold that
although the Heck line of cases precludes most — but
not all — of the plaintiffs’ requests for retrospective
relief, that doctrine has no application to the plaintiffs’ request for an injunction enjoining prospective
enforcement of the ordinances.
1. The Heck Doctrine
A long line of Supreme Court case law, beginning
with Preiser v. Rodriguez, 411 U.S. 475 (1973), holds
that a prisoner in state custody cannot use a § 1983
action to challenge the fact or duration of his or her
confinement, but must instead seek federal habeas
corpus relief or analogous state relief. Id. at 477, 500.
Preiser considered whether a prison inmate could
bring a § 1983 action seeking an injunction to remedy
7

Plaintiff Pamela Hawkes was convicted of violating the
Camping Ordinance or Disorderly Conduct Ordinance on twelve
occasions; although she was usually sentenced to time served,
she was twice sentenced to one additional day in jail.

51a
an unconstitutional deprivation of good-time conduct
credits. Observing that habeas corpus is the traditional instrument to obtain release from unlawful confinement, Preiser recognized an implicit exception
from § 1983’s broad scope for actions that lie “within
the core of habeas corpus” — specifically, challenges
to the “fact or duration” of confinement. Id. at 487,
500. The Supreme Court subsequently held, however,
that although Preiser barred inmates from obtaining
an injunction to restore good-time credits via a § 1983
action, Preiser did not “preclude a litigant with standing from obtaining by way of ancillary relief an otherwise proper injunction enjoining the prospective enforcement of invalid prison regulations.” Wolff v.
McDonnell, 418 U.S. 539, 555 (1974) (emphasis
added).
Heck addressed a § 1983 action brought by an inmate seeking compensatory and punitive damages.
The inmate alleged that state and county officials had
engaged in unlawful investigations and knowing destruction of exculpatory evidence. Heck, 512 U.S. at
479. The Court in Heck analogized a § 1983 action of
this type, which called into question the validity of an
underlying conviction, to a cause of action for malicious prosecution, id. at 483–84, and went on to hold
that, as with a malicious prosecution claim, a plaintiff
in such an action must demonstrate a favorable termination of the criminal proceedings before seeking
tort relief, id. at 486–87. “[T]o recover damages for allegedly unconstitutional conviction or imprisonment,
or for other harm caused by actions whose unlawfulness would render a conviction or sentence invalid, a
§ 1983 plaintiff must prove that the conviction or sentence has been reversed on direct appeal, expunged by
executive order, declared invalid by a state tribunal
authorized to make such determination, or called into

52a
question by a federal court’s issuance of a writ of habeas corpus.” Id.
Edwards v. Balisok, 520 U.S. 641 (1997) extended
Heck’s holding to claims for declaratory relief. Id. at
648. The plaintiff in Edwards alleged that he had
been deprived of earned good-time credits without due
process of law, because the decisionmaker in disciplinary proceedings had concealed exculpatory evidence.
Because the plaintiff’s claim for declaratory relief was
“based on allegations of deceit and bias on the part of
the decisionmaker that necessarily imply the invalidity of the punishment imposed,” Edwards held, it was
“not cognizable under § 1983.” Id. Edwards went on
to hold, however, that a requested injunction requiring prison officials to date-stamp witness statements
was not Heck-barred, reasoning that a “prayer for
such prospective relief will not ‘necessarily imply’ the
invalidity of a previous loss of good-time credits, and
so may properly be brought under § 1983.” Id. (emphasis added).
Most recently, Wilkinson v. Dotson, 544 U.S. 74
(2005), stated that Heck bars § 1983 suits even when
the relief sought is prospective injunctive or declaratory relief, “if success in that action would necessarily
demonstrate the invalidity of confinement or its duration.” Id. at 81–82 (emphasis omitted). But Wilkinson
held that the plaintiffs in that case could seek a prospective injunction compelling the state to comply
with constitutional requirements in parole proceedings in the future. The Court observed that the prisoners’ claims for future relief, “if successful, will not
necessarily imply the invalidity of confinement or
shorten its duration.” Id. at 82.

53a
The Supreme Court did not, in these cases or any
other, conclusively determine whether Heck’s favorable-termination requirement applies to convicts who
have no practical opportunity to challenge their conviction or sentence via a petition for habeas corpus.
See Muhammad v. Close, 540 U.S. 749, 752 & n.2
(2004). But in Spencer, five Justices suggested that
Heck may not apply in such circumstances. Spencer,
523 U.S. at 3.
The petitioner in Spencer had filed a federal habeas petition seeking to invalidate an order revoking
his parole. While the habeas petition was pending,
the petitioner’s term of imprisonment expired, and his
habeas petition was consequently dismissed as moot.
Justice Souter wrote a concurring opinion in which
three other Justices joined, addressing the petitioner’s
argument that if his habeas petition were mooted by
his release, any § 1983 action would be barred under
Heck, yet he would no longer have access to a federal
habeas forum to challenge the validity of his parole
revocation. Id. at 18–19 (Souter, J., concurring). Justice Souter stated that in his view “Heck has no such
effect,” and that “a former prisoner, no longer ‘in custody,’ may bring a § 1983 action establishing the unconstitutionality of a conviction or confinement without being bound to satisfy a favorable-termination requirement that it would be impossible as a matter of
law for him to satisfy.” Id. at 21. Justice Stevens,
dissenting, stated that he would have held the habeas
petition in Spencer not moot, but agreed that “[g]iven
the Court’s holding that petitioner does not have a
remedy under the habeas statute, it is perfectly clear
. . . that he may bring an action under 42 U.S.C. §
1983.” Id. at 25 n.8 (Stevens, J., dissenting).

54a
Relying on the concurring and dissenting opinions
in Spencer, we have held that the “unavailability of a
remedy in habeas corpus because of mootness” permitted a plaintiff released from custody to maintain a
§ 1983 action for damages, “even though success in
that action would imply the invalidity of the disciplinary proceeding that caused revocation of his goodtime credits.” Nonnette v. Small, 316 F.3d 872, 876
(9th Cir. 2002). But we have limited Nonnette in recent years. Most notably, we held in Lyall v. City of
Los Angeles, 807 F.3d 1178 (9th Cir. 2015), that even
where a plaintiff had no practical opportunity to pursue federal habeas relief while detained because of the
short duration of his confinement, Heck bars a § 1983
action that would imply the invalidity of a prior conviction if the plaintiff could have sought invalidation
of the underlying conviction via direct appeal or state
post-conviction relief, but did not do so. Id. at 1192 &
n.12.
2. Retrospective Relief
Here, the majority of the plaintiffs’ claims for retrospective relief are governed squarely by Lyall. It is
undisputed that all the plaintiffs not only failed to
challenge their convictions on direct appeal but expressly waived the right to do so as a condition of their
guilty pleas. The plaintiffs have made no showing
that any of their convictions were invalidated via state
post-conviction relief. We therefore hold that all but
two of the plaintiffs’ claims for damages are foreclosed
under Lyall.
Two of the plaintiffs, however, Robert Martin and
Pamela Hawkes, also received citations under the ordinances that were dismissed before the state obtained a conviction. Hawkes was cited for violating
the Camping Ordinance on July 8, 2007; that violation

55a
was dismissed on August 28, 2007. Martin was cited
for violating the Disorderly Conduct Ordinance on
April 24, 2009; those charges were dismissed on September 9, 2009. The complaint alleges two injuries
stemming from these dismissed citations: (1) the continued inclusion of the citations on plaintiffs’ criminal
records; and (2) the accumulation of a host of criminal
fines and incarceration costs. Plaintiffs seek orders
compelling the City to “expunge[] . . . the records of
any homeless individuals unlawfully cited or arrested
and charged under [the Ordinances]” and “reimburse[] . . . any criminal fines paid . . . [or] costs of
incarceration billed.”
With respect to these two incidents, the district
court erred in finding that the plaintiffs’ Eighth
Amendment challenge was barred by Heck. Where
there is no “conviction or sentence” that may be undermined by a grant of relief to the plaintiffs, the Heck
doctrine has no application. 512 U.S. at 486–87; see
also Wallace v. Kato, 549 U.S. 384, 393 (2007).
Relying on Ingraham v. Wright, 430 U.S. 651, 664
(1977), the City argues that the Eighth Amendment,
and the Cruel and Unusual Punishments Clause in
particular, have no application where there has been
no conviction. The City’s reliance on Ingraham is misplaced. As the Supreme Court observed in Ingraham,
the Cruel and Unusual Punishments Clause not only
limits the types of punishment that may be imposed
and prohibits the imposition of punishment grossly
disproportionate to the severity of the crime, but also
“imposes substantive limits on what can be made
criminal and punished as such.” Id. at 667. “This [latter] protection governs the criminal law process as a
whole, not only the imposition of punishment postconviction.” Jones, 444 F.3d at 1128.

56a
Ingraham concerned only whether “impositions
outside the criminal process” — in that case, the paddling of schoolchildren — “constituted cruel and unusual punishment.” 430 U.S. at 667. Ingraham did not
hold that a plaintiff challenging the state’s power to
criminalize a particular status or conduct in the first
instance, as the plaintiffs in this case do, must first be
convicted. If conviction were a prerequisite for such a
challenge, “the state could in effect punish individuals
in the preconviction stages of the criminal law enforcement process for being or doing things that under
the [Cruel and Unusual Punishments Clause] cannot
be subject to the criminal process.” Jones, 444 F.3d at
1129. For those rare Eighth Amendment challenges
concerning the state’s very power to criminalize particular behavior or status, then, a plaintiff need
demonstrate only the initiation of the criminal process
against him, not a conviction.
3. Prospective Relief
The district court also erred in concluding that the
plaintiffs’ requests for prospective injunctive relief
were barred by Heck. The district court relied entirely
on language in Wilkinson stating that “a state prisoner’s § 1983 action is barred (absent prior invalidation) . . . no matter the relief sought (damages or equitable relief) . . . if success in that action would necessarily demonstrate the invalidity of confinement or its
duration.” Wilkinson, 544 U.S. at 81–82. The district
court concluded from this language in Wilkinson that
a person convicted under an allegedly unconstitutional statute may never challenge the validity or application of that statute after the initial criminal proceeding is complete, even when the relief sought is
prospective only and independent of the prior convic-

57a
tion. The logical extension of the district court’s interpretation is that an individual who does not successfully invalidate a first conviction under an unconstitutional statute will have no opportunity to challenge
that statute prospectively so as to avoid arrest and
conviction for violating that same statute in the future.
Neither Wilkinson nor any other case in the Heck
line supports such a result. Rather, Wolff, Edwards,
and Wilkinson compel the opposite conclusion.
Wolff held that although Preiser barred a § 1983
action seeking restoration of good-time credits absent
a successful challenge in federal habeas proceedings,
Preiser did not “preclude a litigant with standing from
obtaining by way of ancillary relief an otherwise
proper injunction enjoining the prospective enforcement of invalid . . . regulations.” Wolff, 418 U.S. at
555. Although Wolff was decided before Heck, the
Court subsequently made clear that Heck effected no
change in the law in this regard, observing in Edwards that “[o]rdinarily, a prayer for . . . prospective
[injunctive] relief will not ‘necessarily imply’ the invalidity of a previous loss of good-time credits, and so
may properly be brought under § 1983.” Edwards, 520
U.S. at 648 (emphasis added). Importantly, the Court
held in Edwards that although the plaintiff could not,
consistently with Heck, seek a declaratory judgment
stating that the procedures employed by state officials
that deprived him of good-time credits were unconstitutional, he could seek an injunction barring such allegedly unconstitutional procedures in the future. Id.
Finally, the Court noted in Wilkinson that the Heck
line of cases “has focused on the need to ensure that
state prisoners use only habeas corpus (or similar

58a
state) remedies when they seek to invalidate the duration of their confinement,” Wilkinson, 544 U.S. at 81
(emphasis added), alluding to an existing confinement, not one yet to come.
The Heck doctrine, in other words, serves to ensure the finality and validity of previous convictions,
not to insulate future prosecutions from challenge. In
context, it is clear that Wilkinson’s holding that the
Heck doctrine bars a § 1983 action “no matter the relief sought (damages or equitable relief) . . . if success
in that action would necessarily demonstrate the invalidity of confinement or its duration” applies to equitable relief concerning an existing confinement, not
to suits seeking to preclude an unconstitutional confinement in the future, arising from incidents occurring after any prior conviction and stemming from a
possible later prosecution and conviction. Id. at 81–
82 (emphasis added). As Wilkinson held, “claims for
future relief (which, if successful, will not necessarily
imply the invalidity of confinement or shorten its duration)” are distant from the “core” of habeas corpus
with which the Heck line of cases is concerned, and are
not precluded by the Heck doctrine. Id. at 82.
In sum, we hold that the majority of the plaintiffs’
claims for retrospective relief are barred by Heck, but
both Martin and Hawkes stated claims for damages to
which Heck has no application. We further hold that
Heck has no application to the plaintiffs’ requests for
prospective injunctive relief.
C. The Eighth Amendment
At last, we turn to the merits — does the Cruel
and Unusual Punishments Clause of the Eighth
Amendment preclude the enforcement of a statute

59a
prohibiting sleeping outside against homeless individuals with no access to alternative shelter? We hold
that it does, for essentially the same reasons articulated in the now-vacated Jones opinion.
The Eighth Amendment states: “Excessive bail
shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.” U.S.
Const., amend. VIII. The Cruel and Unusual Punishments Clause “circumscribes the criminal process in
three ways.” Ingraham, 430 U.S. at 667. First, it limits the type of punishment the government may impose; second, it proscribes punishment “grossly disproportionate” to the severity of the crime; and third,
it places substantive limits on what the government
may criminalize. Id. It is the third limitation that is
pertinent here.
“Even one day in prison would be a cruel and unusual punishment for the ‘crime’ of having a common
cold.” Robinson v. California, 370 U.S. 660, 667
(1962). Cases construing substantive limits as to
what the government may criminalize are rare, however, and for good reason — the Cruel and Unusual
Punishments Clause’s third limitation is “one to be
applied sparingly.” Ingraham, 430 U.S. at 667.
Robinson, the seminal case in this branch of
Eighth Amendment jurisprudence, held a California
statute that “ma[de] the ‘status’ of narcotic addiction
a criminal offense” invalid under the Cruel and Unusual Punishments Clause. 370 U.S. at 666. The California law at issue in Robinson was “not one which
punishe[d] a person for the use of narcotics, for their
purchase, sale or possession, or for antisocial or disorderly behavior resulting from their administration”; it
punished addiction itself. Id. Recognizing narcotics

60a
addiction as an illness or disease — “apparently an illness which may be contracted innocently or involuntarily” — and observing that a “law which made a
criminal offense of . . . a disease would doubtless be
universally thought to be an infliction of cruel and unusual punishment,” Robinson held the challenged
statute a violation of the Eighth Amendment. Id. at
666–67.
As Jones observed, Robinson did not explain at
length the principles underpinning its holding. See
Jones, 444 F.3d at 1133. In Powell v. Texas, 392 U.S.
514 (1968), however, the Court elaborated on the principle first articulated in Robinson.
Powell concerned the constitutionality of a Texas
law making public drunkenness a criminal offense.
Justice Marshall, writing for a plurality of the Court,
distinguished the Texas statute from the law at issue
in Robinson on the ground that the Texas statute
made criminal not alcoholism but conduct — appearing in public while intoxicated. “[A]ppellant was convicted, not for being a chronic alcoholic, but for being
in public while drunk on a particular occasion. The
State of Texas thus has not sought to punish a mere
status, as California did in Robinson; nor has it attempted to regulate appellant’s behavior in the privacy of his own home.” Id. at 532 (plurality opinion).
The Powell plurality opinion went on to interpret
Robinson as precluding only the criminalization of
“status,” not of “involuntary” conduct. “The entire
thrust of Robinson’s interpretation of the Cruel and
Unusual Punishment Clause is that criminal penalties may be inflicted only if the accused has committed
some act, has engaged in some behavior, which society
has an interest in preventing, or perhaps in historical
common law terms, has committed some actus reus.

61a
It thus does not deal with the question of whether certain conduct cannot constitutionally be punished because it is, in some sense, ‘involuntary’ . . . .” Id. at
533.
Four Justices dissented from the Court’s holding
in Powell; Justice White concurred in the result alone.
Notably, Justice White noted that many chronic alcoholics are also homeless, and that for those individuals, public drunkenness may be unavoidable as a practical matter. “For all practical purposes the public
streets may be home for these unfortunates, not because their disease compels them to be there, but because, drunk or sober, they have no place else to go
and no place else to be when they are drinking. . . .
For some of these alcoholics I would think a showing
could be made that resisting drunkenness is impossible and that avoiding public places when intoxicated
is also impossible. As applied to them this statute is
in effect a law which bans a single act for which they
may not be convicted under the Eighth Amendment
— the act of getting drunk.” Id. at 551 (White, J., concurring in the judgment).
The four dissenting Justices adopted a position
consistent with that taken by Justice White: that under Robinson, “criminal penalties may not be inflicted
upon a person for being in a condition he is powerless
to change,” and that the defendant, “once intoxicated,
. . . could not prevent himself from appearing in public
places.” Id. at 567 (Fortas, J., dissenting). Thus, five
Justices gleaned from Robinson the principle that
“that the Eighth Amendment prohibits the state from
punishing an involuntary act or condition if it is the
unavoidable consequence of one’s status or being.”
Jones, 444 F.3d at 1135; see also United States v. Roberston, 875 F.3d 1281, 1291 (9th Cir. 2017).

62a
This principle compels the conclusion that the
Eighth Amendment prohibits the imposition of criminal penalties for sitting, sleeping, or lying outside on
public property for homeless individuals who cannot
obtain shelter. As Jones reasoned, “[w]hether sitting,
lying, and sleeping are defined as acts or conditions,
they are universal and unavoidable consequences of
being human.” Jones, 444 F.3d at 1136. Moreover,
any “conduct at issue here is involuntary and inseparable from status — they are one and the same, given
that human beings are biologically compelled to rest,
whether by sitting, lying, or sleeping.” Id. As a result,
just as the state may not criminalize the state of being
“homeless in public places,” the state may not “criminalize conduct that is an unavoidable consequence of
being homeless — namely sitting, lying, or sleeping on
the streets.” Id. at 1137.
Our holding is a narrow one. Like the Jones
panel, “we in no way dictate to the City that it must
provide sufficient shelter for the homeless, or allow
anyone who wishes to sit, lie, or sleep on the streets .
. . at any time and at any place.” Id. at 1138. We hold
only that “so long as there is a greater number of
homeless individuals in [a jurisdiction] than the number of available beds [in shelters],” the jurisdiction
cannot prosecute homeless individuals for “involuntarily sitting, lying, and sleeping in public.” Id. That
is, as long as there is no option of sleeping indoors, the
government cannot criminalize indigent, homeless
people for sleeping outdoors, on public property, on
the false premise they had a choice in the matter.8
8

Naturally, our holding does not cover individuals who do
have access to adequate temporary shelter, whether because
they have the means to pay for it or because it is realistically
available to them for free, but who choose not to use it. Nor do

63a
We are not alone in reaching this conclusion. As
one court has observed, “resisting the need to eat,
sleep or engage in other life-sustaining activities is
impossible. Avoiding public places when engaging in
this otherwise innocent conduct is also impossible. . .
. As long as the homeless plaintiffs do not have a single place where they can lawfully be, the challenged
ordinances, as applied to them, effectively punish
them for something for which they may not be convicted under the [E]ighth [A]mendment — sleeping,
eating and other innocent conduct.” Pottinger v. City
of Miami, 810 F. Supp. 1551, 1565 (S.D. Fla. 1992); see
also Johnson v. City of Dallas, 860 F. Supp. 344, 350
(N.D. Tex. 1994) (holding that a “sleeping in public ordinance as applied against the homeless is unconstitutional”), rev’d on other grounds, 61 F.3d 442 (5th
Cir. 1995).9
we suggest that a jurisdiction with insufficient shelter can never
criminalize the act of sleeping outside. Even where shelter is
unavailable, an ordinance prohibiting sitting, lying, or sleeping
outside at particular times or in particular locations might well
be constitutionally permissible. See Jones, 444 F.3d at 1123. So,
too, might an ordinance barring the obstruction of public rights
of way or the erection of certain structures. Whether some other
ordinance is consistent with the Eighth Amendment will depend,
as here, on whether it punishes a person for lacking the means
to live out the “universal and unavoidable consequences of being
human” in the way the ordinance prescribes. Id. at 1136.
9

In Joel v. City of Orlando, 232 F.3d 1353, 1362 (11th Cir.
2000), the Eleventh Circuit upheld an anti-camping ordinance
similar to Boise’s against an Eighth Amendment challenge. In
Joel, however, the defendants presented unrefuted evidence that
the homeless shelters in the City of Orlando had never reached
capacity and that the plaintiffs had always enjoyed access to
shelter space. Id. Those unrefuted facts were critical to the
court’s holding. Id. As discussed below, the plaintiffs here have
demonstrated a genuine issue of material fact concerning
whether they have been denied access to shelter in the past or

64a
Here, the two ordinances criminalize the simple
act of sleeping outside on public property, whether
bare or with a blanket or other basic bedding. The
Disorderly Conduct Ordinance, on its face, criminalizes “[o]ccupying, lodging, or sleeping in any building,
structure or place, whether public or private” without
permission. Boise City Code § 6-01-05. Its scope is
just as sweeping as the Los Angeles ordinance at issue
in Jones, which mandated that “[n]o person shall sit,
lie or sleep in or upon any street, sidewalk or other
public way.” 444 F.3d at 1123.
The Camping Ordinance criminalizes using “any
of the streets, sidewalks, parks or public places as a
camping place at any time.” Boise City Code § 9-1002. The ordinance defines “camping” broadly:
The term “camp” or “camping” shall
mean the use of public property as a temporary or permanent place of dwelling,
lodging, or residence, or as a living accommodation at anytime between sunset
and sunrise, or as a sojourn. Indicia of
camping may include, but are not limited
to, storage of personal belongings, using
tents or other temporary structures for
sleeping or storage of personal belongings, carrying on cooking activities or
making any fire in an unauthorized area,
or any of these activities in combination
with one another or in combination with
either sleeping or making preparations
to sleep (including the laying down of
bedding for the purpose of sleeping).

expect to be so denied in the future. Joel therefore does not provide persuasive guidance for this case.

65a
Id. It appears from the record that the Camping Ordinance is frequently enforced against homeless individuals with some elementary bedding, whether or
not any of the other listed indicia of “camping” — the
erection of temporary structures, the activity of cooking or making fire, or the storage of personal property
— are present. For example, a Boise police officer testified that he cited plaintiff Pamela Hawkes under the
Camping Ordinance for sleeping outside “wrapped in
a blanket with her sandals off and next to her,” for
sleeping in a public restroom “with blankets,” and for
sleeping in a park “on a blanket, wrapped in blankets
on the ground.” The Camping Ordinance therefore
can be, and allegedly is, enforced against homeless individuals who take even the most rudimentary precautions to protect themselves from the elements. We
conclude that a municipality cannot criminalize such
behavior consistently with the Eighth Amendment
when no sleeping space is practically available in any
shelter.
III. Conclusion
For the foregoing reasons, we AFFIRM the judgment of the district court as to the plaintiffs’ requests
for retrospective relief, except as such claims relate to
Hawkes’s July 2007 citation under the Camping Ordinance and Martin’s April 2009 citation under the Disorderly Conduct Ordinance. We REVERSE and REMAND with respect to the plaintiffs’ requests for prospective relief, both declaratory and injunctive, and to
the plaintiffs’ claims for retrospective relief insofar as
they relate to Hawkes’ July 2007 citation or Martin’s
April 2009 citation.10

10

Costs shall be awarded to the plaintiffs.

66a
OWENS, Circuit Judge, concurring in part and dissenting in part:
I agree with the majority that the doctrine of Heck
v. Humphrey, 512 U.S. 477 (1994), bars the plaintiffs’
42 U.S.C. § 1983 claims for damages that are based on
convictions that have not been challenged on direct
appeal or invalidated in state post-conviction relief.
See Lyall v. City of Los Angeles, 807 F.3d 1178, 1192
n.12 (9th Cir. 2015).
I also agree that Heck and its progeny have no application where there is no “conviction or sentence”
that would be undermined by granting a plaintiff’s request for relief under § 1983. Heck, 512 U.S. at 486–
87; see also Wallace v. Kato, 549 U.S. 384, 393 (2007).
I therefore concur in the majority’s conclusion that
Heck does not bar plaintiffs Robert Martin and Pamela Hawkes from seeking retrospective relief for the
two instances in which they received citations, but not
convictions. I also concur in the majority’s Eighth
Amendment analysis as to those two claims for retrospective relief.
Where I part ways with the majority is in my understanding of Heck’s application to the plaintiffs’
claims for declaratory and injunctive relief. In Wilkinson v. Dotson, 544 U.S. 74 (2005), the Supreme
Court explained where the Heck doctrine stands today:
[A] state prisoner’s § 1983 action is
barred (absent prior invalidation)—no
matter the relief sought (damages or equitable relief), no matter the target of the
prisoner’s suit (state conduct leading to
conviction or internal prison proceedings)—if success in that action would

67a
necessarily demonstrate the invalidity of
confinement or its duration.
Id. at 81–82. Here, the majority acknowledges this
language in Wilkinson, but concludes that Heck’s bar
on any type of relief that “would necessarily demonstrate the invalidity of confinement” does not preclude
the prospective claims at issue. The majority reasons
that the purpose of Heck is “to ensure the finality and
validity of previous convictions, not to insulate future
prosecutions from challenge,” and so concludes that
the plaintiffs’ prospective claims may proceed. I respectfully disagree.
A declaration that the city ordinances are unconstitutional and an injunction against their future enforcement necessarily demonstrate the invalidity of
the plaintiffs’ prior convictions. Indeed, any time an
individual challenges the constitutionality of a substantive criminal statute under which he has been
convicted, he asks for a judgment that would necessarily demonstrate the invalidity of his conviction.
And though neither the Supreme Court nor this court
has squarely addressed Heck’s application to § 1983
claims challenging the constitutionality of a substantive criminal statute, I believe Edwards v. Balisok,
520 U.S. 641 (1997), makes clear that Heck prohibits
such challenges. In Edwards, the Supreme Court explained that although our court had recognized that
Heck barred § 1983 claims challenging the validity of
a prisoner’s confinement “as a substantive matter,” it
improperly distinguished as not Heck-barred all
claims alleging only procedural violations. 520 U.S. at
645. In holding that Heck also barred those procedural claims that would necessarily imply the invalidity of a conviction, the Court did not question our con-

68a
clusion that claims challenging a conviction “as a substantive matter” are barred by Heck. Id.; see also Wilkinson, 544 U.S. at 82 (holding that the plaintiffs’
claims could proceed because the relief requested
would only “render invalid the state procedures” and
“a favorable judgment [would] not ‘necessarily imply
the invalidity of [their] conviction[s] or sentence[s]’”
(emphasis added) (quoting Heck, 512 U.S. at 487)).
Edwards thus leads me to conclude that an individual who was convicted under a criminal statute,
but who did not challenge the constitutionality of the
statute at the time of his conviction through direct appeal or post-conviction relief, cannot do so in the first
instance by seeking declaratory or injunctive relief
under § 1983. See Abusaid v. Hillsborough Cty. Bd. of
Cty. Comm’rs, 405 F.3d 1298, 1316 n.9 (11th Cir.
2005) (assuming that a §1983 claim challenging “the
constitutionality of the ordinance under which [the
petitioner was convicted]” would be Heck-barred). I
therefore would hold that Heck bars the plaintiffs’
claims for declaratory and injunctive relief.
We are not the first court to struggle applying
Heck to “real life examples,” nor will we be the last.
See, e.g., Spencer v. Kemna, 523 U.S. 1, 21 (1998)
(Ginsburg, J., concurring) (alterations and internal
quotation marks omitted) (explaining that her
thoughts on Heck had changed since she joined the
majority opinion in that case). If the slate were blank,
I would agree that the majority’s holding as to prospective relief makes good sense. But because I read
Heck and its progeny differently, I dissent as to that
section of the majority’s opinion. I otherwise join the
majority in full.

69a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF IDAHO
ROBERT MARTIN AND ROBERT
ANDERSON,

Civil Action No. 1:09CV-00540-REB

Plaintiffs,
vs.
CITY OF BOISE,

MEMORANDUM
DECISION AND ORDER

Defendant.
I. Background and Summary of Decision
This case, filed in 2009, has a long procedural history that includes multiple dispositive motions, multiple amendments of the Plaintiffs’ Complaint, the
withdrawal and addition of numerous attorneys representing the various parties, dismissal of several parties, and an appeal of a substantive ruling against the
plaintiffs followed by a remand from the Ninth Circuit
Court of Appeals. The facts and legal issues are well
known to the parties and set forth in more detail in
the Court’s prior Orders. See Dkts. 152, 170, 286.
Pending are Plaintiffs’ Motion for Summary Judgment (Dkt. 243) and Defendant’s Motion for Dispositive Relief 1 (Dkt. 229), with associated motions to
strike particular evidence filed by both parties (Dkts.

1

The City’s Motion is made under Federal Rules of Civil Procedure 12(b)(1) and 56.

70a
253, 264, 268).2 The case now includes two remaining
Plaintiffs: Robert Martin (“Martin”) and Robert Anderson (“Anderson”). The only remaining Defendant
is the City of Boise (the “City”). See Order (Dkt. 286).
The remaining claims seeks prospective relief in (1) a
declaration under 28 U.S.C. § 2201 that Boise City
Code § 9-10-02 and §6-01-05(A) (collectively the “Ordinances”) violate the Eighth Amendment’s prohibition against cruel and unusual punishment, and (2) a
permanent injunction enjoining the City of Boise from
enforcing the Ordinances.3 See Amd. Compl., pp. 2223 (Dkt. 171).
The City argues that a threshold matter precludes
the case from going any further at this point – specifically, that the case should be dismissed because the
Plaintiffs lack standing. The City also argues that
even if the Plaintiffs have standing to pursue the remaining claim, it has nonetheless been mooted and,
regardless, Plaintiffs’ claims fails on the merits. (Dkt.
229). Plaintiffs argue they have standing, the case is
not moot, and they should be granted summary judg-

2
After the hearing on these motions, several additional motions were submitted (Dkts. 283, 287, 288, 289), some of which
will be resolved here, and others by separate order.
3

Plaintiffs seek a declaration that the “Ordinances are unconstitutional under the Eighth Amendment to the extent they apply to and are enforced against individuals for whom shelter beds
are unavailable whether because (1) there are fewer emergency
shelter beds than there are homeless individuals or (2) mental
illness or physical disability.” Pls.’ Mem. Mot. Summ. Jdgmt., p.
3 (Dkt. 243-2). In making this argument, Plaintiffs primarily rely
on cases involving “as applied” challenges to the constitutionality
of statutes. See, e.g., id., p. 7. Only nighttime enforcement of the
Ordinances is at issue. See Bell v. City of Boise, 709 F.3d 890, 896
(9th Cir. 2013).

71a
ment as a matter of law based upon “undisputed” material facts. See Pls.’ Resp. (Dkt. 258); Pls.’ Mem. Mot.
Summ. Jdgmt., p. 17 (Dkt. 243-2).
Martin and Anderson allege that they face a
threat of being cited for violating the Boise City Ordinances prohibiting camping and sleeping at night in
public places. See Boise City Code §§ 6-01-05(A); 910-02. Under applicable law, they have a right to
bring such a claim only if they have suffered an injuryin-fact sufficient to provide the Plaintiffs legal standing under Article III of the federal Constitution. Any
such claim made upon an alleged threatened injury
(as argued by Martin and Anderson) must be “certainly impending” or there must be a “substantial risk
that the harm will occur.” Clapper v. Amnesty Int’l
USA, 133 S. Ct. 1138, 1150, n.5 (2013). The injury-infact must also be concrete and particularized, and actual or imminent. Bennett v. Spear, 520 U.S. 154, 167
(1997).
The Court concludes for the reasons described to
follow that neither Martin nor Anderson is facing such
a concrete, particularized or imminent injury, and
therefore neither Martin nor Anderson has standing
to bring a constitutional challenge to the Ordinances.
Of central importance to that ruling is the fact that
the Ordinances, by their very terms, are not to be enforced when a homeless individual “is on public property and there is no available overnight shelter.”
Boise City Code §§ 6-01-05(A); 9-10-02. Thus, the Ordinances are not to be enforced when the shelters are
full. Additionally, neither Plaintiff has shown that he
cannot or will not stay in one or more of the available
shelters, if there is space available, or that he has a
disability that prevents him from accessing shelter
space. Thus, there is no actual or imminent threat

72a
that either Plaintiff will be cited for violating the Ordinances. In the absence of such a threat, Plaintiffs
cannot allege a sufficient injury-in-fact to establish legal standing to bring their claims. Therefore, the
Court lacks jurisdiction to consider the merits of the
claim that the Ordinances violate certain constitutional protections, and the case must be dismissed.
II. Standing
A. Introduction
The City argues that neither Mr. Martin, nor Mr.
Anderson is at risk of any “certainly impending” injury and therefore each lacks the requisite Article III
standing to seek prospective relief.
B. Standards of Law
Federal Rule 12(b) permits dismissal of a complaint where the federal court has no jurisdiction to
consider the claims raised in the complaint. Under
our Constitution federal courts may only consider and
decide “[c]ases” and “[c]ontroversies.” U.S. Const.,
Art. III, § 2. See also Susan B. Anthony List v.
Driehaus, 134 S. Ct. 2334, 2341 (2014). Martin and
Anderson have the burden of proving the existence of
a case or controversy sufficient to confer Article III
standing, at all stages of the litigation. Nat’l Org. for
Women, Inc. v. Scheidler, 510 U.S. 249, 255 (1994). To
do so, there must be: (1) the existence of an injury-infact that is concrete and particularized, and actual or
imminent; and (2) the injury is fairly traceable to the
challenged conduct; and (3) the injury is likely to be
redressed by a favorable court decision. Bennett v.
Spear, 520 U.S. 154, 167 (1997); see also Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992). If
Plaintiffs lack standing at this particular stage of the

73a
lawsuit, notwithstanding the motion practice and discovery efforts that have transpired along the way,
then the Court lacks jurisdiction to consider the merits of their remaining claims.4
C. Defining the Alleged Injury
The injury-in-fact requirement ensures a “personal stake in the outcome of the controversy.” Warth
v. Seldin, 422 U.S. 490, 498 (1975) (internal quotation
marks omitted). “An injury sufficient to satisfy Article III must be concrete and particularized and actual
or imminent, not conjectural or hypothetical.” Susan
B. Anthony List v. Driehaus, 134 S. Ct. 2334, 2341
(2014) (citation and internal quotation marks omitted).
The injury Plaintiffs allege is a threat of being
cited for violating the Boise City Ordinances prohibiting camping and sleeping at night in public places.
Their claims are, therefore, based upon an allegation
of a future injury, which can amount to an injury-infact but only if the threatened injury is “certainly impending” or there is a “substantial risk that the harm

4

There have been a number of additional plaintiffs, in addition to Martin and Anderson, at various times in the pendency of
this case. They have been dismissed for various reasons, including reasons related to the very fact of their homeless status – i.e.,
that they live in a nomadic manner and transient status, and
that either by choice or circumstance they have fallen out of contact with their counsel. As a result, such persons were unavailable to participate in the proceedings of the case, such as, by way
of example, being available for the taking of their deposition.
Whatever have been the circumstances leading to this point, the
Court’s focus in the context of the City’s challenge to the standing
of the two remaining Plaintiffs must be only upon those two
Plaintiffs.

74a
will occur.”5 Clapper v. Amnesty Int’l USA, 133 S. Ct.
1138, 1150, n.5 (2013) (citations and internal quotation marks omitted). “Although imminence is concededly a somewhat elastic concept, it cannot be
stretched beyond its purpose, which is to ensure that
the alleged injury is not too speculative for Article III
purposes – that the injury is certainly impending.” Id.
at 1147. An injury-in-fact is sufficiently alleged where
there is “an intention to engage in a course of conduct
arguably affected with a constitutional interest, but
proscribed by a statute, and there exists a credible
threat of prosecution thereunder.” Babbitt v. Farm
Workers, 442 U.S. 289, 298 (1979).
Both Martin and Anderson were cited under prior
versions of the Ordinances, which have since been revised.6 The current ordinances prohibit enforcement
when “the individual is on public property and there
is no available overnight shelter.”7 Boise City Code §§
5

The Supreme Court has explained that its prior holdings “do
not uniformly require plaintiffs to demonstrate that it is literally
certain that the harms they identify will come about.” Clapper v.
Amnesty Int’l USA, 133 S. Ct. 1138, 1150, n.5 (2013). Rather, in
some instances, the Court has “found standing based on a substantial risk that the harm will occur, which may prompt plaintiffs to reasonably incur costs to mitigate or avoid that harm.” Id.
(citations and internal quotation marks omitted).
6
Plaintiff Anderson was cited in 2007 under the camping ordinance. Jones Declr., Ex. 7 (Dkt. 244–6). Plaintiff Martin was
cited in 2009 under the disorderly conduct and camping ordinances. Jones Declr., Ex. 8 (Dkt. 244–7). Mr. Martin also received
a camping citation in the fall of 2012. Jones Declr., Ex. 2, p. 143
(Dkt. 259–1). The Ordinances were revised in 2014.
7

Both ordinances define the term “available overnight shelter” as “a public or private shelter, with an available overnight
space, open to an individual or family unit experiencing homelessness at no charge.” Boise City Code §§ 6-01-05(A); 9-10-02.

75a
6-01-05(A); 9-10-02. Neither Martin nor Anderson
has been cited under the revised Ordinances. 8 Although “past wrongs are evidence bearing on whether
there is a real and immediate threat of repeated injury”, Fortyune v. Am. Multi-Cinema, Inc., 364 F.3d
1075, 1081 (9th Cir. 2004) (citing O’Shea v. Littleton,
414 U.S. 488, 496 (1974)), here the Ordinances have
materially changed since Plaintiffs were issued citations.
D. Robert Martin Does Not Have Standing
Martin resided in Boise when Plaintiffs filed this
case in 2009, but he has been living in Post Falls or
Hayden, Idaho, since November 2013. Jones Declr.,
Ex. 2, p. 107 (Dkt. 259-1); Martin Aff., ¶ 8 (Dkt. 258–
5). His having moved from Boise does not preclude
the possibility of standing to pursue the lawsuit’s remaining claims, because he made several trips to
Boise in 2014 to visit his minor son and he plans to
return to Boise in the future for the same purpose.
Jones Declr., Ex. 2, pp. 111, 114, 181 (“I come down [to
Boise] regularly to be able to see my son and everything, so I know I’ll be coming back” to visit Boise).9
But, they go on to state that “[i]f the individual cannot utilize the
overnight shelter space due to voluntary actions such as intoxication, drug use, unruly behavior, or violation of shelter rules,
the overnight shelter space shall still be considered available.”
Id.
8
Other individuals have received citations since the Ordinances were revised in 2014. See, e.g., Jones Declr., Ex. 71 (Dkt.
246-20). However, as discussed earlier, the Court here is considering the standing of the two remaining Plaintiffs and not other
parties who may have claims similar to Plaintiffs’ claims.
9

Martin says that if his employment and financial situation
does not improve he will consider moving back to Boise. Martin
Aff., ¶ 9 (Dkt. 258–5). However, this is too tenuous a statement

76a
See also Martin Aff., ¶¶ 3–7 (Dkt. 258–5). During his
prior return trips to Boise, Martin has stayed at the
Budget Inn (with help from his attorneys), Jones
Declr., Ex. 2, p. 113 (Dkt. 259-1), has also stayed with
friends, id., p. 119, and, on the last four or five trips to
Boise, stayed in his car10, id. p. 120, 142. At no time,
however, during the four or five trips he has made to
Boise in the last year, has he “camped outside,” id., p.
143, and he has no stated plans to do so on future trips
to Boise.
Martin says he is concerned that if he comes to
Boise and is unable to find shelter at a friend’s home
or an emergency shelter, then he may receive a citation for violating the Ordinances. Martin Aff., ¶ 10
(Dkt. 258–5). His concern, however, is entirely speculative because he is willing (and has in the past)
stayed at the homeless shelters. Martin testified that
he would stay at the Sanctuary and would consider
staying at the River of Life,11 if they would let him
stay there.12 Hall Declr., pp.160–61 (Dkt. 230-1) (if
to manifest an intention to move to Boise, nor is there any suggestion beyond supposition that he would move to Boise and
camp outside even when there is shelter space available.
10

Martin no longer has a vehicle.

11
There are three emergency shelters in Boise - Interfaith
Sanctuary (or the “Sanctuary”),which houses both men and
women, and the two shelters operated by the Boise Rescue Mission – the River of Life shelter for men and the City Lights shelter for women and children. Pls.’ St. Mat’l Facts, ¶ 10.
12

Martin also testified that whether he would stay at the Sanctuary would depend on if his ex-wife and her new husband were
staying there as well, but there is no indication in the record
about how often that circumstance might occur. Additionally, it
would only impact Martin if the other shelter, River of Life, was
full. Hall Declr., pp.160–61 (Dkt. 230-1). Plaintiffs have argued
that the River of Life never reports as full because it does not

77a
River of Life allowed Martin to stay at that shelter, he
would “for a day or two, if need be”); but see id. at p.
164 (later stating, without explanation as to why, that
he might stay at the River of Life and “it’s possible [he
might] not”). The directors of both the River of Life
and Interfaith Sanctuary shelters have said that Martin can stay at their respective shelters in the future,
if necessary. Roscoe Aff., ¶ 7 (Dkt. 239) (testimony of
the Boise Rescue Mission’s CEO); Sorrels Aff., ¶ 6
(Dkt. 240) (testimony of the Sanctuary’s Executive Director that Martin is not barred from staying there).13
And, Martin confirmed that, in the last four years, he
has not been barred from the Sanctuary because of a
rule violation. Jones Declr., p. 139 (Dkt 259-1). Thus,
Martin can stay at the emergency shelters.
As previously described, the Ordinances are not to
be enforced against a particular individual when “the

turn people away. See Jones Declr., Ex. 69 (Boise Rescue Mission
Wepage dated 4/17/15) (“Even in our busiest months, it’s our policy to never turn down anyone for food or shelter due to lack of
space.”) (Dkt. 246-18). However, Martin’s decision to not utilize
available shelter space due to his personal concerns about being
near his ex-wife do not implicate constitutional concerns. The
Court has considered the fact that Martin described that when
going through his divorce, he was the subject of a no-contact order requiring that he stay away from his wife. There is nothing
in the record, however, to suggest that there is any current nocontact order, even though Martin may choose on his own to keep
his distance from his ex-wife.
13

Martin was not certain that he was placed on a “ban list” at
River of Light, but he thought he had been told sometime prior
to 2010 that he should not come back to that facility because he
“had a problem getting up in the morning”. Hall Declr., Ex. 1, pp.
129-30 (Dkt. 230-1). However, Martin currently is not barred
from staying at either shelter. Dkts. 239, 240 (Sorrels and Roscoe
Affidavits).

78a
individual is on public property and there is no available overnight shelter.” Boise City Code §§ 6-0105(A); 9-10-02. Hence, Martin’s concern that he will
be cited under the Ordinances if he is unable to stay
with a friend or in a shelter is not reasonable given
that the Ordinances specifically provide that they
shall not be enforced when there is no available overnight shelter. Moreover, evidence in the record suggests there is no known citation of a homeless individual under the Ordinances for camping or sleeping on
public property on any night or morning when he or
she was unable to secure shelter due to a lack of shelter capacity. Allen Aff., ¶ 8 (Dkt. 242); see also Bailly
Aff., ¶ 7 (Dkt. 232); Hall Declr., Ex. 7, pp. 74-75; id.,
Ex. 5, p. 65. The record also indicates that there has
not been a single night when all three shelters in
Boise called in to report they were simultaneously full
for men, women or families. Id.; see also Allen Supp.
Aff., ¶ 4 (Dkt. 257-5).
Martin’s counsel argues though that, even if there
is room at a shelter, shelter may be nonetheless unavailable to Martin because the Boise Rescue Mission
is a religious organization and Martin has religious
objections to staying there. Both Ordinances state
that “[i]f the individual cannot utilize the overnight
shelter space due to voluntary actions such as intoxication, drug use, unruly behavior, or violation of shelter rules, the overnight shelter space shall still be considered available.” Boise City Code §§ 6-01-05(A); 910-02. They do not address whether the Ordinances
will be enforced if individuals have other reasons for

79a
not seeking shelter, such as an objection to the religious basis of the Boise Rescue Mission or a mental
illness or disability that might cause issues.14
Regardless, Martin testified that he finds nothing
“objectionable” about the rules at River of Life because
the rules are “pretty fair for the most part and everything.” Hall Declr., Ex. 1, pp. 130-31 (Dkt. 230-1). Instead, his primary complaint with River of Life is the
rule that during “chapel” (a religious service which
lasts an hour) he is not able to go outside and have a
cigarette. Id. That rule does not, however, require
that Martin attend chapel at the River of Life (which
he acknowledges) and he did not attend chapel at the
River of Life when he stayed there previously, even
though he had the impression that “people”15 wanted
him to attend. Jones Declr., Ex. 5, p. 124 (Dkt. 2501). See also Hall Declr., Ex. 1, p. 129 (Dkt. 230-1)
(Martin acknowledged that nobody has ever said he
had to go to chapel at River of Life). Additionally,
even though Martin has been diagnosed with certain

14
The Boise Police Department’s Special Order also prohibits
officers from enforcing the Ordinances when a person is on public
property and there is no available overnight shelter. The Special
Order states that, “to qualify as ‘available’, the space must take
into account sex, marital and familial status, and disabilities.”
Bell v. City of Boise, 709 F.3d 890, 894–95 (9th Cir. 2013). “The
Special Order further provides that, if an individual cannot use
available space because of a disability or a shelter’s length-ofstay restrictions, the space should not be considered available.”
Id. But, the space will be considered available if the individual
cannot use the space “due to voluntary actions such as intoxication, drug use or unruly behavior.” Id.
15

Mr. Martin did not specify whether these “people” were other
individuals seeking shelter or directors or volunteers at the shelter.

80a
mental health disorders, nothing in the record suggests that mental health issues have prevented him
from accessing the shelters. See Pls.’ St. Facts,16 ¶ 3
(Dkt. 248).
In short, Martin’s alleged future injury is too speculative for Article III purposes. He has not alleged
that a mental disorder or other disability interferes
with his ability to obtain shelter at the Sanctuary or
River of Life, or that he will not stay at any of the shelters even if space is available, or that any “objection”
he many have to the religious mission of the River of
Life will certainly cause him not to seek shelter there
if needed. Additionally, although Martin does allege
that he may again be homeless on his visits to Boise,
there is no allegation that moves beyond supposition
built on speculation that he will then remain outdoors
on public property, in violation of one or more of the
Ordinances, when the shelters are not full.17
16
The part of this document referring to Plaintiffs’ medical records has been redacted from the public record and, at this time,
is filed under seal. Accordingly, the Court has not stated more
specifically what the record reflects.
17

“[F]or purposes of assessing the likelihood that state authorities will reinflict a given injury, [the Supreme Court] generally
ha[s] been unwilling to assume that the party seeking relief will
repeat the type of misconduct that would once again place him
or her at risk of that injury.” Honig v. Doe, 484 U.S. 305, 320
(1988) (alterations added) (citing Los Angeles v. Lyons, 461 U.S.
95, 105, 106 (1983) (no threat that party seeking injunction barring police use of chokeholds would be stopped again for traffic
violation or other offense, or would resist arrest if stopped); Murphy v. Hunt, 455 U.S. at 484 (no reason to believe that party challenging denial of pre-trial bail “will once again be in a position to
demand bail”); O’Shea v. Littleton, 414 U.S. 488, 497 (1974) (unlikely that parties challenging discriminatory bond-setting, sentencing, and jury-fee practices would again violate valid criminal
laws)).

81a
To carry standing, Martin must demonstrate “an
intention to engage in a course of conduct arguably affected with a constitutional interest,” but proscribed
by a statute. Babbitt v. Farm Workers, 442 U.S. 289,
298 (1979) (emphasis added). Here, camping or sleeping at night in a public place is permitted, not proscribed, by the Ordinance if there is no shelter space
available. Accordingly, the conduct Martin alleges he
might have to engage in if he cannot stay at a friend’s
house or the shelters are full — i.e., camping or sleeping in a public place — is not proscribed by the Ordinance, and there cannot be a credible threat of prosecution under these circumstances. See Babbitt, 442
U.S. at 298. See also Pennell v. City of San Jose, 485
U.S. 1, 8 (1988) (quoting Babbitt, 442 U.S. at 298) (internal quotation marks omitted) (“[A] plaintiff who
challenges a statute must demonstrate a realistic danger of sustaining a direct injury as a result of the statute’s operation or enforcement.”)).
Finally, the declaratory relief requested—that the
“Ordinances are unconstitutional under the Eighth
Amendment to the extent they apply to and are enforced against individuals for whom shelter beds are
unavailable whether because (1) there are fewer
emergency shelter beds than there are homeless individuals or (2) mental illness or physical disability”—
does not align with the inchoate alleged injury. See
Pls.’ Mem. Mot. Summ. Jdgmt., p. 3 (Dkt. 243-2); but
compare declaratory relief requested in Rev. 2d Amd.
Compl, pp. 22-23 (Dkt. 172). First, there is no evidence that shelter beds are unavailable to Martin because of a mental illness or physical disability, so the
declaratory relief in that regard would not redress his
particular alleged injury. Second, when there are not
enough emergency shelter beds available, regardless
of the reason, the Ordinances by their plain terms

82a
may not be enforced. The City’s evidence is that the
Ordinances are not enforced under these circumstances. Thus, it does not matter (but also does not
condone nor condemn the sad commentary that flows
from the difficulties faced by Boise City, or any community, in sheltering the homeless population)
whether there are fewer beds in shelters than there
are homeless individuals for purposes of standing.18 If
the Ordinances are not to be enforced when the shelters are full, those Ordinances do not inflict a constitutional injury upon these particular plaintiffs who
are homeless and do not have a disability or other issue of Constitutional interest that the evidence shows
prevents them from accessing the shelters.
E. Robert Anderson Does Not Have Standing
Anderson has not been warned by law enforcement officials regarding conduct that might violate
the Ordinances in the four years preceding his most
recent deposition. Hall Declr., Ex. 2, p. 101 (Dkt. 230–

18

This is a permissible consideration in assessing the merits of
Plaintiffs’ claims. Part of what the Court may consider if it applies the framework from Jones v. City of Los Angeles, 444 F.3d
1118 (9th Cir. 2006) vacated by 505 F.3d 1006 (9th Cir. 2007), is
whether the homeless Plaintiffs have no choice but to be present
in the City’s public spaces. See Order, p. 8 (Dkt. 115). Plaintiffs
also discuss overcrowding at the shelters and the use of overflow
mats, but that evidence and arguments relate to the merits of
Plaintiffs’ claims and not Plaintiffs’ ability to demonstrate that
they are threatened with injury from the alleged unconstitutional enforcement of the Ordinances at issue that is fairly traceable to the City’s conduct. To satisfy the causation requirement,
plaintiffs “must show that the injury is causally linked or ‘fairly
traceable’” to the City’s Ordinances, “and not the result of independent choices by a party not before the Court.” Nw. Requirements Utilities v. F.E.R.C., No. 13-70391, 2015 WL 4716753, at
*5 (9th Cir. Aug. 10, 2015).

83a
2). At the time of his most recent deposition, Anderson had housing because he lived with his girlfriend.19
Hall Declr., Ex. 2, pp. 81, 84–87 (Dkt. 230–2). His
most recent Declaration describes that his girlfriend
moved in February of 2015, which led to Anderson living with a friend for several months before obtaining
shelter at the River of Life for a night and then at the
Sanctuary.20 (Dkt. 296–1). Unfortunately, Anderson
is again homeless and relies on the shelters to provide
him a place to sleep.21
However, as is the case with Martin, Anderson
also will seek a place at a shelter instead of sleeping
outside, and he has successfully done so.22 Hall Declr.,

19
Mr. Anderson did not pay rent to his girlfriend and his only
“income” was food stamps. He is not eligible for government
housing assistance and has been denied a request for social security benefits. Hall Declr., Ex. 2, pp. 81, 84-87 (Dkt. 230-2).
20

This Declaration provides relevant information for the Court
to assess Anderson’s standing, and standing must exist throughout every stage of litigation, which means the Court must reassess the facts relevant to standing as they change. Accordingly,
the Court has considered the information provided. Plaintiffs’
Motion seeking permission to file the Declaration is granted.
21
The City’s mootness argument rests on its assertion that
Plaintiffs’ claims for prospective relief is moot because Plaintiffs
are no longer living unsheltered in Boise. See Def.’s Mem., p. 6
(Dkt. 229-2). Because those circumstances have changed with regard to Anderson, the Court has not considered whether this case
is now moot based on Plaintiffs’ living situations.
22

Anderson reported that he slept on the streets in 2014 for
three nights even though he could have accessed a shelter on
those nights, because he was ashamed to return to the shelters.
Hall Declr., Ex. 2, p. 70 (Dkt. 230-2). The reason for his reluctance to seek shelter for three nights does not evince an unwillingness to stay at shelters in the future (even if one assumed that
such an emotion, understandable as it may be, is a cognizable

84a
Ex. 2, p. 103 (Dkt. 230–2). There is nothing to prevent
Anderson from seeking shelter at the River of Life or
the Sanctuary, see Dkt. 239, ¶ 7; Dkt. 240, ¶ 6, although he does not like the rules at the River of Life
that constrain his ability to smoke before he goes to
bed, nor does he like the River of Life’s “religious policies”. Hall Declr., Ex. 2, p. 73 (Dkt. 230–2).
Anderson was not forced to engage in prayer at
the River of Life during his March 2014 stay, but says
he was forced to attend chapel services. Hall Declr.,
Ex. 2, p. 76 (Dkt. 230–2). But his statement in that
regard was clarified in that he said that to join a particular treatment program that would allow him to
stay for an extended period on the upper floors of the
River of Life, he was required to attend chapel and
other religious services. However, he decided not to
participate in that particular program. He was, nonetheless, still permitted to stay overnight on the first
floor without joining the program, subject, of course,
to the other rules of the shelter. Id., pp. 72–79, 111.23
In other words, he objected to the requirements placed
on those who stay longer than 17 days and then choose
to enter the program allowing access to treatment program housing in the upstairs portion of the facility.
Regardless, Anderson has stayed at the River of Life
recently and has stated he will do so in the future. Id.

basis for avoiding shelter when shelter was available, under a
standing analysis), nor has Anderson made any such assertion.
Indeed, Anderson has been residing at the Sanctuary shelter
since May of 2015. Anderson Declr. (Dkt. 296-1).
23

Anderson explained that he was required to attend chapel
services at a stay in 2007, before the Boise Rescue Mission was
“changed . . . over” to River of Life, and before this litigation commenced. Hall Declr., Ex. 2, p. 74 (Dkt. 230-2). He has stayed at
the facility since that time.

85a
at p. 110. Additionally, although he has been diagnosed with certain mental health disorders, nothing
suggests that mental health issues have prevented
Anderson from utilizing the shelters. See Pls.’ St.
Facts, 3 (Dkt. 248).
As with Martin, Anderson is worried he will receive a camping citation if there is no shelter space
available and he has to camp or sleep in a public place.
But also as with Martin, the revised Ordinances do
not allow Boise City Police Officers to cite Anderson
when no shelter space is available. Anderson is willing to stay at either available shelter, even if he prefers the Sanctuary and dislikes some of the policies at
the River of Life. In such circumstances, Anderson’s
worry that he might be cited under the Ordinances
does not amount to a substantial risk of imminent
harm sufficient to demonstrate the injury-in-fact required for Article III standing.
F. Conclusion on Standing Issues
That these particular Plaintiffs lack standing does
not mean, for all purposes, that other putative plaintiffs also would lack standing to pursue similar
claims. There may, for instance, be an individual with
a mental or physical condition that has interfered
with her or her ability to seek access to or stay at shelters, with such difficulties likely to continue in the future.24 Or, perhaps a homeless individual will refuse
24

See, e.g., Jones Declr., Ex. 80 (Dkt. 247-4) (police report describing contact with an apparently homeless individual who advised that he has PTSD and cannot stay at a shelter); id., Ex. 77
(Dkt. 247-1) (list of individuals who are barred from the Interfaith Sanctuary and, if coupled with an objection to the religious
practices at River of Life, may be able to demonstrate threatened
injury); id., Ex. 78 (Police report noting probable cause for camping violation for homeless person who apparently suffers from a

86a
to stay at the River of Life and can support a claim
that the facility requires participation in religious
practices for homeless individuals to stay in temporary housing there. However, this Court cannot entertain and decide controversies on possibilities, and
it is similarly inappropriate for the Court to surmise
conclusively whether such circumstances would be
sufficient for other persons to establish standing. The
Court will not substitute the possibility that another
person might have standing to make the claims raised
here as a substitute for the shortcomings of the standing claimed for Martin and Anderson. Instead, the
Court must do exactly what has been done in this decision – consider the evidence and the allegations of
future threatened harm to determine whether such a
record rises to the level required for these particular
plaintiffs to establish standing in the circumstances of
this case. That answer, on this record, is “no.” Because the Plaintiffs lack standing to pursue their
claims, the Court lacks jurisdiction to consider the
merits of those claims and this case will be DISMISSED.
G. Miscellaneous Motions
Before the hearing, Plaintiffs filed a Motion for
Leave to File Supplemental Authority related to the
standing issue (Dkt. 283). The City acknowledges
that the Court has discretion to consider the three
cases Plaintiffs brought to the Court’s attention, but
asks that the Court decline to do so. (Dkt. 293). The
Court concludes that it is appropriate to consider the
mental illness because he “said he had not tried to get into any
shelters because they try to get him onto illegal drugs and steal
his medicine”); id., Ex. 72 (Dkt. 246-21) (homeless individual
cited when the Sanctuary was full because River of Light had
capacity, but individual was “barred” from the facility).

87a
additional case authority, and has done so. The City
is not prejudiced in any substantive manner by the
presentation of the supplemental authority, and has
had the opportunity to try and distinguish these cases
from the facts of the present case. See Dkt. 293.
After the hearing, Plaintiffs filed a Motion for
Leave to Identify Record Citations made at the hearing (Dkt. 289), for the stated purpose of assisting the
Court in efficiently reviewing the record. Plaintiffs
filed an appendix identifying the pages of the record
that support their arguments. The appendix is a useful tool to compile evidence already in the record, it
does not add to the record. Accordingly, Court will
grant the Motion and has considered the appendix.
Plaintiffs also asked that the Court strike the affidavits of Jayne Sorrels and Jacob Lang, filed in support of the City’s opposition to Plaintiffs’ Motion for
Summary Judgment. See Dkts. 257-3; 257-4. Plaintiffs argue that these affidavits contain (1) expert
opinion testimony they are unqualified to provide and
(2) statements for which they lack personal knowledge
and foundation or constitute hearsay. (Dkt. 268-1).
However, the Court did not rely on any of this evidence to find that Plaintiffs lack standing in this case,
and the challenged affidavits relate primarily to issues going to the merits of this case.25 Accordingly,
Plaintiffs’ Motion to Strike (Dkt. 268) is moot.
Additionally, having considered the evidence relevant to the standing issue and having ruled in the
City’s favor, the Court further finds that the City’s
Motions to Strike also are moot.
25

Although the Court has cited to Sorrels’s Affidavit, the citation was not to any evidence objected to as unqualified expert
testimony.

88a
III. Order
For the reasons set forth above, IT IS HEREBY
ORDERED:
(1) Defendant’s Motion for Dispositive Relief
(Dkt. 229) is GRANTED;
(2) Plaintiffs’ Motion for Summary Judgment
(Dkt. 243) is DENIED.
(3) Defendant’s Motions to Strike (Dkts. 254 &
263) are DENIED as MOOT.
(4) Plaintiffs’ Motion to Strike (Dkt. 268) is DENIED as MOOT.
(5) Plaintiffs Motion for Leave to File Supplemental Authority (Dkt. 283) is GRANTED.
(6) Plaintiffs’ Motion for Leave to Identify Record
Citations (Dkt. 289) is GRANTED.
(7) Plaintiffs’ Motion seeking permission to file
the Robert Anderson Declaration (Dkt. 296) is
GRANTED.
A separate judgment will be filed contemporaneously with this Order.
DATED: September 28, 2015

_________________________
Honorable Ronald E. Bush
U. S. Magistrate Judge

89a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF IDAHO
JANET F. BELL, BRIAN S. CARSON,
ROBERT MARTIN, LAWRENCE LEE
SMITH, ROBERT ANDERSON, PAMELA S. HAWKES, JAMES M. GODFREY, AND BASIL E. HUMPHERY,
Plaintiffs,
vs.
CITY OF BOISE; BOISE POLICE DEPARTMENT; AND MICHAEL MASTERSON, IN HIS OFFICIAL CAPACITY AS
CHIEF OF POLICE,
Defendants.

Civil Action No.
1:09-CV-00540REB
MEMORANDUM
DECISION AND
ORDER ON DEFENDANTS’
SECOND MOTION FOR SUMMARY JUDGMENT

Currently pending before the Court is Defendants’
Second Motion for Summary Judgment (Dkt. 141).
The Court has carefully reviewed the record, considered oral arguments, and now enters the following Order granting, in part, and denying, in part, Defendants’ Motion.
SUMMARY OF THE DECISION
The Plaintiffs are individuals who either are or
were homeless in Boise and they allege that Defendants (Boise City and its Police Department) have
criminalized the status of being homeless by the man-

90a
ner in which Defendants enforce Boise City ordinances 1 prohibiting (as a practical matter) camping
and sleeping in public. Defendants now seek summary judgment on Plaintiffs’ claim that Defendants’
enforcement actions violate the Eighth Amendment’s
prohibition on cruel and unusual punishment.
In ruling on Defendants’ previous summary judgment motion, the Court dismissed Plaintiffs’ claims on
jurisdictional and mootness grounds. Order (Dkt.
115). On Plaintiffs’ appeal from that decision, the
United States Court of Appeals for the Ninth Circuit
reversed this Court’s decision as to whether this federal court has jurisdiction to consider the claims, but
did “not reach the merits of Plaintiffs’ Eighth Amendment challenges” on appeal. Bell v. City of Boise, 709
F.3d 890, 892-96 (9th Cir. 2013).
This Court on remand also does not reach the underlying merits of Plaintiffs’ Eighth Amendment
claims. Those claims are largely barred by the socalled “favorable-termination” requirement of Heck v.
Humphrey, 512 U.S. 477 (1994). In Heck, the United
States Supreme Court held that, “in order to recover
damages for [an] allegedly unconstitutional conviction
or imprisonment, or for other harm caused by actions
whose unlawfulness would render a conviction or sentence invalid, a . . . plaintiff must prove that the conviction or sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by a

1

The ordinances are Boise City Code Section 9-10-02 02 (the
“Camping Ordinance”) and Boise City Code Section 6-01-05(A)
(which prohibits disorderly conduct and is referred to throughout
this order as the “Sleeping Ordinance”).

91a
state tribunal authorized to make such determination, or called into question by a federal court’s issuance of a writ of habeas corpus.” Id. at 486-87.
Plaintiffs could have raised their argument of
Eighth Amendment unconstitutionality as a defense
to their criminal prosecutions and on direct appeal. A
decision in their favor on such claims in this case
would necessarily imply the invalidity of their prior
convictions or sentences. As a consequence, such
claims cannot be prosecuted in this case under the
holding in Heck. Accordingly, the Court will dismiss
all claims for relief that seek expungement from
Plaintiffs’ records of any camping and sleeping ordinance violations, reimbursement for any fines or incarceration costs, recovery of damages for the alleged
civil rights violations, and any other claim or recovery
that seeks relief for events that have already occurred
and necessarily would imply the invalidity of Plaintiffs’ convictions.
The dismissal does not, however, extend to Plaintiffs’ request for a declaratory judgment under 28
U.S.C. §§ 2201 and 2202. That claim seeks prospective relief – i.e., a declaration stating that Defendants’
present and threatened future actions in enforcing the
Ordinances violate Plaintiffs’ rights to be free from
cruel and unusual punishment under the Eighth
Amendment and the Idaho Constitution (Article I, §
6).2 Further, this claim is not precluded by the doctrine of res judicata, and it remains to be determined
on the merits. The Court will require, however, that
2

Because Plaintiffs have not argued that the Idaho Constitution provides more extensive protection than does the Eighth
Amendment to the U.S. Constitution, this decision refers to both
the state and federal constitutional challenges as an Eighth
Amendment challenge throughout.

92a
Plaintiffs file an Amended Complaint stating this
claim more particularly and omitting any dismissed
claims for relief.3
BACKGROUND4
In this lawsuit, Plaintiffs claim that Defendants
enforce Boise City ordinances5 (the “Ordinances”) regarding camping and sleeping in public against the

3

For instance, regarding the Sleeping Ordinance, only
nighttime enforcement remains at issue. See Bell, 709 F.3d at
896 (“Plaintiffs do not appeal the court’s decision that their
Eighth Amendment claims concerning daytime enforcement of
the Sleeping Ordinance failed as a matter of law.”). Additionally,
the state constitutional claims are at issue only to the extent that
their federal counterparts survive. See Bell v. City of Boise, 834
F.Supp.2d 1103, 1116 (D.Idaho 2011) (finding that “the state constitutional challenges fail for the same reasons the federal constitutional claims fail”); Bell, 709 F.3d at 896 n.8 (finding that,
by not raising the issue in their opening brief, Plaintiffs had
waived appeal of the district court’s dismissal of their Idaho constitutional claims for the same reasons as their federal counterparts).
4
The facts are set forth more fully in the Court’s prior Memorandum Decision and Order (Dkt. 115) and the opinion of the
United States Court of Appeals for the Ninth Circuit in Bell v.
City of Boise, 709 F.3d 890 (9th Cir. 2013). For that reason, and
because the parties are familiar with the factual background of
this case, the full facts will not be recited here, but are incorporated by reference to the Court’s Order at Docket Number 115
and the Ninth Circuit’s opinion in Bell.
5

The ordinances at issue are Boise City Code (“B.C.C.”) Sections 9-10-02 and 6-0105(A). Boise City Code § 9-10-02 (the
“Camping Ordinance”) makes it a crime for any person “to use
any of the streets, sidewalks, parks or public places as a camping
place at any time.” Boise City Code § 6-01-05(A) (the “Sleeping
Ordinance”) criminalizes disorderly conduct, defined to include
“[o]ccupying, lodging or sleeping in any building, structure or
place, whether public or private, or in any motor vehicle without

93a
homeless in Boise in a manner that violates the
Eighth Amendment’s prohibition against status
crimes. Plaintiffs are individuals who either are or
were homeless in Boise. Each has been cited and convicted under Boise City’s Camping Ordinance, or its
Sleeping Ordinance, or both.6 Defendants are the City
of Boise, the Boise City Police Department, and Boise
City Police Chief Michael Masterson.
Plaintiffs contend that the Defendants’ policy,
custom, and practice of issuing citations, arresting,
and “harassing” homeless individuals, including
Plaintiffs, under the Ordinances has the effect of criminalizing homelessness. Id. at ¶ 35. They seek declaratory, injunctive, and monetary damages relief under
42 U.S.C. § 1983 and 28 U.S.C. §§ 2201-02. More specifically, Plaintiffs ask for: (1) an order enjoining Defendants from enforcing the Ordinances against people sleeping or lying down in public; (2) an order compelling the City of Boise to expunge the criminal records of any homeless individuals cited or arrested and
charged under the Ordinances; (3) an order requiring
reimbursement of any fines paid or incarceration costs
imposed upon homeless individuals for violation of the

the permission of the owner or person entitled to possession or in
control thereof.” B.C.C. § 6-01-05(A). These are considered misdemeanor crimes, punishable by a fine not exceeding one thousand dollars ($1,000) and imprisonment in the county jail not to
exceed six (6) months. See B.C.C. §§ 6-01-21; 9-10-19. See also
Idaho Code § 18-111 (explaining the difference between felonies,
misdemeanors, and infractions).
6

Defendants’ Statement of Undisputed Facts (Dkt. 141-1) details the sentences imposed and attaches the state court docket
sheets for each case. Plaintiffs report that they have paid fines
ranging from $25 to $75 and/or have been sentenced to jail terms
ranging from one to 90 days. (Dkt. 143, p. 1).

94a
Ordinances; (4) and declaratory relief.
Compl., p. 25 (Dkt. 53).

See Amd.

Defendants previously moved for summary judgment on all claims raised by Plaintiffs in their
Amended Complaint (Dkt. 53). The Court entered a
Memorandum Decision and Order which held that the
Rooker–Feldman doctrine 7 precluded subject matter
jurisdiction over Plaintiffs’ claims for retrospective relief and that Plaintiffs’ claims for prospective injunctive and declaratory relief were largely moot because
of changes in the Ordinances and the City’s enforcement of the same stemming from an amendment
made to one of the Ordinances, and an internal policy
issued by the Chief of Police regarding the enforcement of both Ordinances. Order (Dkt. 115).
On Plaintiffs’ appeal, the Ninth Circuit reversed
the dismissal of Plaintiffs’ claims for retrospective relief “because those claims are not barred by the
Rooker–Feldman doctrine” and reversed the dismissal
of Plaintiffs’ claims for prospective relief “because
those claims have not been mooted by Defendants’ voluntary conduct.” Bell v. City of Boise, 709 F.3d 890,
892 (9th Cir. 2013). The Ninth Circuit did “not reach
the merits of Plaintiffs’ Eighth Amendment challenges” on appeal, but did rule that jurisdiction exists
as to those claims.8 Id. at 896. In a footnote, however,

7
See Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); District
of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983).
8

The Eighth Amendment is the only remaining basis for
Plaintiffs’ challenge to the ordinances because Plaintiffs waived
appeal of all other issues “by failing to challenge these rulings in
their opening brief.” Bell, 709 F.3d at 896 n.8 (explaining that
although this Court “held that Plaintiffs’ right to travel claims
failed as a matter of law, the Camping Ordinance was not uncon-

95a
the Ninth Circuit made specific reference to Heck v.
Humphrey’s “favorable-termination” requirement and
raised the question as to whether the holding in Heck
bars Plaintiffs’ Eighth Amendment claims. Bell, 709
F.3d at 897 n.11 (quoting Heck, 512 U.S. 477, 486–87
(1994) (“We hold that, in order to recover damages for
allegedly unconstitutional conviction or imprisonment, or for other harm caused by actions whose unlawfulness would render a conviction or sentence invalid, a § 1983 plaintiff must prove that the conviction
or sentence has been reversed on direct appeal, expunged by executive order, declared invalid by a state
tribunal authorized to make such determination, or
called into question by a federal court’s issuance of a
writ of habeas corpus”) (footnote omitted)). Following
the remand, Defendants filed their second motion for
summary judgment, at issue now, arguing two-fold
that the holding in Heck and claim preclusion principles bar Plaintiffs’ Eighth Amendment claims.
DISCUSSION
A. Plaintiffs’ remaining claim is an Eighth
Amendment challenge to Defendants’ alleged conduct of criminalizing homelessness
as a status offense.
Plaintiffs allege that “Defendants are punishing
Plaintiffs and other homeless individuals based on
their status as homeless person[s]” and that doing so
stitutionally vague, the overbreadth doctrine did not apply outside the First Amendment context, and the Idaho constitutional
claims failed for the same reasons as their federal counterparts[,]
Plaintiffs have waived appeal of these issues by failing to challenge these rulings in their opening brief.”). Additionally, Plaintiffs did not appeal the ruling that the daytime enforcement of
the Sleeping Ordinance failed as a matter of law, so only
nighttime enforcement is at issue.

96a
“constitute[s] cruel and unusual punishment in violation of Plaintiffs’ well established rights under the
Eighth Amendment.” Amd. Compl., ¶¶ 57-58 (Dkt.
53). In response to Defendants’ first summary judgment motion, Plaintiffs similarly argued that “it is unconstitutional to criminalize involuntary acts that are
an unavoidable consequence of being homeless, i.e.,
acts that [a homeless person] is powerless [to] avoid.”
Pls.’ Resp., p. 1 (Dkt 85) (citation and internal quotation marks omitted). In making such arguments,
Plaintiffs largely rely on the case of Jones v. City of
Los Angeles, 444 F.3d 1118 (9th Cir. 2006), vacated by
505 F.3d 1006 (9th Cir. 2007).9
In Jones, a panel decision of the Ninth Circuit
Court of Appeals focused upon a discrete Eighth
Amendment claim, i.e., whether the Cruel and Unusual Punishment clause limits not just the ways in
which a state can punish criminal behavior, but also
“what” behavior or conduct a state can criminalize.
Jones, 444 F.3d at 1128–29. The Cruel and Unusual
Punishment clause “circumscribes the criminal process in three ways: First, it limits the kinds of punishment that can be imposed on those convicted of
crimes . . .; second, it proscribes punishment grossly
disproportionate to the severity of the crime . . .; and
third, it imposes substantive limits on what can be
made criminal and punished as such. . . .” Ingraham
v. Wright, 430 U.S. 651, 667–68 (1977). The third limitation, however—and the one at issue in Jones and in

9

As described in the Court’s earlier Memorandum Decision
and Order, “[t]he Jones decision was later vacated as a result of
a settlement agreement; therefore the opinion is not binding.”
(Dkt. 115, p. 6, n. 1). Even so, this Court considered Jones because it “does shed light on the issue and how the Ninth Circuit
might approach such challenges in the future.” Id.

97a
this case—should “be applied sparingly.”10 Id. at 668
(internal citations omitted).
According to the panel in Jones, when a state engages in this type of Eighth Amendment violation, “a
person suffers constitutionally cognizable harm as
soon as he is subjected to the criminal process.” Jones,
444 F.3d at 1129. Indeed, many Eighth Amendment
cases involve challenges to the terms of a criminal
punishment which arise in a manner that could not be
raised as a direct defense or in a subsequent appeal of
a conviction. However, this is not such a case. Here,
the Eighth Amendment claims could have been raised
as a defense in a criminal proceeding and on direct appeal.
An analogous case, involving an appeal of a criminal conviction under a state statute which allegedly
criminalized the status of addiction to narcotics, is
Robinson v. California, 370 U.S. 660, 661, 666–67
(1962).11 In Robinson, the Supreme Court considered
the case on direct review, in deciding Robinson’s argument that “a law which made a criminal offense of . . .
10
See also Powell v. Texas, 392 U.S. 514, 531–32 (1968) (“The
primary purpose of [the Cruel and Unusual Punishment clause]
has always been considered, and properly so, to be directed at the
method or kind of punishment imposed for the violation of criminal statutes; the nature of the conduct made criminal is ordinarily relevant only to the fitness of the punishment imposed.”). The
United States Supreme Court in Powell described Robinson’s
proscription as one against statutes or laws that seek “to punish
a mere status”. Powell, 392 U.S. at 532.
11

Although the “appellant tried unsuccessfully to secure habeas corpus relief in the District Court of Appeal and the California Supreme Court,” Robinson, 370 U.S. 660, 664, n.6, his appeal
was “from the Appellate Department of the Superior Court of
California, County of Los Angeles.” Robinson v. California, 368
U.S. 918 (1961).

98a
a disease would doubtless be universally thought to be
an infliction of cruel and unusual punishment in violation of the Eighth and Fourteenth Amendments.”
Id. Similarly, a constitutional challenge to a Texas
statute criminalizing public intoxication also went to
the Supreme Court on direct appeal from a state conviction.12 Powell v. Texas, 392 U.S. 514, 517 (1968).
Moreover, whether this cases presents a “facial”
or “as-applied” challenge to a statute or ordinance is
immaterial. An as-applied challenge can be raised in
a criminal prosecution, and then on direct appeal from
any conviction. See, e.g., United States v. Jinian, 725
F.3d 954, 958 (9th Cir. 2013) (appellant argued a wire
fraud statute was unconstitutional as applied to him);
United States v. Shetler, 665 F.3d 1150, 1156 (9th Cir.
2011) (appellant argued at the trial level and on appeal that a statute, as applied to him, was void for
vagueness).
In sum, Plaintiffs could have raised both facial
and as-applied Eighth Amendment defenses to their
criminal charges, even though they did not do so.13
12
There are some cases in which the Heck bar has not been
applied to Eighth Amendment claims, but those cases involved
challenges to the type of punishment imposed or conditions of
incarceration and not to what conduct a state may criminalize.
See, e.g., Hanner v. City of Dearborn Heights, No. 07-15251, 2009
WL 540699, *4-6 (E.D.Mich. Mar. 4, 2009) (finding Heck did not
bar plaintiff’s claim that he was deprived of a crutch in jail in
violation of the Eighth Amendment’s proscription against cruel
and unusual punishment).
13

Although not mentioned in the briefing in connection with
the Heck issue, Plaintiffs argued in the preclusion doctrine section of their brief that they “could not have conveniently raised
their Eighth Amendment claim[s] in prior criminal misdemeanor
proceedings.” Pls.’ Resp., p. 14 (Dkt. 143). A homeless person,
presumably indigent and perhaps dealing with other difficulties

99a
B. Heck v. Humphrey bars Plaintiffs’ Eighth
Amendment claims brought under § 1983.
Plaintiffs did not raise Eighth Amendment claims
in their state criminal cases, nor did any appeal their
convictions. Hence, Eighth Amendment arguments
were never considered in the criminal cases. That fact
is significant here, although not under any sort of exhaustion requirement. See Heck, 512 U.S. at 489–90
(explaining that “[e]ven a prisoner who has fully exhausted available state remedies has no cause of action under § 1983 unless and until the conviction or
sentence is reversed, expunged, invalidated, or impugned by the grant of a writ of habeas corpus”) (citations and internal quotation marks omitted)).
“[W]hen a state prisoner seeks damages in a § 1983
suit, the district court must consider whether a judgment in favor of the plaintiff would necessarily imply
the invalidity of his conviction or sentence; if it would,
such as mental illness, may have challenges in navigating
through the criminal justice system. However, those challenges,
even if daunting, are not unique and the issue presented here is
not a Gideon v. Wainwright question. Others who are also indigent, or have limited understanding of the legal system, or are
mentally ill, or cannot speak English, and so forth, also face challenges. Such circumstances, lamentable as they are, may make
the individual’s encounter with the criminal justice system difficult, but such difficulty is a practical, not legal, barrier to raising
a constitutional defense to a criminal charge. Moreover, courtappointed counsel assisted most of the Plaintiffs who appeared
for the proceedings in their misdemeanor cases, so those individuals were not navigating the criminal justice system alone. (Dkt.
141-1; 141-3, pp.4-5). It is difficult to envision a sensible line to
be drawn upon the particular details of an individual defendant’s
personal circumstances (leaving aside an indigent’s right to
counsel, which is not part of the analysis), by which this or any
other court could decide that the rule in Heck ought not to apply
solely because of those circumstances.

100a
the complaint must be dismissed unless the plaintiff
can demonstrate that the conviction or sentence has
already been invalidated.” Heck, 512 U.S. at 487 (emphasis added). Further:
[I]n order to recover damages for allegedly unconstitutional conviction or imprisonment, or for other harm caused by
actions whose unlawfulness would render a conviction or sentence invalid, a
§ 1983 plaintiff must prove that the conviction or sentence has been reversed on
direct appeal, expunged by executive order, declared invalid by a state tribunal
authorized to make such determination,
or called into question by a federal
court’s issuance of a writ of habeas corpus, 28 U.S.C. § 2254. A claim for damages bearing that relationship to a conviction or sentence that has not been so
invalidated is not cognizable under §
1983.
512 U.S. at 486–87 (emphases added).
A judgment finding the Ordinances unconstitutional in this case necessarily would imply the invalidity of Plaintiffs’ convictions under those Ordinances. The fulcrum of Plaintiffs’ § 1983 claims is the
allegation of unconstitutional convictions. None of
those convictions, however, was reversed on direct appeal or otherwise called into question, and none of the
Plaintiffs raised a constitutional challenge in his or
her criminal case, including on appeal. The holding of

101a
Heck is a close fit to such circumstances.14 Accordingly, the Heck bar applies to Plaintiffs’ claims that
would necessarily imply the invalidity of the convictions or sentences. Here, that includes the relief requesting expungement of the records of any camping
and sleeping ordinance violations, reimbursement for
any fines or incarceration costs, recovery of damages
for the alleged civil rights violations, and any other
claim or recovery tied to events that have already occurred.
C. Heck v. Humphrey does not bar Plaintiffs’ request for prospective declaratory relief.
Plaintiffs’ have requested a declaratory judgment
under 28 U.S.C. §§ 2201 and 2202, stating that Defendants’ present and threatened future actions in enforcing the Ordinances violate the Eighth Amendment’s prohibition against cruel and unusual punishment.15 See Amd. Compl., p. 25 (Dkt. 53).

14
Although not issued on or after January 1, 2007, see Fed R.
App. P. 32.1, one unpublished disposition from the Ninth Circuit
addresses similar issues. In Masters v. City of Bellflower, No. 9555921, 1996 WL 583625 (9th Cir. Oct. 7, 1996), the plaintiff
raised a constitutional challenge to the validity of a city animal
control statute which formed the basis of his criminal conviction.
Id. at *1. The panel ruled that a judgment in the plaintiff’s favor
would necessarily imply that the statute and, therefore, the
plaintiff’s conviction, were invalid. Id. The criminal conviction
had not been invalidated or reversed on direct appeal, and, accordingly, the Ninth Circuit affirmed the district court’s ruling
that the plaintiff’s § 1983 claim against the city for damages was
barred. Id., cert. denied 522 U.S. 871 (2007).
15

Plaintiffs cited to the Declaratory Judgment Act, 28 U.S.C.
§§ 2201-02, in the Jurisdiction and Venue section of their
Amended Complaint (Dkt. 53), and asked for declaratory relief
in their Prayer for Relief, but did not include this claim as a sep-

102a
In most instances, the holding in Heck will bar
§ 1983 claims for injunctive or declaratory relief. See
Wilkinson v. Dotson, 544 U.S. 74, 81–82 (2005) (explaining that certain “cases, taken together, indicate
that a state prisoner’s § 1983 action is barred (absent
prior invalidation) – no matter the relief sought (damages or equitable relief), no matter the target of the
prisoner’s suit (state conduct leading to conviction or
internal prison proceedings) – if success in that action
would necessarily demonstrate the invalidity of confinement or its duration”) (emphasis added).16 However, Heck does not necessarily preclude all claims under the Declaratory Judgment Act.
Moreover, Plaintiffs seek a declaration that the
Ordinances violate both the United States Constitution and the Idaho Constitution. See Los Angeles
County, Cal. v. Humphries, 131 S.Ct. 447, 451 (2010)
(Section 1983 protects against “deprivation of any
rights ... secured by the Constitution and laws [of the
United States]”.) (quoting 42 U.S.C. § 1983) (internal
quotation marks omitted, emphasis added, alterations
in original)); Skinner v. Switzer, 131 S.Ct. 1289, 1301–
02 (2011) (Thomas, J., dissenting) (explaining that the
boundaries of § 1983 were first circumscribed in
Preiser v. Rodriguez, 411 U.S. at 489, where “the
arate “claim for relief”, see id. pp. 22-24. However, they incorporated “all preceding paragraphs” in the section of the Amended
Complaint stating their claims for relief. Id. at p. 22, ¶ 55.
16

But see Wolff v. McDonnell, 418 U.S. 539, 554-55 (1974) (permitting prisoners to use § 1983 “as a predicate to a damages
award” to obtain a declaratory judgment, explaining that “because under [Preiser v. Rodriguez, 411 U.S. 475 (1973)] only an
injunction restoring good time improperly taken is foreclosed, [it
would not] preclude a litigant with standing from obtaining by
way of ancillary relief an otherwise proper injunction enjoining
the prospective enforcement of invalid prison regulations”).

103a
Court began with the undisputed proposition that a
state prisoner may not use § 1983 to challeng[e] his
underlying conviction and sentence on federal constitutional grounds”) (alteration in original, emphasis
added, internal quotation marks omitted)). Accordingly, summary judgment is not warranted at this
time on Plaintiffs’ request for declaratory relief under
the Declaratory Judgment Act, 28 U.S.C. §§ 2201-02.17
D. Heck’s bar applies to Plaintiffs’ Eighth
Amendment claims brought under § 1983,
even if federal habeas relief was unavailable
on the facts of this case.
Even if federal habeas relief was unavailable to
any of the Plaintiffs because he or she was never in
custody (or if in custody, not for any significant length
of time), Heck is still a bar to the § 1983 claims based
on the Eighth Amendment. Plaintiffs ask that the
Court rule otherwise, relying on a concurring opinion
written by Justice Souter in Spencer v. Kemna,
523 U.S. 1 (1998), a case decided after Heck. Pls.’
Resp., p. 4 (Dkt. 143). In his Spencer concurrence,
Justice Souter opined that “a former prisoner, no
longer ‘in custody,’ may bring a § 1983 action establishing the unconstitutionality of a conviction or confinement without being bound to satisfy a favorabletermination requirement that it would be impossible
as a matter of law for him to satisfy.” Id. at 21 (Souter,
J. concurring) (emphasis added). That circumstance,
17

As detailed further on in this Decision, the Court will require
Plaintiffs to file an Amended Complaint and, if Plaintiffs believe
they have a right to bring a declaratory judgment claim under
§ 1983 as one for prospective declaratory and injunctive relief despite the Court’s ruling that Heck bars all other relief requested
under §1983, they should support their amended claim with appropriate authority.

104a
however, does not apply to Plaintiffs here, as it was
not “impossible as a matter of law” for Plaintiffs to obtain the “favorable termination” required to bring a
§1983 action. Any of the Plaintiffs could have raised
a constitutional challenge to the ordinances in their
criminal case, based on the same facts underlying
Plaintiffs’ Eighth Amendment claims in this case,
and, if successful, paved the way for a §1983 case.
Most court rulings that have found an exception
to the Heck doctrine have done so in reliance on Justice Souter’s concurrence in Spencer.18 That concurrence, however, must be considered in conjunction
with a close reading of the majority opinion issued in
Spencer, in which the Court affirmed the dismissal of
a habeas claim brought by a petitioner who was no
longer in custody. Such a claim, the Supreme Court
ruled, was moot because after being released from custody the petitioner no longer suffered any continuing
collateral consequences from his earlier parole revocation. Id. at 14–16. Justice Souter and the other justices joining in his concurrence sought to limit the
reach of the majority’s ruling, (and that of Heck), by
asserting that “a former prisoner, no longer ‘in custody,’ may bring a § 1983 action establishing the unconstitutionality of a conviction or confinement without being bound to satisfy a favorable-termination requirement,” and thus “the answer to [petitioner]
Spencer’s argument that his habeas claim cannot be
moot because Heck bars him from relief under § 1983

18

Spencer, 523 U.S. 1, 18–19 (Justice Souter, in his concurrence, joined in the “Court’s opinion as well as the judgment,
though [he did] so for an added reason that the Court [did] not
reach.”).

105a
is that Heck has no such effect.” Id. at 21 (Souter, J.,
concurring).19
The petitioner in Spencer argued that the ruling
in Heck “would foreclose him from pursuing a damages action” under § 1983, “unless he can establish the
invalidity of his parole revocation,” and, therefore,
“his action to establish that invalidity cannot be
moot.” Id. at 17. The majority of the Justices were
not persuaded, and described this argument as “a
great non sequitur, unless one believes (as we do not)
that a § 1983 action for damages must always and everywhere be available.” Id. (emphasis added). The majority opinion then went on to explain that a § 1983
damages claim is not foreclosed by Heck “[i]f, for example, petitioner were to seek damages for using the
wrong procedures, not for reaching the wrong result,”
and if that procedural defect did not “necessarily imply the invalidity of the revocation.” Id. (citing Heck,
512 U.S. at 482–83) (citations and internal quotation
marks omitted).
Significantly, Justice Souter agreed that “the majority opinion in Heck can be read to suggest that [the]
favorable-termination requirement is an element of
any § 1983 action alleging unconstitutional conviction, whether or not leading to confinement and
whether or not any confinement continued when the §
1983 action was filed.” Id. at 19 (citing Heck, 512 U.S.
at 483–84). He further agreed that the majority in
Heck “acknowledged the possibility that even a released prisoner might not be permitted to bring a
19

Justice Stevens, who dissented from the majority opinion,
agreed with those Justices joining in the Souter concurrence that
a petitioner without a remedy under the habeas statute may
bring an action under § 1983. Id. at 25 n. 8 (Stevens, J., dissenting).

106a
§ 1983 action implying the invalidity of a conviction or
confinement without first satisfying the favorable-termination requirement.” Id. at 19–20 (Souter J., concurring). Justice Souter then explained that he joined
the majority decision in Heck, “not because the favorable-termination requirement was necessarily an element of the § 1983 cause of action for unconstitutional
conviction or custody, but because it was a ‘simple way
to avoid collisions at the intersection of habeas and
§ 1983.’” Id. at 21 (citation omitted).
Justice Souter’s concurrence assumes that the
federal habeas statute may provide the only means of
satisfying Heck’s favorable-termination requirement
and, in many cases, that may well be true. However,
in other cases, plaintiffs (such as those who brought
this lawsuit) convicted of state crimes may raise
§ 1983 claims based upon underlying circumstances
in which those same plaintiffs could have secured favorable terminations by raising the defense of unconstitutionality before the trial court, or by direct appeal, or by post-conviction litigation. See, e.g., MolinaAviles v. District of Columbia, 797 F.Supp.2d 1, 6
(D.D.C. June 23, 2011) (pointing to the availability of
state court habeas and habeas-type remedies to challenge plaintiffs’ alleged unconstitutional driving while
intoxicated convictions and concluding that “Heck precludes any § 1983 suit challenging a criminal conviction that has not already been favorably terminated,
regardless of the availability of habeas-type relief”).
See also Harrison v. Michigan, 722 F.3d 768, 772–75
(6th Cir. 2013) (discussing Heck, 512 U.S. at 487).
Moreover, the Heck favorable-termination requirement is described in the disjunctive, i.e., “a
§ 1983 plaintiff must prove that the conviction or sentence has been reversed on direct appeal, expunged by

107a
executive order, declared invalid by a state tribunal
authorized to make such determination, or called into
question by a federal court’s issuance of a writ of habeas corpus.” 512 U.S. 486–87 (emphasis added).
After Spencer, some federal circuit courts have
drawn upon Justice Souter’s concurrence to support
decisions which do not apply Heck’s favorable termination requirement, in a variety of circumstances.20
See, e.g., Leather v. Eyck, 180 F.3d 420, 424 (2d Cir.
1999) (holding that Heck did not bar a plaintiff who
was convicted and fined, but not imprisoned, from alleging selective prosecution under § 1983 because he
was never in custody and thus could not seek habeas
relief)21; Wilson v. Johnson, 535 F.3d 262, 266–68 (4th

20
The Second Circuit has issued the most recent decision upon
the issue. See Poventud v. City of New York, No. 12–1011–cv,
2014 WL 182313, *13 (2nd Cir. Jan. 16, 2014) (explaining that
“many violations of constitutional rights, even during the criminal process, may be remedied without impugning the validity of
a conviction” and finding that Poventud’s conviction had been
“declared invalid by a state tribunal”). See also id., 2014 WL
182313 at *37 (Jacobs, J., dissenting) (arguing “[t]here is no need
to choose a side in this split because the narrow exception articulated by Justice Souter would be inapplicable here in any event”
as “[t]he motivating concern in the Spencer dicta was that circumstances beyond the control of a criminal defendant might deprive him of the opportunity to challenge a federal constitutional
violation in federal court” and the defendant in the Poventud case
“is not such a person”).
21

Leather was assessed a $300 fine as well as a $25 surcharge,
and his driver’s license was suspended for 90 days, but he did not
appeal this conviction. Leather, 180 F.3d at 424. The Second Circuit relied on a prior decision, Jenkins v. Haubert, 179 F.3d 19
(2d Cir. 1999), to decide “whether a plaintiff, convicted of a criminal offense, could proceed with a § 1983 claim where no remedy
of habeas corpus existed.” Id. However, the facts of Jenkins are
distinguishable from Leather and the case at hand. Jenkins’

108a
Cir. 2008)22; Powers v. Hamilton Cnty. Pub. Defender
Comm’n, 501 F.3d 592, 603 (6th Cir. 2007)23 (concluding that Heck is inapplicable because Powers’ one day
§ 1983 claim did not challenge his state court conviction, but was
based on his allegations that a state department of corrections
employee “violated his constitutional right to procedural due process in the course of presiding over two separate disciplinary
hearings.” 179 F.3d at 20. In concluding that Heck’s favorabletermination requirement did not bar Jenkins’ claim, the Second
Circuit observed that, “[i]n Heck, the Court did not address administrative or disciplinary segregation at all because the plaintiff challenged only the legality of his underlying criminal conviction and not any subsequent disciplinary action” and then
“h[e]ld that a § 1983 suit by a prisoner, such as Jenkins, challenging the validity of a disciplinary or administrative sanction
that does not affect the overall length of the prisoner’s confinement is not barred by Heck and Edwards.” 179 F.3d at 27. Thus,
considering that the Leather decision relied on the factually distinct case of Jenkins, this Court concludes that any persuasive
value Leather may have does not override the other considerations that led this Court to conclude that Heck applies to bar the
Plaintiffs’ claims in this case.
22
The Fourth Circuit in Wilson explained that the purpose of
§ 1983 is to “provid[e] litigants with a uniquely federal remedy
against incursions . . . upon rights secured by the Constitution
and laws of the Nation,” and that “[b]arring [the plaintiff’s] claim
would leave him without access to any judicial forum in which to
seek relief for his alleged wrongful imprisonment.” Wilson,
535 F.3d at 268. Plaintiffs here are not claiming they lacked access to a judicial forum in which to raise their Eighth Amendment challenges.
23

The plaintiff in Powers filed a § 1983 action under circumstances similar to the Plaintiffs here, i.e., upon a misdemeanor
conviction for which only a short jail term was imposed. Powers
alleged that he was deprived of an indigency hearing “because
the Public Defender has a policy or custom of failing to request
such hearings when its clients face jail time for nonpayment of
court-ordered fines his incarceration,” and that “the absence of
any inquiry into his ability to pay the court-imposed fine, vio-

109a
term of incarceration for his reckless-driving misdemeanor “was too short to enable him to seek habeas
relief”); DeWalt v. Carter, 224 F.3d 607, 617–18 (7th
Cir. 2000)24 (relying on Spencer to overrule Anderson
v. County of Montgomery, 111 F.3d 494, 499 (7th Cir.
1997), which held that Heck barred a former prisoner
from challenging his conviction in a § 1983 suit even
if he could not seek habeas relief); Cohen v. Longshore,
621 F.3d 1311, 1317 (10th Cir. 2010) (“adopt[ing] the
reasoning of these circuits and hold[ing] that a petitioner who has no available remedy in habeas,
through no lack of diligence on his part, is not barred
by Heck from pursuing a § 1983 claim”); Harden v.
Pataki, 320 F.3d 1289, 1298–99 (11th Cir. 2003) (concluding “that Heck does not bar most § 1983 damages
claims based on improper extradition”).
lated his Fifth, Sixth, and Fourteenth Amendment rights.” Powers, 501 F.3d at 597. However, in a later decision discussing Powers, the Sixth Circuit commented:
Because Justice Souter joined both the Court’s
opinion that Spencer’s habeas claim was moot
and the judgment affirming the district court’s
decision to that effect, the question he raised
about whether Spencer could nevertheless maintain a § 1983 action for damages was not only unnecessary to the holding of the case but could also
be described as purely hypothetical. At this point,
however, we are bound by Powers . . . in which
the panel chose to treat the Souter concurrence
as establishing a rule of law, rather than dictum.
Harrison v. Michigan, 722 F.3d 768, 774 n.1 (6th Cir. 2013).
24

The Seventh Circuit explained that “[u]nlike the plaintiffs in
Preiser, Heck, and Edwards,” Mr. DeWalt’s case does not “lie at
the intersection of sections 2254 and 1983” because “DeWalt does
not challenge the fact or duration of his confinement, but only a
condition of his confinement-the loss of his prison job.” 224 F.3d
at 617. Thus, DeWalt’s circumstances also are unlike those of the
Plaintiffs in this case, who have challenged the fact of their conviction and the resulting fines and, for some, confinement.

110a
Plaintiffs argue that this Court should reach a
similar result, where they argue that Plaintiffs “never
had, and never would have on mootness grounds, an
opportunity to petition for a writ of habeas corpus.”
Pls.’ Resp., p. 1 (Dkt. 143). However, other circuits
have imposed Heck’s bar even when federal habeas relief is not available, notwithstanding the Souter concurrence in Spencer. As described by the Third Circuit:
As we recently held in Gilles v. Davis,
427 F.3d 197, 210 (3d Cir. 2005), a § 1983
remedy is not available to a litigant to
whom habeas relief is no longer available. In Gilles, we concluded that Heck’s
favorable-termination requirement had
not been undermined, and, to the extent
that its validity was called into question
by Spencer, we observed that the Justices who believed § 1983 claims should
be allowed to proceed where habeas relief is not available so stated in concurring and dissenting opinions in Spencer,
not in a cohesive majority opinion.
Williams v. Consovoy, 453 F.3d 173, 177–78 (3d Cir.
2006). See also, Randell v. Johnson, 227 F.3d 300,
300–01 (5th Cir. 2000) (per curiam) (holding that Heck
barred a former prisoner from alleging under § 1983
that he was improperly made to serve two sentences
for the same offense because he was not given credit
for his initial prison stay); Entzi v. Redmann, 485 F.3d
998, 1003–04 (8th Cir. 2007) (stating that “[a]bsent a
decision of the [Supreme] Court that explicitly overrules what we understand to be the holding of Heck, .
. . we decline to depart from that rule” and holding
that the plaintiff’s claim may be pursued only in an

111a
action for habeas corpus relief even though plaintiff
had argued that habeas corpus was no longer available to him on a claim challenging the length of his imprisonment). Indeed, the Supreme Court has said in
a case decided after Spencer that the issue remains
undecided of whether Heck applies when habeas review is unavailable.
See Muhammad v. Close,
540 U.S. 749, 752 (2004) (per curiam) (noting that
“[m]embers of the Court have expressed the view that
unavailability of habeas for other reasons may also
dispense with the Heck requirement” but “[t]his case
is no occasion to settle the issue”).
The Court agrees with this second line of cases.
The majority opinion in Heck described Justice
Souter’s concurring opinion in that case as “adopt[ing]
the common-law principle that one cannot use the device of a civil tort action to challenge the validity of an
outstanding criminal conviction, but [thinking] it necessary to abandon that principle in those cases (of
which no real-life example comes to mind) involving
former state prisoners who, because they are no
longer in custody, cannot bring postconviction challenges.” Heck, 512 U.S. at 490 n. 10. In response, the
majority opinion firmly stated that “the principle barring collateral attacks – a longstanding and deeply
rooted feature of both the common law and our own
jurisprudence – is not rendered inapplicable by the
fortuity that a convicted criminal is no longer incarcerated” and, therefore, could not bring a federal habeas claim. 512 U.S. at 490 n. 10. Thus, the Supreme
Court in Heck considered more than the intersection
of § 1983 actions with habeas relief. The majority
opinion emphasized “the hoary principle that civil tort
actions are not appropriate vehicles for challenging
the validity of outstanding criminal judgments” and

112a
stated the Court’s concern for “finality and consistency” in such cases, where the Court “has generally declined to expand opportunities for collateral attack.” 512 U.S. at 485–86.
This Court is also attuned to the touchstone of
caution that must attend any case such as this, which
arguably invites a remodeling of constitutional law
precedent from our Supreme Court. The Court agrees
with the First Circuit, in a similar proceeding:
We are mindful that dicta from concurring and dissenting opinions in a recently decided case, Spencer v. Kemna,
523 U.S. 1 . . ., may cast doubt upon the
universality of Heck’s “favorable termination” requirement. See id. at 19-21,
118 S.Ct. at 989 (Souter, J., concurring);
id. at 21-23, 118 S.Ct. at 990 (Ginsburg,
J., concurring); id. at 25 n. 8, 118 S.Ct. at
992 n. 8 (Stevens, J., dissenting). The
Court, however, has admonished the
lower federal courts to follow its directly
applicable precedent, even if that precedent appears weakened by pronouncements in its subsequent decisions, and to
leave to the Court “the prerogative of
overruling its own decisions.” Agostini v.
Felton, 521 U.S. 203, 237, 117 S.Ct. 1997,
2017, 138 L.Ed.2d 391 (1997); see also
Rodriguez de Quijas v. Shearson/American Express, Inc., 490 U.S. 477, 484, 109
S.Ct. 1917, 104 L.Ed.2d 526 (1989). We
obey this admonition.
Figueroa v. Rivera, 147 F.3d 77, 81 n. 3 (1st Cir. 1998).

113a
Accordingly, this Court concludes that the particular nuances of Justice Souter’s concurrence in Spencer are not directly implicated in this case, and the
Court finds no exception to the Heck rule drawn from
that decision which would require the result sought
by Plaintiffs here.
E. The Ninth Circuit’s holding in Nonnette is
limited to the particular circumstances of
that case, which are not found here.
Some of the circuit courts finding exceptions to the
ruling in Heck have cited in support the case of
Nonnette v. Small, 316 F.3d 872 (9th Cir. 2002).
Plaintiffs also rely upon Nonnette, arguing that they
were either not incarcerated or not incarcerated long
enough to bring a federal habeas action and, thus,
Heck does not apply. See Pls.’ Resp., pp. 5-6 (Dkt.
143). The facts of Nonnette, however, are far different
than the matter before the Court here.
In Nonnette, the plaintiff claimed that he had been
deprived of “good time” credits which should have reduced the amount of time he spent in state custody.
316 F.3d at 874–75. Nonnette first exhausted his
prison administrative remedies, as required, before
seeking alternative forms of relief. Id. at 874, n. 1.
The remedy for such “good time” deprivation is ordinarily found in a petition for writ of habeas corpus,
but Nonnette could not file a habeas petition because
he already had been released from custody. Id. at
875–76. Under those circumstances, the Ninth Circuit held that Heck did not bar Nonnette from maintaining a § 1983 claim.25 Id. at 876.
25

The issue on appeal was framed as: “Does the unavailability
of a remedy in habeas corpus because of mootness permit
Nonnette to maintain a § 1983 action for damages, even though

114a
However, the Nonnette court “emphasize[d]” that
its holding “affects only former prisoners challenging
loss of good-time credits, revocation of parole or similar matters.” 316 F.3d at 877 n. 7. In contrast to the
Plaintiffs’ claims in this case, Nonnette’s constitutional claim was not ripe at the time that the issue
was being considered by the prison’s administrative
process. It was the decision that resulted in what
Nonnette contended was a short-changing of his good
time credits that gave rise to his § 1983 claim, not the
underlying conviction that led him to prison in the
first place.
A careful reading of the more recent decision in
Guerrero v. Gates, 442 F.3d 697 (9th Cir. 2003) also
limits the holding in Nonnette to other similar circumstances, such as former prisoners challenging loss of
good-time credits, revocation of parole, or similar matters. Guerrero involved a former prisoner who, after
his release from prison, filed a § 1983 challenge to the
validity of his conviction. The Ninth Circuit ruled
that Heck barred his § 1983 claims: “Guerrero never
challenged his convictions by any means prior to filing” his § 1983 lawsuit and that “[h]is failure timely
to achieve habeas relief is self-imposed.” Guerrero,
442 F.3d at 705. “[T]hough habeas relief for Guerrero
may be ‘impossible as a matter of law,’ we decline to
extend the relaxation of Heck’s requirements.”
442 F.3d at 704–05 (comparing Nonnette, where the
plaintiff diligently challenged administrative revocation of good-time credits, with Cunningham v. Gates,
312 F.3d 1148 (9th Cir. 2002), where the plaintiff
failed diligently to challenge an underlying criminal
success in that action would imply the invalidity of the disciplinary proceeding that caused revocation of his good-time credits?”
Id. at 876.

115a
conviction).26 The Guerrero court narrowly construed
the holding in Nonnette, emphasizing that “Nonnette
was founded on the unfairness of barring a plaintiff’s
potentially legitimate constitutional claims when the
individual immediately pursued relief after the incident giving rise to those claims and could not seek habeas relief only because of the shortness of his prison
sentence.” Guerrero, 442 F.3d at 705 (emphases
added). The court emphasized that although “Guerrero is no longer in custody and thus cannot overturn
his prior convictions by means of habeas corpus does
not lift Heck’s bar” and even though exceptions to
Heck’s bar may exist for plaintiffs no longer in custody, “any such exceptions would not apply” in Guerrero’s case. Id. at 704.
Plaintiffs’ claims here are most similar to those of
the plaintiff in Guerrero, in that they seek to challenge
(and thereby invalidate) convictions and sentences
that have never been invalidated, or favorably-terminated, as required by Heck. Their claims are not similar to those described in Nonnette, which are those
brought by “former prisoners challenging loss of goodtime credits, revocation of parole or similar matters”
who have timely pursued other available relief. 316
F.3d at 877 n. 7. Unlike the plaintiff in Nonnette, the
plaintiffs here not only made no timely prior chal-

26

See also Smith v. Ulbricht, No. CV12-00199-M-DLC, 2013
WL 589628, *1-3 (D.Mont. Feb. 14, 2013) (finding the plaintiff’s
request to “expunge and effectively purge any evidence an arrest
ever took place or conviction entered” to be more like Guerrero
than Nonnette and explaining that the plaintiff “has not timely
and diligently sought appropriate relief from his prior convictions” and though habeas relief may be “impossible as a matter
of law,” the plaintiff was not entitled to the relaxation of Heck’s
bar).

116a
lenge, they did not make any challenge to the constitutionality of the government conduct of which they
now complain.
When considered under the Guerrero decision, decisions from other circuit courts that have applied
Heck despite the unavailability of habeas relief, and
against the majority opinion in Heck, this Court views
the holding in Nonnette as limited to the particular
circumstances and distinct facts of that case. Other
district courts in the Ninth Circuit are of the same
mind, in analogous circumstances. See Robertson v.
Qadri, No. C 06-4624 JF, 2009 WL 150952, *3
(N.D.Cal. Jan. 21, 2009) (explaining that Robertson’s
circumstances are entirely different from Nonnette because “[t]he remedy for [Robertson’s] allegedly unlawful arrest and conviction is an appropriate motion or
appeal with respect to his criminal conviction” and,
thus, the Heck doctrine barred Robertson’s later
§ 1983 claim). See also Ra El v. Crain, No. ED CV 05–
00174 DDP, 2008 WL 2323524, *12-13 (C.D.Cal. June
4, 2008) (describing Nonnette as a “narrow exception
limited to plaintiffs (1) who are former prisoners challenging loss of good-time credits, revocation of parole
or similar matters, . . . not collaterally challenging underlying criminal convictions, and (2) who diligently
pursued ‘expeditious litigation’ to challenge those
punishments to the extent possible” (citations and internal quotation marks omitted).27

27

This part of the district court’s decision was affirmed on appeal to the Ninth Circuit, where the panel explained that: “[t]o
the extent that [plaintiff] claims a denial of the Fourteenth
Amendment right to production of exculpatory evidence, summary judgment was proper because a favorable decision on this
claim ‘would necessarily imply the invalidity of his conviction.’”
Ra El v. Crain, No. 08–56122, 399 Fed.Appx. 180, 182, 2010 WL

117a
F. Plaintiffs’ claims for prospective declaratory relief are not claim-precluded.
Alternatively, Defendants argue that Plaintiffs’
constitutional challenge to the Ordinances is claimprecluded because Plaintiffs were convicted and judgments imposed for violations of the Ordinances. See
Defs.’ Mem., p. 7 (Dkt. 141-3). The Court need not
reach this issue as to the non-prospective relief sought
by Plaintiffs. However, because Heck’s bar does not
apply to Plaintiffs’ requests for prospective declaratory relief under the Declaratory Judgment Act, the
Court will now consider whether they are barred by
the doctrine of res judicata.
Res judicata (or claim preclusion) prevents parties
from re-litigating causes of action which were finally
decided in a previous suit. Res judicata is an affirmative defense which, this setting, operates to give preclusive effect to prior state court judgments. See 28
U.S.C. § 1738 (federal courts must afford full faith and
credit to state judicial proceedings); Allen v. McCurry,
449 U.S. 90 (1980) (federal courts considering § 1983
actions must give collateral estoppel preclusive effect
to state court judgments); Migra v. Warren City Sch.
Dist. Bd. of Educ., 465 U.S. 75 (1984). Whether a state
judgment has preclusive effect in a federal action is
determined by state law governing claim preclusion.
See Migra, 465 U.S. at 83–85.
The doctrine of claim preclusion is recognized as
an affirmative defense under Idaho law. Put simply,
“under the principle of res judicata or claim preclusion, judgment on the merits in a prior proceeding
generally bars relitigation between the same parties
3937982, *1 (9th Cir. Oct. 5, 2010) (quoting Heck, 512 U.S. at
487)).

118a
or their privies on the same cause of action.” D.A.R.,
Inc., v. Sheffer, 997 P.2d 602, 605 (Idaho 2000) (citing
Yoakum v. Hartford Fire Ins., 923 P.2d 416 (Idaho
1996)). Claim preclusion generally bars adjudication
not only on the matters offered and received to defeat
the claim, but also as to matters relating to the claim
which might have been litigated in the first suit. Ticor
Title Co. v. Stanion, 157 P.3d 613, 620 (Idaho 2007).
In asserting the affirmative defense, the Defendants
have the burden of establishing all of the essential elements by a preponderance of the evidence. Foster v.
City of St. Anthony, 841 P.2d 413, 420 (Idaho 1992).
Defendants argue that Plaintiffs’ § 1983 claim is
“factually premised upon the same conduct that led to
Plaintiffs’ misdemeanor convictions.” Defs.’ Mem., p.
9 (Dkt. 141-3). Defendants do not explain how Plaintiffs could have requested prospective declaratory or
injunctive relief in their criminal cases. The Court
recognizes that, as described in Preiser v. Rodriguez,
411 U.S. 475 (1975), res judicata principles apply to
civil rights suits brought under § 1983. Id. at 497. See
also Huffman v. Pursue, Ltd., 420 U.S. 592, 606, n. 18;
Wolff v. McDonnell, 418 U.S. 539, 554, n. 12. Additionally, as outlined in Preiser, the doctrine of res judicata has been applied to issues previously decided
both in state civil proceedings, e. g., Coogan v. Cincinnati Bar Assn., 431 F.2d 1209, 1211 (6th Cir. 1970),
and in state criminal proceedings, e. g., Goss v. Illinois, 312 F.2d 257, 259 (7th Cir. 1963). See also Allen
v. McCurry, 449 U.S. 90, 103-04 (1980) (“[N]othing in
the legislative history of § 1983 reveals any purpose to
afford less deference to judgments in state criminal
proceedings than to those in state civil proceedings.”);
Webber v. Giffin, Civil No. 07–1675–KI, 2008 WL
5122702 (D.Or. Dec. 3, 2008) (finding plaintiff barred

119a
from pursuing claims, including constitutional violations under § 1983, where those claims could have
been raised in administrative proceeding addressing
plaintiff’s violation of Oregon water laws).
However, even though the “[t]he transactional
concept of a claim is broad,” Ticor, 157 P.3d 613, 620
(internal quotation marks omitted), the res judicata
doctrine does not stretch so far as to preclude the
claim for prospective declaratory judgment relief that
remains in this case. “What constitutes the same
transaction must be determined pragmatically, giving
weight to such considerations as whether the facts are
related in time, space, origin, or motivation, whether
they form a convenient trial unit, and whether their
treatment as a unit conforms to the parties’ expectations or business understanding or usage.” Sadid v.
Vailas, 936 F.Supp.2d 1207, 1218 (D.Idaho 2013) (internal quotation marks omitted and emphasis added)
(citing Andrus, 186 P.3d at 633 (quoting the Restatement (Second) of Judgments § 24 (1982)). Here, Plaintiffs could have raised a constitutional claim as a defense to their criminal charges. However, claims for
prospective injunctive and declaratory relief – traditionally tried in a civil court -- were likely unavailable
for them, and would not have formed a convenient
trial or conformed to the parties’ expectations about
the issues involved in a criminal case.
The Court finds persuasive the decision in Cutler
v. Guyer, No. 3:08–CV–371– BLW, 2010 WL 3735689
(D.Idaho Sept. 14, 2010), in which District Judge B.
Lynn Winmill ruled that claim preclusion principles
did not bar a § 1983 claim. Although brought under
different circumstances, the defendants in Cutler
sought to use both claim and issue preclusion to dis-

120a
miss a federal civil rights action based on the plaintiff’s prior state habeas corpus action. “An Idaho habeas corpus action is a unique state law cause of action based upon the Idaho Constitution and Idaho
statute,” Judge Winmill wrote, and while that action
“may involve federal constitutional issues, there is ordinarily no right to discovery, no availability of jury
trial, and no availability of a remedy other than injunctive relief.” Id. at *10.
Plaintiffs did have a right to a jury trial in their
criminal cases.28 However, the criminal rules and procedures do not permit the extent of discovery allowed
in civil cases, nor provide an avenue to join a civil
counterclaim in a criminal proceeding.
In summary, res judicata and claim preclusion
principles do not bridge this proceeding and the plaintiffs’ individual criminal prosecutions. There is
simply not a sufficient common ground between the
facts and the nature of the proceedings to permit such
a defense in this case. Additionally, because claim
preclusion does not apply, the Court need not consider
Plaintiffs’ argument that Defendants waived this defense by excluding it from their Answer to the
Amended Complaint.

28

See Idaho Code § 19-1902 (“Issues of fact must be tried by
jury, unless a trial by jury be waived in criminal cases by the
consent of both parties expressed in open court and entered in
the minutes. In case of misdemeanor the jury may consist of six
(6) or any number less than six (6) upon which the parties may
agree in open court. There shall be no right to trial by jury for an
infraction punishable only by a penalty not to exceed one hundred dollars ($100) and no imprisonment.”).

121a
G. Conclusion
On the facts of this case, the favorable termination
requirement of Heck is a bar to Plaintiffs’ § 1983
claims. However, Plaintiffs’ claim for prospective injunctive and declaratory relief, to the extent that such
claim seeks declaratory relief under the Declaratory
Judgment Act, is not barred by Heck. Finally, the
criminal cases and the instant case are not sufficiently
identical under a claim preclusion analysis to justify
application of the bar of res judicata to Plaintiffs’
claims for prospective declaratory and injunctive relief.
A portion of this case remains, but most of the
claims have been dismissed. In the exercise of its discretion, the Court finds that it is appropriate for case
management purposes to require Plaintiffs to file a
second amended complaint stating only the claim that
remains. After the Amended Complaint is filed, and
Defendants respond in the ordinary course, the parties shall meet and confer and submit a new stipulated litigation plan. The stipulated litigation plan is
due no later than twenty days after Defendants respond to the Amended Complaint. At that time, the
Court will set a telephonic case management conference.
ORDER
ACCORDINGLY, IS HEREBY ORDERED that
Defendants’ Second Motion for Summary Judgment
(Dkt. 141) is GRANTED, in part, and DENIED, in
part, as set forth in more detail above.
On or before February 25, 2014, Plaintiffs shall
file and Amended Complaint. After the Amended
Complaint is filed, and Defendants respond, the par-

122a
ties shall meet and confer and submit a new stipulated litigation scheduling plan. The stipulated litigation plan is due no later than 20 days after Defendants
respond to the Amended Complaint.
DATED: January 27, 2014

_______________________
Honorable Ronald E. Bush
U. S. Magistrate Judge

123a
APPENDIX D
STATUTORY PROVISIONS INVOLVED
Boise, Idaho City Code, § 5-2-3:
Disorderly Conduct
A. Violations: Any person who violates the provisions below is guilty of a misdemeanor:
1. Occupying, lodging or sleeping in any building,
structure or place, whether public or private, or in any
motor vehicle, without the permission of the owner or
person entitled to possession or in control thereof; or
2. Loitering, prowling or wandering upon the private property of another, without lawful business,
permission or invitation by the owner or the lawful occupants thereof; or
3. Loitering or remaining in or about school
grounds or buildings, without having any reason or
relationship involving custody of or responsibility for
a pupil or student, school authorized functions, activities or use. (1952 Code § 6-01-05)
B. Availability Of Overnight Shelter:
1. Law enforcement officers shall not enforce subsection A of this section (disorderly conduct) when the
individual is on public property and there is no available overnight shelter. The term “available overnight
shelter” is a public or private shelter, with an available overnight space, open to an individual or family
unit experiencing homelessness, at no charge. If the
individual cannot utilize the overnight shelter space
due to voluntary actions, such as intoxication, drug
use, unruly behavior or violation of shelter rules, the

124a
overnight shelter space shall still be considered available.
2. This section does not affect subsection 7-7A-5E
or 7-7A-10A of this Code, which do not prohibit sleeping in a public park during hours of operation. (Ord.
38-14, 9-23-2014)
Boise, Idaho City Code, § 7-3A-2:
Camping In Public Places
A. Prohibitions: It shall be unlawful for any person to use any of the streets, sidewalks, parks or public places as a camping place at any time, or to cause
or permit any vehicle to remain in any of said places
to the detriment of public travel or convenience; or to
cause or permit any livestock of any description to be
herded into any of said places during any hours of the
day or night; provided, that this section shall not prohibit the operation of a sidewalk cafe pursuant to a
permit issued by the City Clerk. The term “camp” or
“camping” shall mean the use of public property as a
temporary or permanent place of dwelling, lodging or
residence, or as a living accommodation at any time
between sunset and sunrise, or as a sojourn. Indicia
of camping may include, but are not limited to, storage
of personal belongings, using tents or other temporary
structures for sleeping or storage of personal belongings, carrying on cooking activities or making any fire
in an unauthorized area, or any of these activities in
combination with one another or in combination with
either sleeping or making preparations to sleep (including the laying down of bedding for the purpose of
sleeping).
B. Enforcement: Law enforcement officers shall
not enforce this camping section when the individual

125a
is on public property and there is no available overnight shelter. The term “available overnight shelter”
is a public or private shelter, with an available overnight space, open to an individual or family unit experiencing homelessness, at no charge. If the individual
cannot utilize the overnight shelter space due to voluntary actions, such as intoxication, drug use, unruly
behavior or violation of shelter rules, the overnight
shelter space shall still be considered available.
C.
Exception: This section does not affect subsection 7-7A-5E or 7-7A-10A of this title, which do not
prohibit sleeping in a public park during hours of operation. (Ord. 38-14, 9-23-2014)

126a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
JANET F. BELL, BRIAN S. CARSON,
CRAIG FOX, ROBERT MARTIN, LARENCE LEE SMITH, ROBERT ANDERSON, PAMELA S. HAWKES, JONATHAN LEIGH MILLER, JAMES M.
GODFREY, BASIL E. HUMPHERY,
AND KIRK ROSS,
Plaintiffs,
v.
CITY OF BOISE; BOISE POLICE DEPARTMENT; AND MICHAEL MASTERSON, IN HIS OFFICIAL CAPACITY AS
CHIEF OF POLICE,

Civil Action No.
1:09-CV-00540REB
AFFIDAVIT
OF JAMES R.
HALL

Defendants.
James R. Hall, first duly sworn upon oath, states
as follows:
1. I am employed by the City of Boise, Idaho, as
Director of the Boise Parks and Recreation Department. I make this affidavit of my own personal
knowledge on behalf of the named Defendants named
herein.
2. I have been employed as Director of the Boise
City Department of Parks and Recreation since 1991
and have knowledge of the Boise City Code and the

127a
department’s policies and procedures under which my
department and its employees operate.
3. Boise City Code, Title 13, Chapter 3, Public
Parks, regulates activities of the public in Boise City
public parks. Acts not specifically prohibited by Title
13, Chapter 3 are presumed to be permissible activities in Boise City public parks.
4. Sleeping in a Boise City public parks during the
“hours of operation,” described in Section 8A of Title
13, Chapter 3, Boise City Code, is an activity not specifically prohibited by Title 13, Chapter 3. As not specifically prohibited by Title 13, Chapter 3, sleeping in
a Boise City public park during the hours of operation
is an activity that is an allowed use for persons within
a Boise City public park. In fact, people do sleep in
Boise City public parks legally – on blankets, on
benches, in their cars, et cetera – during the hours of
operation, and they cannot be prohibited from or criminally cited for doing so. This has been the case for as
long as I’ve been the Director of the Department of
Parks and Recreation.
5. The Department of Parks and Recreation maintains a number of policies and procedures, none of
which prohibit sleeping in a Boise City public park
during the hours of operation.
6. The following Boise City public parks are all located one mile or less from Interfaith Sanctuary,
River of Life, and Corpus Christi House:
a. Julia Davis Park at 700 S. Capitol Boulevard, Boise, is 89.4 acres in size and is located .8 mile from Interfaith Sanctuary, .6
mile from River of Life, and .8 mile from
Corpus Christi House.

128a
b. Ann Morrison Park at 1000 Americana
Boulevard, Boise, is 153 acres in size and is
located .5 mile from Interfaith Sanctuary,
.4 mile from River of Life, and .5 mile from
Corpus Christi House.
c.

Kathryn Albertson Park at 1001 Americana Boulevard, Boise, is 41 acres in size
and is located .5 mile from Interfaith Sanctuary, .7 mile from River of Life, and .5 mile
from Corpus Christi House.

d. Fairview Park at 2300 W. Idaho Street,
Boise, is 2 acres in size and is located .6
mile from Interfaith Sanctuary, .8 mile
from River of Life, and .6 mile from Corpus
Christi House.
e.

Capitol Park at 601 W. Jefferson Street,
Boise, is 2 acres in size and is located one
mile from Interfaith Sanctuary, .9 mile
from River of Life, and one mile from Corpus Christi House.

f.

McAuley Park at 1650 W. Resseguie, Boise,
is .25 acres in size and is located .8 mile
from Interfaith Sanctuary, one mile from
River of Life, and .8 mile from Corpus
Christi House.

7. Outside park hours of operation, no one is allowed to enter or remain in the Boise City public parks
except for transit through the park, or as authorized
by permit, or for specific department programs and activities with lighting for nighttime recreational activities. Vehicles are towed from the Boise City public
parks if they remain in the park outside the hours of
operation.

129a
8. Erection of a tent for the purpose of camping is
not allowed in Boise City public parks unless special
permission to do so has been received from the Director. Erection of a tent for other purposes, such as
shading while watching a sporting event during park
hours, is allowed and requires no special permission.
9. Because of people sleeping in and committing
vandalism to the Boise City public park toilet facilities, my department began installing automatic locks
back in approximately 2003 to lock the public park toilet facilities at night. Doing so has significantly reduced the incidents of sleeping and vandalism occurring in those facilities. The department hopes to complete installation of automatic locks on all restrooms
by 2011.
10. The Boise City public parks are not equipped
with the physical features and facilities necessary to
accommodate camping such as staff-monitored camp
sites, dedicated trash collection systems, bathing facilities, and 24-hour toilets. Without such amenities
available, people would need to urinate and defecate
in areas where other park visitors were walking, playing, or resting or where wildlife, open spaces, and the
Boise River would be negatively impacted by disposal
of human waste. Without the physical features and
facilities necessary to accommodate camping, camping in Boise City public parks and public open space
areas such as the foothills and next to the Boise River
poses a direct risk to health and safety of Boise City’s
residents and visitors who could happen upon or inadvertently discover the trash and human waste and
would adversely affect wildlife, water quality, riparian areas and the natural environment.
11. The Boise Police Department’s bicycle patrol
officers are quick to respond to any safety needs in the

130a
Boise City public parks. They immediately respond to
reduce problems in and around the Boise City public
parks. BPD takes a proactive role to deter crime and
injury in the Boise City public parks, along the Greenbelt, the Boise River, and the public open space in the
foothills to ensure these areas are available to the
public for their intended uses.
DATED this __

___ day of September, 2010.

___________________
JAMES R. HALL
Director the Boise Parks &
Recreation Department
SUBSCRIBED AND SWORN to before me this _
day of September, 2010.
_________
_______________________________
NOTARY PUBLIC for Idaho
My Commission Expires:
___

131a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
JANET F. BELL, BRIAN S. CARSON,
CRAIG FOX, ROBERT MARTIN, LARENCE LEE SMITH, ROBERT ANDERSON, PAMELA S. HAWKES, JONATHAN LEIGH MILLER, JAMES M.
GODFREY, BASIL E. HUMPHERY,
AND KIRK ROSS,
Plaintiffs,
v.
CITY OF BOISE; BOISE POLICE DEPARTMENT; AND MICHAEL MASTERSON, IN HIS OFFICIAL CAPACITY AS
CHIEF OF POLICE,

Civil Action No.
1:09-CV-00540REB
AFFIDAVIT
OF SERGEANT CLAIR
WALKER

Defendants.
SERGEANT CLAIR WALKER, first duly sworn
upon oath, states as follows:
1. I make this affidavit of my own personal
knowledge on behalf of the Defendants named herein.
2. I have been employed by the Boise Police Department for over 20 years. In 2000 I was promoted
to sergeant. I supervised patrol teams from 2000 until
March of 2009. I also was the coordinator for the field
training officer (F.T.O.) program from 2000 to 2004. I
was in charge of purchasing, logistics, and deployment
of all marked police vehicles in the BPD fleet. I am

132a
currently on the committee that developed and implemented the 700 MHZ radio system in Ada County. I
have been the sergeant of the Bike Patrol Unit since
March of 2009.
3. With respect to the Bike Unit, I supervise the
unit members, and oversee law enforcement of special
events in the City of Boise.
4. The Bike Unit’s primary mission is the Greenbelt and the Boise City Parks. Our secondary mission
is the downtown core. In those areas, our mission is
prevention of violations of law, public education of
what the law is, and enforcement when necessary. I
task the bike unit members to do all three of these elements of service on any given day.
5. I am familiar with Boise Police Department
policies, practices and customs. There has never been
a policy, practice or custom of the Boise City Police
Department to cite homeless persons for violations of
sleeping in public when shelter was not available.
6. A true and correct copy of Boise Police Department Special Order concerning enforcement of camping and sleeping ordinances is attached as Exhibit
#26. It was adopted on January 1, 2010, in order to
clarify the BPD’s policy in relation to shelter availability protocol.
7. The three largest homeless shelters in Boise
serve various homeless populations. Interfaith Sanctuary provides shelter for single women, single men,
and families. The Boise Rescue Mission (BRM) has
two shelters. BRM’s River of Life provides shelter to
single men. BRM’s City Lights provides shelter to single women and women with children.
8. It is my understanding that the homeless shelters in Boise have not concurrently reached capacity

133a
for any one population. In other words, Sanctuary
may be full for women on one night, but City Lights is
not.
9. In an effort to work more closely with the shelters and to better gather information about shelter
availability, in December 2009 I worked with both
Jayne Sorrels, of the Interfaith Sanctuary, and Stuart
Sampson, of the Boise Rescue Mission, to devise a way
in which the shelter staff would communicate with
BPD about the availability of shelter.
10. As part of that effort I took several steps.
First, I worked to ensure that there was a manner in
which the shelters could communicate to BPD when
they were full. The shelters' staff voluntarily agreed
to call BPD staff around 11 p.m. on each evening they
were full in relation to the populations they serve.
11. The next step was to find an appropriate entity to contact in order for them to relay the information. By appropriate, the information needed to be
distributed quickly and efficiently to all BPD patrol
officers. We first attempted to use Ada County dispatch. Information on shelter availability was not
viewed to be an emergency within Ada County dispatch's core mission and they declined. We next approached Boise State University Dispatch which has
a contract with BPD for law enforcement services.
They accepted the responsibility of receiving the shelter phone calls, and distributing the information via
e-mail Department-wide.
12. I next worked to devise a sheet wherein BSU
Dispatch could record the information as it came in
from the homeless shelters. A true and correct copy of
the form I devised, “Overnight Shelter Capacity Advisory”, is attached as Exhibit #27.

134a
13. Once the information is received from a shelter on any given night, that information is transferred
immediately by dispatch via department e-mail so
each patrol officer can see the status of shelter availability for that evening. Because the vast majority of
sleeping and camping citations are written in the
early morning, any officer who receives and opens this
e-mail after 11 p.m. will know the availability of shelters for the following morning and day.
14. The City of Boise does not dictate to the shelters a definition of “full.” The shelters’ staff is able, at
their discretion, to make that determination.
15. BSU dispatch periodically receives phone
calls from Interfaith Sanctuary informing they are
full for men, women or families. For instance, on February 3, 2010, the Sanctuary called BSU dispatch to
inform of their status as full for men. BSU dispatch
filled out the Advisory form, and sent an e-mail to all
officers Department-wide. A true and correct copy of
the February 3, 2010, Advisory form is attached as Exhibit #28. A true and correct copy of the February 3,
2010, Department-wide e-mail is attached as Exhibit
#29.
16. To my knowledge, we have never received notification from the largest homeless shelter provider,
Boise Rescue Mission, that they are full for men,
women or women with children.
17. I am familiar with the Boise City Code and
police practices as they related to arresting individuals for criminal acts.
18. As a general rule, misdemeanors cited under
Boise City Code §§ 6-01-05(A) and (B), 6-17-06(G), 910-02, and 9-14-04(E) are not ones in which we routinely arrest.

135a
DATED this

day of September, 2010.

____
____________________________
CLAIR WALKER
Sergeant

SUBSCRIBED AND SWORN to before me this
day of September, 2010.

______________________
NOTARY PUBLIC for Idaho
My Commission Expires:
_

136a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
JANET F. BELL, BRIAN S. CARSON,
CRAIG FOX, ROBERT MARTIN, LARENCE LEE SMITH, ROBERT ANDERSON, PAMELA S. HAWKES, JONATHAN LEIGH MILLER, JAMES M.
GODFREY, BASIL E. HUMPHERY,
AND KIRK ROSS,
Plaintiffs,
v.
CITY OF BOISE; BOISE POLICE DEPARTMENT; AND MICHAEL MASTERSON, IN HIS OFFICIAL CAPACITY AS
CHIEF OF POLICE,

Civil Action No.
1:09-CV-00540REB
AFFIDAVIT
OF SERGEANT ANDREW S.
JOHNSON

Defendants.

OFFICER ANDREW S. JOHNSON, first duly
sworn upon oath, states as follows:
1. I make this affidavit of my own personal
knowledge on behalf of the Defendants named herein.
2. In July 2000 I began working for the BPD as a
patrol officer. I have an Associates Degree in English
from San Jose State. I hold an advanced certificate
from the Idaho Peace Officers Standards and Training
Academy (POST). I have over 1,500 hours of police

137a
training and 10 years of police experience. Approximately 3 1/2 years ago I transferred to the bike unit
as a patrol officer.
3. I am personally familiar with the nature of this
lawsuit and am personally familiar with the events
and persons about which I testify below. I am personally familiar with the Boise City Code including §§ 601-05(A) and (B), 6-17-06(G), 9-10-02, and 9-14-04(E),
as well as other sections. The facts relating to the citations described below occurred within the city limits
of Boise, Idaho.
4. The mission of the Bicycle Patrol Unit is to provide Service (Education, Prevention, Enforcement) in
the areas of the Parks, Greenbelt, foothills and other
areas difficult to patrol by vehicle in Boise, Idaho. The
Bike Patrol Unit, together with Parks and Recreation
and Greenbelt Volunteers, strives to maintain a safe,
and sanitary, environment for all.
5. The bike unit patrols the parks, the greenbelt,
and the foothills to keep them safe. We enforce camping ordinances in the parks, foothills and other public
places, not just to keep them safe and sanitary, but
also to allow users to utilize these public places as
they were intended to be used.
6. I am familiar with the City of Boise’s policy on
camping and sleeping in public as it relates to persons
who are without shelter. A person who is homeless
may not be able to obtain shelter if the shelters who
serve that person are full on a given night. On that
night, that person would have no where to sleep but
in public. When a person is in that situation, the City
of Boise’s policy is that the person is not in violation
of the law for sleeping in public.

138a
7. I was trained on this policy and, because as a
bike officer I am very familiar with the camping and
disorderly conduct ordinances, I provided training for
various officers in the department.
8. Neither I, nor other officers within the police
department, make the determination as to whether a
particular shelter is full. I am notified by e-mail if a
shelter(s) is full for a particular group(s). I do not
have discretion to override that notification.
9. I have had training in mental illness, drug and
alcohol abuse issues, and medical issues.
10. As for the City’s parks, they are open to anyone during the day. Any person may partake in any
activity which is not prohibited by parks policy during
park hours. This includes sleeping during the day.
This has been the park policy for as long as I have
been a bike officer. It is my practice to inform individuals who I believe to be homeless that it is legal for
them to sleep in a park during park hours. I also inform them that they cannot camp in public, whether
in a park or elsewhere.
11. There have been occasions when I have come
across a person who is lawfully sleeping in a park during the day and I have checked on them to ensure
their welfare. This is commonly called a “welfare
check.” When it appears to me that I need to check on
someone’s welfare, I do wake them to ensure they do
not need a medical or police assistance. My first approach is to attempt to wake the person with verbal
inquiries. If I do not get a response to my verbal inquiries, I will tap the bottom of a person’s foot, which
usually has a shoe on, with my foot. This is the safest
method of waking an individual. Once they are
awake, I speak with them to see if, in my judgment,

139a
they need help. If I determine they are not in any
need of police or medical assistance, I go along my
way.
12. The bike unit often gets direction or requests
for assistance from the Parks and Recreation Department as it relates to use and maintenance of the
parks, the Greenbelt and the foothills. The Parks Department has often communicated concerns to the
bike unit about people camping in the parks overnight, sleeping in public restrooms when the parks are
closed, finding a tremendous amount of garbage, and
encampments (people staying in an area with sleeping
bags, blankets, feces, tents, garbage, etc.). When
Parks asks for assistance, it is our directive to assist
them in alleviating the problems in order to keep the
parks, restrooms, Greenbelt and foothills safe, sanitary and available for their intended use by the public.
JANET F. BELL AND LAWRENCE LEE SMITH
13. The City had been receiving phone call complaints about a camp and citizens concerned about the
possibility that someone had been injured and in need
of a welfare check at the south end of the trestle bridge
east of the inbound connector. To the best of my
knowledge this is Boise Parks Department property.
On April 28, 2007, at approximately 3:30 p.m., I
checked for the camp and to see if someone was injured. In this spot, under the bridge, I found two individuals, who identified themselves as Janet F. Bell
and Lawrence Lee Smith, with a tent which was set
up.
JANET F. BELL
14. In relation to Bell at the trestle bridge camp,
she admitted to being there overnight. I confirmed
with her that she did not need medical assistance.

140a
She said she had been in Boise for about week from
Newport, Oregon. I cited her for camping. A true and
correct copy of the citation is attached as Exhibit #21.
LAWRENCE LEE SMITH
15. On April 28, 2007, the man who identified
himself as Lawrence Lee Smith admitted to camping
under the trestle bridge for one day. He admitted he
built “a camp.” When I asked him about shelters and
resources, he told me, “I have job. I have money... I
just don’t like to pay rent.” I confirmed that he did not
need medical assistance. I cited him for camping. A
true and correct copy of the citation is attached as Exhibit #22.
16. Smith had a $1,000 warrant out of Ada
County. Normally, I would not cut someone loose on
a warrant such as this, but in this case, because patrol
had many calls for service that afternoon, I cut him
loose on his warrant. He promised to take care of his
tent, and other belongings.
17. On May 12, 2007, at approximately noon I
went to check on a camp due to a citizen complaint to
the police department about a person camping in the
area of the Dredge Ponds just west of 31st Street and
Pleasanton Street. To the best of my knowledge this
is Boise Parks Department property. At this location
I came across Lawrence Lee Smith who admitted he
had been camping there for a week. Smith indicated
he was “packing up today.” At this location he had a
tent set up, and a chair. He said he had been informed
in the past that camping was not legal. Regarding
shelters he said that the “shelters suck,” and “I ain’t
doin’ no shelters.” Smith informed me he had a job.
Smith promised to clean up the camping spot which
had beer cans scattered about. I explained to him that

141a
the park closes at sunset. I cited Smith for camping.
A true correct copy of which is attached as Exhibit
#23.
DATED this

day of September, 2010.

_______
_____________________
ANDREW S. JOHNSON
SUBSCRIBED AND SWORN to before me this __
day of September, 2010.
___
NOTARY PUBLIC for
My Commission Expires:

Idaho

142a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
ROBERT MARTIN AND
ROBERT ANDERSON,

Civil Action No. 1:09CV-00540-REB

Plaintiffs,
vs.
CITY OF BOISE,

AFFIDAVIT OF MICHAEL CULTON

Defendant.
I, MICHAEL CULTON, being first duly sworn upon
oath, depose and state as follows:
1. I have personal knowledge of the testimony set
forth herein and I am competent to testify as follows.
2. I am currently employed as a Supervisor and
Analyst in the Crime Analysis Unit of the City of Boise
Police Department. I have been employed with the
Crime Analysis Unit since 2012 and have a total of
nine years experience working in intelligence and
analysis at both the federal and state level. Through
my employment, I have received training and experience in crime and statistical analysis.
3. In my current position with the City of Boise’s
Crime Analysis Unit, I have access to and am familiar
with the City of Boise’s records of the citations and reports completed by Boise’s police officers in the ordinary course of the City’s law enforcement responsibilities. I also have access to and am familiar with the
City’s records regarding the publically-initiated calls
for service, which are phone calls made from members

143a
of the public to the Boise Police Department reporting
a possible crime, emergency situation, or other health
or safety concern. Each publically-initiated call for
service requires at least one police officer with the
City to respond and investigate the subject of the call.
Furthermore, I am familiar the different geographical
areas in Boise and the historical numbers of publically-initiated calls for service that arise from the different areas in Boise.
4. One area of the City of Boise that I have been
analyzing in my position is the area in and around
Rhodes Park located under the connector at 1555 W.
Front Street. Rhodes Park is a public skateboard park
owned and maintained by the City of Boise Department of Parks & Recreation. In 2013 and 2014, the
Rhodes Park area experienced an increase in the presence of homeless individuals camping overnight in violation of Boise City Code 9-10-02. The number of
homeless staying overnight at the encampment steadily grew and more and more tents, mattresses, and
make-shift structures began to appear. The individuals camping at Rhodes Park began referring to the encampment as “Hobo Hangout.” Homeless individuals
repeatedly camped overnight in the Rhodes Park area
despite their being capacity at the homeless shelters
in Boise (River of Life, City Light and Interfaith Sanctuary) to provide emergency overnight shelter.
5. My review of the publically-initiated calls for
service in and around the Rhodes Park area over the
last five years reveals that there were significant increases in 2013 and 2014 of members of the public
calling Boise Police Department to report possible
crimes, emergency situations, and other health and
safety concerns. There is a direct correlation between
the increase in publically-initiated calls for service

144a
and the presence of the homeless encampment at
Rhodes Park. In addition to an increase in calls reporting illegal camping, drug activity, and alcohol violations, there was an alarming increase in 2013 and
2014 in the number of calls reporting homeless individuals being intoxicated in public, creating a public
disturbance and in need of officer assistance (i.e. a
welfare check).
6. Most alarming is that 2013 and 2014 saw a significant increase in calls reporting ‘severe physical altercations, such as assaults, aggravated batteries and
fights between the homeless individuals camping and
congregating in the Rhodes Park area. Sadly, on October 28, 2014, a homicide occurred only several yards
from the epicenter of the homeless encampment at
Rhodes Park. The victim was a homeless man who
had reportedly been frequenting the encampment at
Rhodes Park. The suspect, Scotty Turnbull, was also
homeless at the time of the homicide and Mr. Turnbull
has since been charged with murder.
7. Additionally, the increase and overt centralization of the homeless encampment at Rhodes Park has
also correlated in an increase in victimization of the
homeless in non-violent crimes, specifically fraud. In
2014 and 2015, criminal groups like “Operation
Homeless,” surreptitiously recruited homeless individuals in or near the Rhodes Park encampment in order to have them engage in fraudulent transactions
and contracts on behalf of the criminal group (i.e.
counterfeit check cashing, cellular phone accounts).
The perpetrators target vulnerable homeless individuals who they can locate more easily at centralized encampments and elicit their involvement in criminal
activity that could potentially lead to felony criminal
charges against the homeless person.

145a
DATED this ___

_ day of April, 2015.
________
Michael Culton

SUBSCRIBED AND SWORN TO before me this
__

___ day of April, 2015.
______
Notary Public for the State of
Idaho Residing at
My Commission Expires

146a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
ROBERT MARTIN AND
ROBERT ANDERSON,

Civil Action No. 1:09CV-00540-REB

Plaintiffs,
vs.
CITY OF BOISE,

AFFIDAVIT OF ALLISON RAE DUMAN

Defendant.
I, Allison Rae Duman, being first duly sworn upon
oath, depose and state as follows:
1. I have personal knowledge of the testimony set
forth herein and I am competent to testify as follows.
2. I am the Office Manager of Glancey, Rockwell,
& Associates (GRA) located at 595 S. Americana Blvd,
Boise, ID 83702. I have been employed at GRA for
over 10 years and GRA has been at this location for
more than 14 years.
3. GRA has had a significant increase in issues
with homeless individuals, since the homeless encampment at Rhodes Park started forming in 2014,
which have negatively affected this business and
caused concern for the safety and security of our employees and customers.
4. I have called the Boise City Police approximately twenty times in the past couple of years for numerous issues relating to the homeless encampment
and signed an Authorization by Owner to Eject and

147a
Enforce Trespass Law in order to allow the Boise Police Officers to enter GRA property during non-business hours. I have witnessed drug use by homeless
individuals on the perimeter of GRA property and
have called the paramedics out of concern for homeless individuals that appeared to have passed out on
the sidewalk in front of our business from drug or alcohol use.
5. GRA has incurred property damage and has installed a fence around a portion of the property to discourage loitering and trespass. We have found homeless individuals sleeping on our property on numerous
occasions. These individuals have left debris, clothing, empty alcohol containers and drug paraphernalia
on our property. Unfortunately, on numerous occasions we have also found feces, urine, and vomit on
our property.
6. GRA employees no longer feel safe and will not
walk anywhere in proximity to GRA property by
themselves. We have also had numerous complaints
from customers indicating they will no longer come to
our location due to safety concerns.
7. As part of my employment I sit at the desk
which is located immediately behind the front door to
the business and have a view out the front into an
open parking lot immediately next to Americana Blvd.
There has been a significant increase in the number
of homeless individuals loitering and walking along
Americana Blvd. since the formation of the homeless
encampment by Rhodes Park.
8. On several occasions in the past year I have
witnessed numerous altercations between homeless
individuals which lead to either shouting matches or

148a
even fistfights. We have had homeless individuals enter GRA and become very belligerent and refused
when asked to leave the premises. I now have to
watch the activity outside our front door and, on occasion, have had to lock the front door during business
hours to keep homeless individuals out of our business. We are currently looking into installing a front
security door which we can lock remotely and quickly
when we see questionable individuals or repeat offenders approach the building. Installation of this
system will be at considerable expense to our company.
DATED this

day of April, 2015.

Allison Rae Duman

__

SUBSCRIBED AND SWORN TO before me this
_____ day of April, 2015.
_________
Notary Public or the State of
Idaho Residing at
My Commission Expires

